           October1,1,1999
          October      2000- March
                             – March
                                   31,31, 2001
                                       2000




                                 OFFICE OF INSPECTOR GENERAL




SemiannualReport
Semiannual Report
       toCongress
      to Congress
   Including
 Including   Significant
           Significant   Activities
                       Activities ofof
                                    thethe Inspection
                                         Inspection   Service
                                                    Service
                     A Message from the
                     Inspector General
                     A Foundation for the Future


                     I
                         am pleased to report that midway through our fifth year as an indepen-
                         dent Office of Inspector General (OIG), we continue to serve as an inde-
                         pendent and objective voice that illuminates areas where the Postal Ser-
                     vice can prevent fraud, waste, abuse, and mismanagement and improve its
                     critical management practices. After establishing our presence and forming a
                     highly-talented, experienced, and dedicated team of OIG employees, the
KARLA W. CORCORAN    results of our efforts are clear. Our work is making a difference – not just to
 Inspector General   the Postal Service but also to the inspector general and federal law enforce-
                     ment communities and to the American public.
                           By investing in our own future, we have invested in the future of the
                     Postal Service. We are using the latest and best technology to improve our
                     productivity to better assist the Postal Service. We have made great progress
                     in clarifying our roles and responsibilities with those of the Inspection Ser-
                     vice, and successfully transitioned field financial audit work previously han-
                     dled by the Inspection Service. To better serve our customers, we broadened
                     our presence nationwide – this reporting period, we opened four new offices
                     across the country, bringing our total number of field offices to 15. We imple-
                     mented a reorganization designed to focus our resources on the Postal Ser-
                     vice’s needs and priorities. And, after months of aggressive recruiting efforts,
                     we are close to meeting our staffing goal of 725 employees.
                           We are now focusing on more complex issues within the Postal Service.
                     In our first four years of performing audits and investigations, clear trends
                     have emerged. We have used these trends to identify areas in postal opera-
                     tions that need to be strengthened. As I noted in my April 4, 2001, statement
                     to the House Committee on Government Reform, these areas include con-
                     tracting, budget, return on investment, labor management, systems develop-
                     ment, computer security and privacy, and strategic planning. Based on the
                     work we have completed since our inception and the knowledge we have
                     gained of the Postal Service, we have identified what we believe are the most
                     challenging issues the Postal Service faces. These issues are discussed in detail
                     on pages 14 through 19.
                           It is crucial that we continue to serve as an independent and objective
                     voice that adheres to the highest quality standards possible. The past six
                     months have been a turbulent time for the Postal Service. While it ended
                     FY 2000 with high levels of customer satisfaction, record service delivery, and
                     increased productivity, the Postal Service has projected a loss of $2 billion to
                     $3 billion for this fiscal year. Because of this projected loss, the Postal
                     Service’s operations, practices, policies, and services are being scrutinized
                     intensely by competitors, the media, and stakeholders. We recognize that the
                     Postal Service faces tremendous challenges in the emerging electronic
                     marketplace and commend its efforts to address these issues. We believe that
                     by strengthening its basic operations and ensuring its core business processes
                     are sound, the Postal Service will be taking significant steps in overcoming
                     these challenges.
                                                This Semiannual Report to Congress details the significant activities and accomplishments of
                                           the OIG and the Inspection Service from October 1, 2000, through March 31, 2001. This report
                                           details the efforts of both the OIG and the Inspection Service toward combating fraud, waste, abuse,
                                           and mismanagement within the Postal Service and fulfills our reporting requirement under the
                                           Inspector General Act and Inspection Service requirements under the Mail Order Consumer Pro-
                                           tection Act.
                                                In this reporting period, we issued 88 audit reports and 117 management advisory reports and
                                           other products. These efforts resulted in over $109 million in questioned costs, unrecoverable costs,
                                           and funds to be put to better use. In addition, we closed 86 investigations resulting in 30 arrests; 34
                                           indictments; 16 convictions; over $3 million in fines, penalties and restitution; as well as over $25
                                           million in cost avoidances, savings, and funds to be put to better use. Our efforts resulted in
                                           291 written products to strengthen Postal Service programs and operations.
                                                In May we will bid farewell to one of our senior management members who will be retiring.
                                           We will miss Sylvia L. Owens, our Deputy Inspector General, who has been with the OIG since its
                                           inception. Ms. Owens has been a tremendous asset and was instrumental in establishing the inves-
                                           tigative arm of this office. Based on her outstanding reputation in the law enforcement communi-
We will miss Sylvia L. Owens, our Deputy   ty, we have been able to attract highly-qualified investigators from many federal agencies. As
Inspector General, who retires in May.     Deputy Inspector General, she provided invaluable support and strategic vision in overseeing the
                                           day-to-day operations of the OIG.
                                                The Postal Service will also undergo a significant change in leadership when William J.
                                           Henderson, Postmaster General and Chief Executive Officer, leaves in May 2001, after 30 years of
                                           federal service. Mr. Henderson used his vision and leadership to guide the Postal Service to record
                                           delivery service performance for First-Class Mail. During his tenure, the Postal Service also
                                           achieved a record productivity increase. In addition, the Postmaster General has directed the Postal
                                           Service to immediately begin enhancing whistleblower protection for its employees. This would
                                           ensure that Postal Service employees have protection similar to that of other federal employees
                                           under the Whistleblower Protection Act. These protections provide for the investigation of reprisal
                                           complaints and resolution by an independent decision maker if the parties cannot resolve the com-
                                           plaint. This action fulfills the former chairman of the House Subcommittee on the Postal Service’s
                                           longstanding commitment to ensure such protection. Mr. Henderson’s leadership and vision will be
                                           missed.
                                                With our foundation secure and our independent status intact, this office will continue to pro-
                                           vide postal management, Congress, and stakeholders with the timely, objective information neces-
                                           sary to help ensure a secure future for the Postal Service.
Postmaster General Henderson receives
recognition for his support of the OIG.
                                               Sincerely,




                                               Karla W. Corcoran
                                               April 30, 2001




                               PAGE 2      A MESSAGE FROM THE INSPECTOR GENERAL
Table of Contents
EXECUTIVE SUMMARY............................................................................................5
POSTAL SERVICE REPORTED ACCOMPLISHMENTS ................................................9
MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE ..........................13
GOALS AND STRATEGIES ....................................................................................21
   Office of Inspector General ........................................................................22
   Inspection Service........................................................................................26
ORGANIZATIONAL DYNAMICS ............................................................................27
   Office of Inspector General ........................................................................28
   ◆ Notable OIG Achievements ..................................................................30
   ◆ Challenges Facing the OIG ....................................................................33
   Inspection Service........................................................................................34
ORGANIZATIONAL STRUCTURE ..........................................................................35
   Office of Inspector General ........................................................................36
   ◆ OIG Field Locations ................................................................................39
   Inspection Service........................................................................................40
CUSTOMER SERVICE ............................................................................................41
   Office of Inspector General ........................................................................42
   ◆ External Communications ......................................................................42
   ◆ Internal Communications ......................................................................44
   ◆ Specialized Services ................................................................................44
   Inspection Service........................................................................................46
   ◆ External Communications ......................................................................46
   ◆ Specialized Services ................................................................................46
PERFORMANCE REVIEWS ......................................................................................49
   Office of Inspector General ........................................................................50
   ◆ Accepting and Processing Reviews ........................................................50
   ◆ Transportation Reviews ..........................................................................50
   ◆ Delivery Reviews......................................................................................52
   ◆ Marketing Reviews ................................................................................52
   ◆ Legislative and Regulatory Reviews ......................................................53
   Inspection Service........................................................................................55
   ◆ Mail Theft Investigations........................................................................55
   ◆ Service Investigations..............................................................................55
FINANCIAL MANAGEMENT REVIEWS ..................................................................57
   Office of Inspector General ........................................................................58
   ◆ Financial Opinion Audits ......................................................................58
   ◆ Financial-Related Reviews......................................................................59
   ◆ Contracting and Facilities Reviews ........................................................60
   ◆ Legislative and Regulatory Reviews ......................................................63
   Inspection Service........................................................................................64
   ◆ Revenue Investigations............................................................................64




                                                                                                                  PAGE 3
         TECHNOLOGY REVIEWS ......................................................................................65
            Office of Inspector General ........................................................................66
            ◆ Developmental Reviews..........................................................................66
            ◆ Information Systems Reviews ................................................................67
            ◆ eCommerce Reviews ..............................................................................68
            ◆ Computer Intrusion Detection Activities..............................................69
            ◆ Legislative and Regulatory Reviews ......................................................70
            Inspection Service........................................................................................71
            ◆ eCommerce Activities ............................................................................71
         LABOR MANAGEMENT REVIEWS ........................................................................73
            Office of Inspector General ........................................................................74
            ◆ Violence in the Workplace Reviews ......................................................74
            ◆ Workplace Environment Reviews ..........................................................74
            ◆ Human Resource Process Reviews ........................................................75
            ◆ Health Care Reviews ..............................................................................75
            ◆ Legislative and Regulatory Reviews ......................................................76
            Inspection Service........................................................................................79
            ◆ Workplace Safety Investigations ............................................................79
            ◆ Postal Robbery Investigations ................................................................79
            ◆ Drugs in the Workplace Investigations ..................................................79
            ◆ Workers’ Compensation Investigations ................................................79
         OVERSIGHT OF THE INSPECTION SERVICE ..........................................................81
            Office of Inspector General ........................................................................82
            ◆ Oversight Reviews ..................................................................................82
            ◆ Legislative and Regulatory Reviews ......................................................84
         OTHER SIGNIFICANT REVIEWS ............................................................................85
            Office of Inspector General ........................................................................86
            ◆ Executive Investigations..........................................................................86
            ◆ Support Operations Reviews ..................................................................86
            ◆ Legislative and Regulatory Reviews ......................................................86
            Inspection Service........................................................................................88
            ◆ Prohibited Mail Investigations................................................................88
            ◆ Physical Security Activities ....................................................................88
            ◆ Narcotics Offenses and Trafficking Investigations ................................88
            ◆ Child Exploitation Investigations ..........................................................89
            ◆ Postal Burglary Investigations ................................................................89
            ◆ Mail Fraud Investigations........................................................................89
            ◆ Money Laundering Investigations ..........................................................91
         APPENDICES ........................................................................................................93
            Appendix A - Reports Issued to Postal Management ..............................94
            Appendix B - Findings of Questioned Costs ..........................................102
            Appendix C - Recommendations That Funds Be Put to Better Use....104
            Appendix D - Reports with Significant Recommendations Pending
                             Corrective Actions............................................................105
            Appendix E - Investigative Statistics ......................................................108
            Appendix F - Summary of Postal Service Investigative Activities
                            Under 39 USC § 3013 ......................................................109
            Appendix G - Closed Congressional and
                            Board of Governors’ Inquiries ............................................113
PAGE 4   TABLE OF CONTENTS
Executive Summary




  DID YOU
  KNOW?
 What is the OIG’s primary responsibility?
 The primary responsibility of the OIG is to
 conduct audits and investigations to prevent,
 detect, and report fraud, waste, abuse, and
 mismanagement; to promote efficiency in the
 programs and operations of the Postal Service;
 and to provide oversight of the Inspection
 Service.




                                             PAGE 5
                                          This Executive Summary highlights the                 ◆   maintaining information security and
                                          Office of Inspector General (OIG) and                     customer privacy;
                                          Inspection Service accomplishments from               ◆   restructuring for the future; and
                                          October 1, 2000, through March 31,
                                                                                                ◆   balancing public service and commercial
                                          2001, that are contained in this                          enterprise.
                                          Semiannual Report to Congress.
                                                                                                The following highlights the
                                                                                                accomplishments of the OIG and
                                          EXECUTIVE SUMMARY                                     Inspection Service under the specific


                                          T
                                                   his Executive Summary provides a syn-        subject areas:
                                                   opsis of the work reported during this 6-
                                                                                                (1) Organizational dynamics focuses on the
                                                   month period. This issue of our Semian-
                                                                                                OIG and the Inspection Service vision, values,
                                          nual Report addresses Postal Service reported
                                                                                                culture, and diversity.
                                          accomplishments, the major issues facing the
                                                                                                (2) Organizational structure focuses on the
                                          Postal Service, and the many projects performed
                                                                                                OIG and the Inspection Service headquarters
                                          by the OIG and the Inspection Service that
                                                                                                and field structure.
                                          help improve postal operations.
                                                                                                (3) Customer service focuses on the OIG and
The OIG Management Committee is                The OIG is responsible for conducting all
                                                                                                the Inspection Service efforts to provide cus-
comprised of the Inspector General,       audits of Postal Service programs and opera-
Deputy Inspector General, General                                                               tomer service, including support functions to
                                          tions. In addition, the OIG along with the
Counsel, Assistant Inspectors General,                                                          enhance service to internal customers and Hot-
                                          Postal Inspection Service conducts investiga-
and Executive Representatives for Field                                                         line operations.
Liaison.                                  tions to prevent and detect fraud, waste, abuse,
                                                                                                (4) Performance focuses on the critical core
                                          and mismanagement affecting the Postal Ser-
                                                                                                business processes needed to succeed in a
                                          vice. Both conduct investigations that play a
                                                                                                competitive environment. The OIG conducted
                                          vital role in helping the Postal Service make
                                                                                                27 reviews and investigations in this area,
                                          improvements. Work performed by the OIG
                                                                                                including projects that will help save the Postal
                                          and the Inspection Service is included in this
                                                                                                Service about $40.5 million in current and
                                          report to present Congress and the Governors
                                                                                                future years. A few examples of OIG work in
                                          with a unified report of the Postal Service’s
                                                                                                this area included:
                                          efforts to combat fraud, waste, abuse, and mis-
                                          management.                                           ◆   Determining that the Postal Service
                                               In this, the OIG’s ninth Semiannual                  could reduce costs by more than
                                          Report, the work has been categorized into                $17.5 million over a 5-year period by
                                          seven subject areas: customer service, perfor-            properly administering damage claims on
                                          mance, financial management, technology,                  leased trailers and improving controls
                                                                                                    over trailer use. The Postal Service also
                                          labor management, oversight of the Inspection
                                                                                                    needed to account for $5 million in
                                          Service, and other significant reviews. We
                                                                                                    leased trailer inventory and properly
                                          believe presenting the work in this format provides
                                                                                                    secure and protect trailers.
                                          a clear understanding of where our work falls
                                          within the following ten major management             ◆   Identifying major weaknesses in the controls
                                                                                                    over a $ 3.7 billion contractor-operated
                                          and program issues facing the Postal Service:
                                                                                                    network. The audit disclosed that con-
                                          ◆   increasing customer value;                            tractors were billing the Postal Service
                                          ◆   growing and protecting revenues;                      for work not performed, overstating the
                                                                                                    volume of equipment processed and
                                          ◆   controlling costs by improving efficiency
                                                                                                    repaired by 20-30 percent and improperly
                                              and productivity;
                                                                                                    disposing of serviceable equipment.
                                          ◆   leveraging technology;
                                                                                                ◆   Investigating a Postal Service manager
                                          ◆   managing acquisitions;                                who had developed a questionable rela-
                                          ◆   resolving workforce and workplace issues;             tionship with a contractor and provided
                                                                                                    favorable treatment during the Postal
                                          ◆   ensuring data integrity and reliability;


                               PAGE 6     EXECUTIVE SUMMARY
    Service’s testing and assessment of a               approximately $3 million in fraudulent
    transportation contract. The Postal                 invoices submitted by the owner of
    Service decided not to proceed with the             a computer company that was under
    $23.5 million expenditure for the system            contract to supply equipment to the
    as initially proposed to the Board of               Postal Service.                                         DID YOU
    Governors. The current proposal is to
    purchase significantly fewer units from
                                                    ◆   Determining that the Fiscal Year 2000                   KNOW?
                                                        headquarters budget formulation process
    a different contractor at a cost of only            was not based on current and complete
    $500,000, resulting in a cost avoidance             analysis.
    of $23 million.                                                                                  Who investigates procurement
                                                    ◆   Continuing to review relocation pay-
The Inspection Service conducted numerous               ments to postal executives to ensure such
                                                                                                     fraud within the Postal
investigations in the area of mail theft,               payments are reasonable and necessary.       Service?
resulting in arrests of over 390 employees and
                                                    ◆   Successfully transitioning financial         The OIG investigates all
almost 3,100 non-employees, which included:
                                                        installation audit work from Inspection
◆   Arresting an individual for the theft and           Service as scheduled.                        procurement fraud within the
    possession of credit cards, guns, drugs,        In addition to other work, the Inspection        Postal Service.
    counterfeit identification cards, and
                                                    Service reported:
    forged birth certificates worth approxi-
    mately $1 million.                              ◆   Revenue investigations that resulted in
                                                        45 arrests and 33 successful criminal
◆   Conducting a joint undercover operation
                                                        convictions.
    that resulted in the arrest of a mail
    handler at a local airmail center for the       ◆   Initiating 187 employee embezzlement
    theft of 31 credit cards stolen from the            investigations, which documented losses
    U.S. mail.                                          of over $2.2 million.
◆   Arresting a processing and distribution         (6) Technology encompasses reviews of devel-
    clerk for conspiracy and possession of          opmental systems, computer security, electron-
    stolen mail, including 124 First-Class          ic commerce, and computer intrusion detec-
    letters containing personal checks for          tion activities. The OIG performed 18 reviews
    credit card payments and 120 U.S.               and investigations in this area. Some of the
    Treasury checks totaling almost $85,000.        more significant OIG activities included:
(5) Financial management incorporates finan-        ◆   Determining that postal managers failed
cial-related reviews, financial opinion work,           to include $4.1 million needed for
and contracting and facilities reviews. The             repairs, replacement parts and training in
OIG completed 108 reviews that identified               the request for approval of the Robotics
over $39 million in questioned costs and                Containerization System.
almost $11 million in potential savings. In         ◆   Conducting audits that focused on secu-
addition, OIG investigations resulted in                rity and privacy and working with the
6 convictions, 7 arrests, 14 indictments, and           Postal Service’s Chief Privacy Officer to
recoveries, restitution, and cost savings of over       expand and clarify the Postal Service’s
$6 million. Reviews in this area included:              web privacy policy for disclosure, collec-
◆   Identifying over $26 million in contract            tion, and retention of information.
    costs that were questioned or considered        ◆   Assigning a special agent to the Federal
    unsupported.                                        Bureau of Investigation’s National Infra-
◆   Determining that the Postal Service                 structure Protection Center who will
    improperly authorized over $12 million              keep the OIG abreast of trends in
    in contract commitments and could save              cyber-crime and emergent cyber-threats.
    almost $11 million by renegotiating a           ◆   Assisting Postal Service information
    noncompetitive contract.                            technology management by developing
◆   Uncovering a corruption scheme, with                a Computer Incident Response Team to
    international connections involving                 respond to suspected computer



                                                                                                       PAGE 7
                                                   intrusions, and assisting in revising the     Inspection Service, which included:
                                                   Postal Service computer security policy
                                                                                                 ◆   Determining that building access
                                                   to protect eCommerce against cyber-
                                                                                                     controls at Postal Service Headquarters
                                                   crime.
                                                                                                     could be improved.
                                               In addition to other work, the Inspection
                                                                                                 ◆   Finding that international travel prac-
                                               Service reported:                                     tices could be improved and additional
                                               ◆   Working with Federal Express to discuss           controls could be established to ensure
                                                   security issues relating to its business          that international travel requests were
                                                   alliance with the Postal Service.                 properly justified and approved.
                                               ◆   Kicking off a security-messaging service      ◆   Determining the need to improve the
                                                   on USPS TV. The campaign is designed              billing process for postal police services
                                                   to encourage postal employees at every            and including indirect expenses in
                                                   level to get personally involved in help-         billings for these services.
                                                   ing improve security at their workplace.      (9) Other significant reviews include projects
                                               (7) Labor management focuses on issues relat-     that are not readily covered by the other six
                                               ed to violence in the workplace, workplace cli-   categories. The OIG completed 40 reviews of
                                               mate, health care, and workplace safety. During   other significant issues including reviews of
                                               this reporting period, the OIG conducted          Postal Service Career Executive Service
                                               79 reviews and investigations in this area. OIG   employees. Reviews in this area included:
OIG’s Arlington, Virginia, Field Office East   investigations resulted in 9 convictions, 22      ◆   Identifying the misuse of a postal
                                               arrests, and 19 indictments. Reviews in this          vehicle over 4 years by a Postal Service
                                               area included:                                        executive, which led to the employee’s
                                               ◆   Performing an audit resulting in the              retirement.
                                                   Postal Service addressing contentious         ◆   Finding that controls over signature
                                                   labor management relations at a post              devices were not adequate to prevent
                                                   office in the Mid-Atlantic Area.                  unauthorized use.
                                               ◆   Conducting audits resulting in plans to       The Inspection Service conducts numerous
                                                   enhance the violence prevention pro-          investigations covering significant issues in the
                                                   grams in 19 postal districts.                 areas of physical security; narcotics offenses and
                                               ◆   Evaluating whether the Postal Service         trafficking; child exploitation; prohibited mail;
                                                   took appropriate disciplinary actions         postal burglaries; and mail fraud including fraud
                                                   against managers responsible for safety       against consumers, fraud against businesses,
                                                   violations.                                   and fraud against government; and money
                                               ◆   Reviewing the implementation and              laundering.
                                                   tracking of facility and health inspec-
                                                   tions.
                                               The Inspection Service work included:
                                               ◆   Conducting numerous workers’
                                                   compensation investigations, resulting
                                                   in over $53 million in long-term and
                                                   continuation-of-pay cost savings.
                                               ◆   Arresting 32 individuals for selling drugs
                                                   on postal property, 15 individuals for
                                                   workers’ compensation fraud, and
                                                   190 individuals for assaults and threats
                                                   against Postal Service employees.
                                               (8) Oversight of the Inspection Service. In
                                               this area, the OIG completed 19 reviews of the



                                  PAGE 8       EXECUTIVE SUMMARY
Postal Service Reported
Accomplishments




   DID YOU
   KNOW?
  Are OIG employees Postal Service
  employees?
  Yes, OIG employees are Postal Service
  employees; however, the OIG is not part of
  the Postal Service management chain and
  does not report to the Postmaster General,
  as do other Postal Service employees.




                                               PAGE 9
                                                                                                  Service believes this partnership will
                                         POSTAL SERVICE                                           enable it to provide more reliable service,
                                         REPORTED                                                 reduce costs, and better manage future
                                         ACCOMPLISHMENTS                                          cost growth.
                                                                                              ◆   Trimmed spending by approximately


                                         T
                                                 he OIG works with the Postal Service
                                                                                                  $1 billion, despite huge and unanticipat-
                                                 to help ensure the American public
                                                                                                  ed rises in the cost of fuel and some
                                                 receives the best mail delivery service in
                                                                                                  employee benefits.
                                         the world. Highlighting the Postal Service’s
                                         accomplishments provides context to OIG and          ◆   Entered into a strategic partnership with
                                         Inspection Service activities. In the past six           a major digital copier company to pur-
                                         months, the Postal Service announced the fol-            chase digital copiers, maintenance, and
                                                                                                  supplies. The Postal Service expects that
                                         lowing accomplishments, which the OIG has
                                                                                                  the agreement will save $7.4 million
                                         categorized in the areas of performance, finan-
                                                                                                  annually in reduced costs, including an
                                         cial management, technology, and labor man-
                                                                                                  almost 70 percent reduction in equip-
                                         agement.                                                 ment costs and a 46 percent reduction in
                                         PERFORMANCE                                              maintenance costs.
                                         ◆   Achieved high customer satisfaction              ◆   Launched, with America Online, a new
                                             ratings. Ninety-two percent of house-                co-branded advertising campaign. This
                                             holds surveyed had a positive perception             campaign, which featured ad banners
                                             of the Postal Service, with almost two               promoting both America Online and the
                                             out of three rating their satisfaction as            Postal Service on 10,000 postal delivery
                                             “very good” or “excellent.”                          trucks in 11 major markets, ran for six
                                                                                                  weeks beginning in mid-December and is
                                         ◆   Increased total factor productivity by
                                                                                                  expected to increase revenues.
                                             2.5 percent from last year’s levels, which
United States Postal Service 2000
Annual Report summerizes financial and       is equivalent to reducing expenses by
                                             $1.6 billion.
                                                                                              TECHNOLOGY
performance accomplishments.
                                                                                              ◆   Received a number one rating – among
                                         ◆   Delivered 6.2 billion more pieces of mail,           all shipping websites – from a leading
                                             added 1.7 million delivery points, and               Internet web page evaluation firm for its
                                             used 6,200 fewer work years than in                  easy-to-use package delivery site. Also
                                             1999.                                                received a five-star rating for the time
                                         ◆   Continued working toward nationwide                  and effort required to find various ship-
                                             deployment of the Delivery Operation                 ping rates.
                                             Information System. This system will             ◆   Began deploying state-of-the-art flat-sort-
                                             assist delivery unit supervisors in manag-           ing equipment – the AFSM 100 – that
                                             ing daily delivery activities, planning              should improve the efficiency, speed, and
                                             street activities, and managing the route            accuracy of processing catalogs, newspa-
                                             inspection and adjustment process. The               pers, magazines, and larger envelopes.
                                             Postal Service expects to fully deploy the
                                             Delivery Operation Information System            ◆   Received from a leading computer prod-
                                             by March 2003.                                       ucts and service evaluation company its
                                                                                                  “best choice” selection for Postal Service
                                         ◆   Received, in partnership with the U.S.               eBillPay,™ its online bill-paying system
                                             State Department, a Hammer Award for                 that offers a quick, easy, and inexpensive
                                             allowing U.S. citizens to apply for pass-            way to receive and pay bills with the
                                             ports at post offices.                               click of a mouse.

                                         FINANCIAL MANAGEMENT                                 ◆   Launched Signature Confirmation,™
                                                                                                  an enhanced proof-of-delivery service,
                                         ◆   Entered into a strategic partnership with
                                                                                                  which provides hard copy delivery confir-
                                             FedEx for the transportation of Express,
                                                                                                  mation documenting delivery date, time,
                                             Priority, and First-Class Mail. FedEx will
                                                                                                  destination, and an image of the recipi-
                                             locate overnight service collection boxes
                                                                                                  ent’s delivery acceptance signature.
                                             at post offices nationwide. The Postal


                               PAGE 10   POSTAL SERVICE REPORTED ACCOMPLISHMENTS
◆   Introduced NetPost™ Mailing Online,
    which allows mailers to electronically
    transmit documents, correspondence,
    newsletters, First-Class Mail, and Stan-
    dard Mail (A), along with their mailing              DID YOU
    lists, to www.usps.com. Printing and
    mailing fees paid by users generate rev-
                                                         KNOW?
    enue.

LABOR MANAGEMENT                                  Does the OIG have a Work-
◆   Established teams to address recommen-        place Enhancement Team?
    dations made by the Report of the Unit-
                                                  Yes. The Workplace Enhance-
    ed States Postal Service Commission on
    a Safe and Secure Workplace.                  ment Team provides support and
                                                  services to the OIG in internal
◆   Completed, together with the National
    Association of Letter Carriers, the final     work life, organizational climate,
    stages of the nationwide rollout of the       diversity, equal employment
    Dispute Resolution Process. This jointly      opportunity, and other workplace-
    developed grievance process streamlines       related issues.
    the appeal procedures, increases contract
    compliance and resolution at the local
    level, and expedites the resolution of dis-
    putes. The Dispute Resolution Process
    has significantly increased the resolution
    of disputes at the local level and has
    reduced the number of appeals to
    arbitration.




                                                   PAGE 11
PAGE 12   POSTAL SERVICE REPORTED ACCOMPLISHMENTS
Major Management Issues
Facing the Postal Service




      DID YOU
      KNOW?
     Does the Inspector General report to
     the Postmaster General?
     No. The Inspector General is
     independent of postal management and
     reports directly to the Governors and
     Congress.




                                             PAGE 13
                                                                                                cance, and the key OIG projects that address
                                          MAJOR MANAGEMENT                                      them are included in this section.
                                          ISSUES FACING THE
                                                                                                INCREASING CUSTOMER VALUE
                                          POSTAL SERVICE                                             In today’s marketplace, customers have


                                          L
                                                  ast year, after five years of positive net    choices about how they conduct transactions,
                                                  income, the Postal Service incurred a         transmit messages, and deliver merchandise.
                                                  deficit of nearly $200 million, even          Increasing customer value will be key to grow-
                                          though it reported the highest labor productivi-      ing new business. The Postal Service views its
                                          ty ever. This year, the Postal Service is project-    access to the American household as a unique
                                          ing a $2–$3 billion loss, in spite of a rate          asset that it can leverage as it faces increasing
                                          increase that went into effect in January 2001. It    competition. In addition, the postal delivery
                                          is apparent that the Postal Service is facing sig-    network continues to grow by about 2 million
                                          nificant issues as evidenced by the deterioration     new household and business deliveries each
                                          in its current financial condition.                   year. The Postal Service must continue to
                                                The Postal Service has indicated that the       develop products and services that retain rele-
                                          main reasons for this projected loss include          vance and value for customers with changing
                                          reduced revenues, increased labor and overhead        needs. For example, the Postmaster General
                                          costs, and a continued soft economy. It has been      highlighted the Postal Service’s effort to add
                                          suggested that another rate increase will be          value-added services like delivery and signature
                                          needed to address this shortfall. Postal manage-      confirmation.
                                          ment has also renewed its call for legislative             The Postal Service faces increasing compe-
                                          reform to provide greater flexibility in the areas    tition, decreasing First-Class Mail volume, and a
                                          of labor and operations, pricing, products,           changing economy. As a result, the Postal Ser-
                                          investments, and oversight. While reform may          vice may find it difficult to maintain its position
                                          be part of the solution, the Postal Service must      as a self-supporting provider of universal postal
                                          continue to address critical management and           services at reasonable rates. Customers are now
                                          financial practices in order to remain financial-     seeking services other than traditional mail,
                                          ly sound and relevant to its customers. Specifi-      such as electronic delivery services, and the
                                          cally, the OIG believes the ten major issues facing   Postal Service will need to balance its customer
                                          Postal Service management are:                        service with limited resources. For example, the
                                          ◆   increasing customer value                         Postal Service’s recent announcement that it
                                                                                                was studying five-day delivery was met with
                                          ◆   growing and protecting revenues
                                                                                                substantial media, Congressional, and customer
                                          ◆   controlling costs by improving efficiency         reaction—particularly in light of recent rate
                                              and productivity                                  increases and potential future rate increases.
                                          ◆   leveraging technology                                  To assist the Postal Service in addressing
                                          ◆   managing acquisitions                             this issue, the OIG:
                                          ◆   resolving workforce and workplace issues          ◆   Assessed mail delays in a North Carolina
                                                                                                    Post Office
                                          ◆   ensuring data integrity and reliability
                                                                                                ◆   Reviewed allegations of delayed certified
                                          ◆   maintaining information security and
The OIG audits automation processes
                                                                                                    tax mailings
                                              customer privacy
such as the Delivery Point Barcode                                                              ◆   Audited the Postal Service’s Delivery
sorter, which sorts mail in sequence of   ◆   restructuring for the future
                                                                                                    Confirmation Program at five locations
the letter carrier’s route.               ◆   balancing public service and commercial
                                                                                                ◆   Is assessing Express Mail service in
                                              enterprise
                                                                                                    Tampa, Florida
                                               In recent years, the Postal Service has
                                          made progress in addressing these issues. How-        GROWING AND PROTECTING
                                          ever, continued efforts must be given to improv-      REVENUES
                                          ing performance and accountability throughout              During the past four months, projected
                                          the Postal Service. These issues, their signifi-      financial losses have increased significantly.


                               PAGE 14    MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
These projected losses threaten affordable, high     include greater fuel costs and costs passed on by
quality, universal postal service on a self-         its transportation contractors. In addition,
financed basis. Consequently, the Postal Service     employee-related costs, including wage increas-
will be required to grow substantial new rev-        es, workers’ compensation benefits, and retire-
enues to compensate for projected loss of rev-       ment expenses, continue to rise.
enue. Past efforts by the Postal Service to intro-        The Postal Service plans to reduce costs by
duce new products and services have frequently       $2.5 billion by 2003, through eliminating
been met with opposition. Competitors have           75,000 work years and reducing administrative
questioned whether it is appropriate for a gov-      expenses by 25 percent and transportation costs
ernment entity with monopoly protection to           by 10 percent. However, the OIG has noted
provide nontraditional commercial products           that the Postal Service often has difficulties in
and services. Nonetheless, the Postal Service        realizing actual cost savings due to a number of
believes that substantial revenues must be gen-      factors. These include a requirement to service
erated from new services and products.               all communities, wages determined by binding
     The Postmaster General recently stated          arbitration, and extensive work rules and regu-
that the Postal Service was working hard to          lations that impede flexibility and innovation.
expand into the global market. In addition, he       Furthermore, federal law prohibits closing small
cited a number of improved or simplified prod-       post offices merely for operating at a deficit.
ucts, such as PC Postage,™ and a suite of new             To assist the Postal Service in addressing
electronic services that make it more conve-         this issue, the OIG:
nient for consumers and mailers to do business.
                                                     ◆    Audited the leased trailer fleet
     The Postal Service must also ensure that it
has appropriate controls over acceptance, pay-       ◆    Is auditing stamp printing volumes
ment, and mail-preparation processes to protect      ◆    Is evaluating the cost and productivity of
existing revenues. Historically, the Postal Ser-          flats processing operations
vice has had difficulty establishing controls to                                                           The General Accounting Office’s April 4,
protect its revenues without adversely affecting     LEVERAGING TECHNOLOGY                                 2001, testimony to Congress places the
                                                          The Postal Service continues to seek ways        Postal Service on its high risk list.
customer service.
     To assist the Postal Service in addressing      of leveraging technology to improve its service,
this issue, the OIG:                                 productivity, and profitability. The Postal Ser-
                                                     vice depends on technology to deliver more
◆   Audited statistical tests for the fiscal year
                                                     than 660 million pieces of mail every day. It
    2000 cost and revenue analysis
                                                     must position itself to quickly adapt to each new
◆   Is assessing the role of the marketing           wave of technology to maintain its competitive
    group                                            position. In particular, the Postal Service must
◆   Is evaluating the profitability of postal        adapt to the evolution of an Internet-familiar
    retail stores                                    customer base and the impact this new force
                                                     will have on its business. Some customers
CONTROLLING COSTS BY                                 expect the Postal Service to transition its ser-
IMPROVING EFFICIENCY AND                             vices to the point where most, if not all, services
PRODUCTIVITY                                         can be carried out on personal computers at the
     The Comptroller General of the United           office or at home. To address changing customer
States recently cited the Postal Service’s deteri-   needs, the Postal Service has committed
orating financial condition as one of the reasons    resources to ongoing development of an “infor-
for placing the Postal Service on the General        mation platform” to help ensure better data
Accounting Office’s High Risk List. He empha-        management, track mail piece information,
sized the Postal Service’s need to cut costs and     improve communications between the Postal
improve productivity. The Postal Service is pro-     Service and its customers, and provide activity-
jecting significant losses for FY 2001, which, in    based costing.
part, were attributed to total expenses that were         The large size and diverse nature of the
$111 million higher than initially expected for      Postal Service’s customer base demands that
the first half of this fiscal year. These expenses


                                                                                                           PAGE 15
          technology-based solutions are accessible, easy      it is afforded the opportunity to realize greater
          to use, and competitive. Given the projected         efficiencies and operate in a more businesslike
          revenue downturn in the coming year, the             manner than other federal agencies. However,
          Postal Service must vigorously pursue cost sav-      the OIG’s reviews suggest that while the Postal
          ings by efficiently redeploying resources            Service has realized some efficiencies, there is a
          replaced by new technology. Finally, all deci-       clear need to utilize best practices.
          sions on technology investments must be scruti-            To assist the Postal Service in addressing
          nized more closely and be based on information       this issue, the OIG:
          that is current, accurate, and reliable.
                                                               ◆   Conducted 38 contract audits
               To assist the Postal Service in addressing
          this issue, the OIG:                                 ◆   Is reviewing responsibilities of contract-
                                                                   ing officers
          ◆   Audited the Robotics Containerization
                                                               ◆   Is evaluating contracting for consulting
              System
                                                                   and auditing services
          ◆   Evaluated the deployment of the
                                                               ◆   Is reviewing sole source contracting
              Delivery Operations Information System
                                                                   practices
          ◆   Is conducting a review of the process
              used to approve capital projects                 RESOLVING WORKFORCE AND
          ◆   Is reviewing the development of the              WORKPLACE ISSUES
              Postal Operations Information System                   Labor-related costs continue to account for
                                                               more than three-quarters of the Postal Service’s
          MANAGING ACQUISITIONS                                total operating expenses. In competitive mar-
                The Postal Service awards approximately        kets where customers face a myriad of choices,
          $9 billion in contracts per year for essential       controlling these costs while expanding service
          goods and services, including facilities, trans-     is crucial to providing value and maintaining a
          portation, mail processing equipment, and sup-       competitive edge. The Postal Service will suc-
          plies. Over the last four years, the OIG con-        ceed only if it can effectively partner with its
          ducted over 150 audits and investigations relat-     employees, their unions, and management asso-
          ing to contracting operations. These reviews         ciation leadership. With more than 900,000 full
          have disclosed that such contracting practices       and part-time employees, work environment
          have resulted in $434 million in monetary find-      and labor relations improvements are key to
          ings including fraud, waste, abuse, mismanage-       maximizing employee and organizational per-
          ment, and other recoveries on postal contract-       formance. The Postal Service faces the chal-
          ing programs.                                        lenge of developing recruitment, training, com-
                The Postal Service needs to take aggressive    munication, incentive, and other support sys-
          steps to ensure that appropriate monitoring and      tems that help employees realize the connection
          oversight exist and that systems and data are        between their efforts and the results desired by
          available to validate contractor charges for ser-    customers.
          vices rendered or work performed. Quality                  Past attempts to replace labor through
          assurance, staffing, and training of contracting     automation have not been as successful as
          officials impact the Postal Service’s ability to     planned. Future endeavors will succeed only if
          properly monitor work performed by contrac-          the Postal Service can engage the workforce in
          tors.                                                a shared vision of success, encouraging discre-
                The Postal Service must increase its efforts   tionary effort and eliminating the confronta-
          to prevent, detect, and deter fraud related to its   tional environment on the workroom floor.
          contracting activities. Many postal contracts              With responsibility for more than 38,000
          lack sufficient language, making it difficult to     facilities, major transportation networks, and
          pursue criminal and/or civil action against con-     universal delivery, the Postal Service faces a sig-
          tractors and, in some cases, may impede inde-        nificant challenge in the areas of health and
          pendent review. Because the Postal Service is        safety. In addition to the direct costs and loss of
          exempt from standard federal contracting rules,      productivity resulting from accidents, medical



PAGE 16   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
costs under the Postal Service’s Injury Compen-            To assist the Postal Service in addressing
sation Program have risen dramatically. Fur-          this issue, the OIG:
thermore, the Postal Service is now subject to
                                                      ◆    Audited the FY 2000 headquarters
citations and monetary penalties for noncom-
pliance with the Occupational Safety and
                                                           budget formulation process                              DID YOU
                                                      ◆
Health Act.
                                                           Reviewed FY 2000 Information System
                                                           Controls in the Accounting Service
                                                                                                                   KNOW?
     To assist the Postal Service in addressing
                                                           Centers
this issue, the OIG:
                                                      ◆    Is evaluating the quality of data
◆    Investigated allegations of health care               supporting the ratemaking process                Does the OIG provide support
     fraud
                                                      ◆    Is assessing the reliability of the              to other agencies in computer
◆    Audited the implementation of safety                  information in Retail Data Mart
     and health inspections at postal facilities                                                            forensics?
     in the Pacific Area                                                                                    Yes. The OIG has provided
                                                      MAINTAINING INFORMATION
◆    Reviewed the Violence Prevention and             SECURITY AND CUSTOMER                                 forensic support to several Offices
     Response Program                                 PRIVACY                                               of Inspector General that led to
◆    Is reviewing the Associate Supervisor                 Although computers have become indis-            successful prosecution. The OIG
     Program                                          pensable to the Postal Service, reliance on auto-     has also assisted other Offices of
                                                      mated systems increases the risk of fraud, inap-      Inspector General in developing
◆    Is reviewing succession planning
                                                      propriate disclosure of sensitive data, and dis-
◆    Is auditing the Postal Service’s manage-                                                               their own computer forensics
                                                      ruption of critical operations and services. The
     ment of staffing complements                                                                           capabilities.
                                                      same attributes of computer networks that
                                                      enhance operations also make it possible for
ENSURING DATA INTEGRITY
                                                      individuals and organizations to compromise
AND RELIABILITY
                                                      these systems. Attacks on websites, in both the
      Changes in technology and the business
                                                      government and private industry, serve to
environment emphasize the need for timely,
                                                      emphasize the damage a computer security
accessible, and accurate data relevant to the
                                                      breach can do to a brand’s integrity and an orga-
needs of Postal Service decisionmakers. Howev-
                                                      nization’s revenue stream.
er, in many instances, the OIG has found that
                                                           Many organizations have built networks
the Postal Service does not adequately capture
                                                      that are secure against outside threats. However,
or track the data necessary to support effective
                                                      this practice sometimes fails to recognize the
decisionmaking. For example, in one review the
                                                      threat from within. Network intrusions are often
OIG noted some budget components were not
                                                      carried out by insiders but most organizations
based on current or complete analyses, conse-
                                                      are not publicly willing to admit this. Also,
quently bringing some funding requirements
                                                      many organizations often neglect to address
into question and hampering management’s
                                                      internal threats in their security designs. An
ability to effectively develop, justify, and defend
                                                      ongoing audit of the Postal Service’s telecom-
budgets. The OIG has also noted an inability to
                                                      munications security and infrastructure revealed
track costs that have been incurred but not
                                                      weaknesses that could be exploited, resulting in
paid, making it difficult for managers to moni-
                                                      the loss of confidentiality, integrity, and avail-
tor expenses.
                                                      ability of vital financial and operational systems,
      Given the importance of data quality to
                                                      and harm the Postal Service’s reputation as a
setting postal rates, the Postal Service must
                                                      trusted third party. Also, a recent initiative to
continue demonstrating to Congress, the Postal
                                                      allow employee access to Postal Service net-
Rate Commission, stakeholders, and the public
                                                      works through home computers increases its vul-
that it is making progress in improving the qual-
                                                      nerability. Comprehensive computer security
ity of its revenue, cost, and service measure-
                                                      programs must be implemented at all levels. The
ments. Accurate measurement of mail volume
                                                      Postal Service is currently taking steps to address
and operations remains a key ingredient in the
                                                      security risks, but resolving them on a lasting
Postal Service’s efforts to improve and sustain
                                                      basis will require substantial management com-
service performance.
                                                      mitment and attention.


                                                                                                             PAGE 17
                                               Furthermore, postal electronic commerce         United States. The number of households and
                                          initiatives on the Internet raise concerns about     businesses served continues to grow every year,
                                          the adequacy of security. Success in this arena      while increased costs and declining mail vol-
                                          will depend on the level of protection afforded      umes make each delivery less profitable. Orga-
                                          sites such as www.usps.com and programs that         nizational structure and strategic planning must
                                          operate in this environment, such as eBillPay,™      address the statutory mission of the Postal Ser-
                                          NetPost Certified,™ The Postal Store,™ and           vice and ensure a high level of efficiency
                                          PosteCS.™ Most importantly, the Postal Ser-          throughout postal operations.
                                          vice needs to protect consumer information                To assist the Postal Service in addressing
                                          that is collected and the guarantee of privacy       this issue, the OIG:
                                          implicit in such undertakings.
                                                                                               ◆   Evaluated the consolidation of Postal
                                               To assist the Postal Service in addressing          Service data centers
                                          this issue, the OIG:
                                                                                               ◆   Assessed the effectiveness of internal
                                          ◆    Conducted tests of server vulnerabilities           controls over contracting functions and
                                          ◆    Evaluated security and privacy require-             mail processing operations
                                               ments for the Postal Service’s online bill      ◆   Is conducting a comprehensive review of
                                               presentment and payment system                      postal logistics
                                          ◆    Is reviewing Internet privacy
                                                                                               BALANCING PUBLIC SERVICE
                                          ◆    Is assessing third party agreements and
                                                                                               AND COMMERCIAL ENTERPRISE
                                               security of business partners
The OIG audits technology-based systems                                                              Since 1970, the Postal Service has been
such as the Auto Buffer System, which                                                          tasked to operate in a businesslike manner.
retains unreadable mail until it can be   RESTRUCTURING FOR THE
barcoded by remote computer or            FUTURE                                               However, unlike private corporations, it is
remote barcode system.                         Currently, the Postal Service has over          bound by statutory constraints that limit its abil-
                                          900,000 employees; a retail and delivery infra-      ity to negotiate with customers and employees,
                                          structure with over 136 million delivery points;     develop and price new products, and generate
                                          over 38,000 post offices; over 470 processing        and invest profits. Although the Postal Service
                                          and distribution plants; and numerous adminis-       is granted a monopoly on letter mail, it must
                                          trative and support operations. In this time of      deliver to all areas, in a timely fashion, and at
                                          increased budgetary pressure, the Postal Service     uniform, affordable rates. The Postal Service’s
                                          has frozen capital improvements and is review-       obligation to serve as both a public service and
                                          ing all current programs and projects in an effort   commercial enterprise has become more chal-
                                          to contain costs. Restructuring may be necessary     lenging in the face of increased competition in
                                          to downsize, eliminate, or consolidate opera-        the delivery and communication industries.
                                          tions or organizational models that no longer              The Postal Service believes that legislative
                                          add value.                                           action is necessary to enable it to adapt to new
                                               In numerous reviews of postal programs,         market conditions and compete with the pri-
                                          the OIG has identified organizational issues         vate delivery and expedited mail industry.
                                          such as fragmentation, decentralization, and         While many foreign posts have been deregulat-
                                          need for better focus; all of which affect the       ed or privatized, the Postal Service remains a
                                          Postal Service’s ability to control its costs and    notable exception. The Postmaster General has
                                          improve performance. For example, individual         stated that the Postal Service has only “blunt
                                          Postal Service managers have direct authority        instruments” with which to improve its finan-
                                          over large sums of money and resources. With-        cial situation and compete with private industry.
                                          out effective accountability, oversight, and         He and the Governors support statutory change
                                          other controls within the organization, this         to permit earnings growth and investment,
                                          autonomy may result in fraud, waste, abuse, and      streamline the ratemaking process, enable pric-
                                          mismanagement.                                       ing flexibility, and eliminate the requirement of
                                               By law, the Postal Service must maintain        binding arbitration. While many stakeholders
                                          an infrastructure sufficient to ensure timely and    agree that reform of postal laws is needed, iden-
                                          affordable service to every delivery point in the    tifying and implementing the right changes pre-


                              PAGE 18     MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
sents a difficult challenge. This year, some
members of Congress have renewed the call for
bipartisan support of comprehensive postal
reform but the contents of such a measure have
yet to be determined.
     While the reform debate continues, the
Postal Service must maintain its public service
role in a commercial environment. It must con-
sider the scope of its universal service obligation
and its ability to maintain it. It must identify its
core businesses and ensure that new products
and services are not cross-subsidized by the let-
ter monopoly. Most importantly, the Postal Ser-
vice must continue to refine its operations
under the existing statutory model while devel-
oping and defining the role it will play in the
future.
     To assist the Postal Service in addressing
this issue, the OIG:
◆    Reviewed the Postal Service’s ability to
     meet requirements of an electronic
     commerce mailer
◆    Reviewed and provided comments on
     various pieces of proposed legislation
     impacting the Postal Service
◆    Is reviewing the Economic Variable Pay
     Program
◆    Is assessing supplier diversity
◆    Is evaluating revised rules governing
     commercial mail receiving agencies




                                                       PAGE 19
PAGE 20   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
Goals and Strategies




   DID YOU
   KNOW?
  Who determines what the OIG audits
  or investigates?
  The OIG receives requests to conduct
  audits and investigations from many
  sources. However, the OIG independently
  determines what is audited or investigated.




                                                PAGE 21
           This section describes the OIG and                                 in this strategic planning process. First, the OIG
           Inspection Service goals and strategies for                        determines major management issues facing the
           assisting the Postal Service in achieving its                      Postal Service. Second, the OIG broadly defines
           operational, performance, and financial                            realistic goals, sets priorities in line with the
           goals in the 21st century. In addition, this                       Postal Service’s business vision, and conceives
           section describes the process by which the                         effective strategies and action plans. The goal of
           OIG translates its vision into an annual                           this step is to align the OIG’s activities to help
           performance plan. In order to differentiate                        the Postal Service improve its effectiveness and
           between the OIG and the Inspection                                 efficiency. Third, the OIG measures progress in
           Service, the pages concerning the Inspection                       meeting its goals. And fourth, the OIG periodi-
           Service have been color screened.                                  cally updates and revises goals, strategies, and
                                                                              measures to align OIG organizational efforts
                                                                              with Postal Service needs.
          OFFICE OF INSPECTOR                                                       In March 2001, the OIG issued a revised
                                                                              Five-Year Strategic Plan, which is designed to
          GENERAL                                                             address the Postal Service’s strategic direction
                                                                              and objectives outlined in its Strategic Plan for
          STRATEGIC GOALS
                                                                              Fiscal Years 2001-2005. The Postal Service’s


          T
                  he OIG is committed to the principles
                                                                              strategic direction and objectives reflect a grow-
                  of the Government Performance and
                                                                              ing uncertainty about the future impact of
                  Results Act, which helps ensure that
                                                                              emerging technologies, changing customer
          government agencies operate efficiently and
                                                                              requirements, and the impact of composition on
          effectively. To ensure long-term success, it is
                                                                              mail volume and postal revenues. The OIG’s
          necessary for the Postal Service and the OIG to
                                                                              Five-Year Strategic Plan consists of two
          plan appropriately. Planning includes defining
                                                                              overarching goals and four strategies to meet
          strategic goals and developing strategies to
                                                                              these goals.
          achieve those goals. In addition, performance
          measures are established to evaluate how well                       PERFORMANCE RESULTS
          the agency is doing in achieving its goals. These                         The OIG continuously monitors its perfor-
          measures provide a “report card” on agency per-                     mance and seeks ways to improve. By maintain-
          formance and results.                                               ing objective data on key performance areas, the
               The OIG’s planning process analyzes rele-                      OIG can periodically measure and assess its
          vant information; establishes goals, strategies,                    progress in achieving goals. The OIG estab-
          and measures based on its analysis; then mea-                       lished annual performance measures to empha-
          sures how effectively and efficiently it is per-                    size program objectives, promote teamwork, and
          forming to meet these goals. There are four steps                   encourage innovation throughout the OIG.


                                                Office of Inspector General
                                               FY2001 Goals and Strategies
               GOALS                           STRATEGIES                          GOALS                          STRATEGIES

                                                Annually identify major                                           Maintain a TLC3 values-
              The OIG will be the               management challenges             The OIG is an independent       based organization that
              independent voice that            and independently develop                                         attracts, develops, and
                                                                                  entity that maximizes
                                                work priorities that assist                                       retains a talented and
              provides our stakeholders         the Postal Service in             resources, leverages cutting-   diverse workforce.
              with timely, accurate, and        addressing major
                                                management challenges.            edge technology, and
              relevant information                                                provides a healthy              Independently manage
              that contributes to the          Independently provide                                              and optimize OIG
                                               the right information to
                                                                                  organizational culture and      resources, including
              success of the Postal Service.   the right people at the            environment.                    leveraging cutting-edge
                                               right time.                                                        technology.


PAGE 22   GOALS AND STRATEGIES
These measures are linked to a team award that      Governors each year. The plan is adjusted as the
is structured to reward commitment to the           OIG’s work reveals new issues or the Postal
strategic priorities of the OIG and to reinforce    Service encounters new issues.
the importance of providing high-quality and
                                                    OIG FY 2001 AUDIT WORKLOAD
value-added services that contribute to the suc-
                                                    PLAN
cess of the Postal Service. Each year, the OIG
                                                         In the previous section of this semiannual
establishes annual performance goals to support
                                                    report, the OIG discussed ten major manage-
its strategic goals. During FY 2000, the OIG
                                                    ment issues facing the Postal Service. These ten
accomplished over 85 percent of its projects.
                                                    issues were consolidated into four major areas
For FY 2001, the OIG has established ten annu-
                                                    along with the oversight of the Inspection Ser-
al performance goals, seven of which focus on
                                                    vice for the purposes of audit planning.
Postal operations, and three of which focus on
                                                         In FY 2001, the OIG will focus its audit
OIG operations.
                                                    attention on the following areas to help address
OIG PLANNING PROCESS                                major challenges facing the Postal Service:
     The OIG is committed to providing time-        ◆    growing revenues and competing in a
ly and accurate information to Postal Service            rapidly changing market;
management. As part of its planning process,
                                                    ◆    maintaining affordability by controlling
the OIG asks Postal Service managers to iden-
                                                         costs;
tify operations and emerging issues that would
benefit from the OIG’s review. Their sugges-        ◆    improving the workplace climate and
tions are considered during the annual planning          labor relations;
process, and to the extent practical, are given     ◆    leveraging technology to enhance pro-
priority consideration for inclusion in the OIG’s        ductivity; and
Annual Work Plan, which is summarized in this       ◆    overseeing the Inspection Service.
section of the semiannual report. This process
                                                    The following presents each of the five areas
creates a unique opportunity for the OIG to
                                                    and the focus of our audit efforts.
provide independent analysis and information
that will assist Postal Service management offi-    Growing Revenues and Competing in a
cials in fulfilling their responsibilities.         Rapidly Changing Market
     The OIG planning process has three                  Increasing competition from electronic
interrelated components: the project universe;      commerce and other competitors has slowed
the annual performance plan; and the annual         the growth of postal revenue and is expected to
audit workload plan. Since its inception, the       have a continuing impact on the Postal Ser-
OIG has identified a universe of over 1,800 pro-    vice’s financial viability. Electronic commerce       The OIG’s mission statement, goals, and
                                                                                                          strategies set forth in the Five-Year
jects for consideration. Projects from the uni-     threatens to reduce First-Class Mail volume,
                                                                                                          Strategic Plan are the foundation for
verse, which is the first component of the plan-    putting at risk as much as $33 billion in revenue     measuring, reporting, and improving the
ning process, are selected on the basis of risk.    over the next nine years. In addition, foreign        OIG’s performance over the next five
The OIG considers the project’s potential           postal services have recently set up offices in the   years.
impact on:                                          United States, siphoning away millions of dol-
◆   Postal Service labor and capital resources      lars in outbound international mail. Conse-
                                                    quently, the Postal Service is being challenged
◆   Postalwide operations and goals                 to find new revenue sources at the same time
◆   Public trust                                    the Postal Service is being challenged to fulfill
     In the second component of the planning        its core mission of delivering mail in a timely
process, the OIG selects the highest priority       manner and improving customer service.
projects for inclusion in the annual perfor-             To assist with this challenge, the OIG is
mance plan. The third component is the OIG          assessing how the Postal Service develops new
annual audit workload plan, which is extracted      products and services to grow revenue,
from the annual performance plan. This audit        enhances core business processes to improve
workload plan is presented to the Postal Service    customer service, and maintains the public’s
                                                    trust. OIG work will focus on the following:


                                                                                                            PAGE 23
                                      ◆ New products and services:                           ◆ Adequacy of contractor systems
                                        ◆    Justification and approval                      ◆ Contract administration
                                        ◆    Marketing and sales                           ◆ Facilities and real estate:
       DID YOU                          ◆    Return on investment                            ◆ Justification, approval, and budgeting
       KNOW?                          ◆ Enhancing core business:                             ◆ Construction management
                                        ◆    Strategic alliances                           ◆ Logistics:
                                        ◆    Marketing                                       ◆ Transportation systems and operations
How do the OIG                          ◆    Financial initiatives                           ◆ Material management
responsibilities differ from            ◆    International mail                            ◆ Health care:
the Inspection Service?               ◆ Service performance and customer                     ◆ Workers’ compensation program
The OIG’s main responsibilities         satisfaction:                                          administration
are detecting fraud, waste, abuse,      ◆    Timeliness and reliability of service           ◆ Provider billing
and mismanagement, and pro-             ◆    Measurement systems
moting efficiency of operations.                                                           Improving the Workplace Climate and
                                        ◆    Postal rates                                  Labor Relations
The Inpection Service is mainly
                                        ◆    Re-engineering                                      The Postal Service, with approximately
concerned with the security and                                                            900,000 employees, has characterized labor
                                      ◆ Public trust:
sanctity of the mail and the safety                                                        management relations as one of its most formi-
                                        ◆    Brand integrity
of Postal Service employees                                                                dable challenges in achieving its goals in the
                                        ◆    Employee integrity                            21st century. To operate effectively in this rapid-
                                                                                           ly changing environment, the Postal Service
                                      Maintaining Affordability by                         has recognized that it will need to give employ-
                                      Controlling Costs                                    ee issues a higher priority and enhance each
                                           With over $60 billion in operating expens-
                                                                                           employee’s contribution to organizational per-
                                      es each year, the Postal Service needs strong
                                                                                           formance. Labor and management cooperation
                                      management controls to reduce rate increases
                                                                                           is also critical if the Postal Service is to achieve
                                      while ensuring universal mail service at afford-
                                                                                           its overall financial goals. However, employ-
                                      able rates. Controlling costs requires strong con-
                                                                                           ees sometimes view management attempts to
                                      tract administration, effective program over-
                                                                                           achieve incentives under the Postal Service’s
                                      sight, and sound budget processes to make
                                                                                           Economic Value Added Variable Pay Program
                                      informed decisions. OIG efforts will focus on
                                                                                           as adversarial. The Postal Service will need to
                                      the following:
                                                                                           address this and other negative perceptions in
                                      ◆ Financial system integrity:                        order to resolve persistent labor management
                                        ◆ Financial statements                             problems.
                                                                                                 Since its inception, the OIG has been
                                        ◆ Field installations
                                                                                           working with the Postal Service to address these
                                        ◆ Cost and revenue analysis                        issues. However, labor management relations
                                        ◆ Treasury-related issues                          continue to be one of the most difficult areas to
                                      ◆ Budget:                                            adequately address. To date, the OIG has
                                                                                           received over 3,100 individual employee com-
                                        ◆ Planning                                         plaints. Because of the emotional involvement,
                                        ◆ Execution                                        potential financial impact, and length of time to
                                        ◆ Systems                                          resolve these issues for the employee, manager,
                                                                                           and Postal Service, it is important that OIG’s
                                      ◆ Contracting activities:
                                                                                           involvement in this area be meaningful and
                                        ◆ Fair and reasonable contract pricing             positive. Therefore, to deal with the sheer mag-
                                        ◆ Reasonableness and allowability of               nitude of complaints, the OIG focuses primarily
                                          incurred costs                                   on systemic issues and conducts postalwide
                                                                                           reviews. These reviews are designed to identify


                           PAGE 24    GOALS AND STRATEGIES
and prevent potential problems that can detract           implementation
from a healthy and productive work environ-          ◆ Computer security:
ment. OIG efforts will focus on the following:
                                                       ◆ Access
◆ Workplace climate:
                                                       ◆ Data protection
  ◆ Conflict prevention and resolution
                                                       ◆ Data integrity
  ◆ Threat assessment programs
                                                     ◆ Developmental:
  ◆ Occupational safety and health
                                                       ◆ Automation of core functions
◆ Employee management:
                                                       ◆ Process re-engineering
  ◆ Training and development
                                                     ◆ eCommerce:
  ◆ Succession planning
                                                       ◆ Business partnerships and joint ventures
  ◆ Workforce planning
                                                       ◆ Brand integrity
  ◆ Performance and compensation
                                                       ◆ Justification, cost, budgeting, and risk
  ◆ Diversity
                                                     Overseeing the Inspection Service
Leveraging Technology to Enhance                          Enabling legislation requires the OIG to
Productivity                                         conduct oversight of the Inspection Service in
      The Postal Service is seeking ways to lever-   addition to OIG’s audit and investigative
age technology to improve its service, produc-       responsibilities over postal operations. As a law
tivity, and profitability. While it depends on       enforcement agency, it is essential that the
technology to handle more than 660 million           Inspection Service be held to the highest
pieces of mail every day, the Postal Service must    standards of conduct to maintain the public’s
continue to maintain its competitive position        trust and the Postal Service’s reputation of
in the market. The unprecedented growth in           reliability. OIG efforts in this area will focus on
computer activity and Internet usage is revolu-      the following:
tionizing the way the nation communicates and
                                                     ◆ Public trust:
conducts business and is reshaping customer
expectations. To address these technology chal-        ◆ Function and role
lenges, the Postal Service had planned to invest       ◆ Operational effectiveness
approximately $17 billion through Fiscal Year          ◆ Management controls
2005 on capital investments, some of which are
technology-related investments. However, with
the Postal Service’s current financial condition,
the funding of these projects is uncertain. These
projects were intended to automate and
modernize mail processing and acceptance,
enhance communications and access to infor-
mation, and extend the postal infrastructure to
better support core business processes and elec-
tronic products and services. In addition, the
Postal Service continues to focus on commerce
and computer security to protect these invest-
ments. OIG efforts will focus on the following:
◆ Information systems:
  ◆ Information infrastructure and
    architecture
  ◆ System performance and integrity
  ◆ Systems development and



                                                                                                           PAGE 25
          INSPECTION SERVICE
              The Inspection Service must supplement its reactive capability with proactive strategies to
          deter and prevent criminal activity. To accomplish this, the Inspection Service has developed five
          long-term strategic goals and related objectives. The new strategic plan begins with three critical
          imperatives: safety, security, and integrity.



                                                            Inspection Service
                                                        FY2001 Goals and Objectives

                                                        GOALS                                                          OBJECTIVES


                                                                                            • Reduce and deter employee on employee assaults and
              Safety             Ensure a Safe and Secure Drug-Free Work Environment          credible threats
                                                                                            • Reduce and deter robberies of postal employees and facilities
                                                                                            • Reduce and deter illegal drugs in the postal environment




                                                                                            • Reduce and deter volume mail theft in high theft areas
                                 Reduce Theft of the Mail                                   • Identify and resolve domestic and international in-transit
                                                                                              mail theft

              Security
                                                                                            • Reduce and deter embezzlements
                                 Reduce and Deter Criminal Attacks of Postal Products,      • Reduce and deter criminal misuse of the Postal Service’s workers’
                                 Services, and Assets                                         compensation program
                                                                                            • Reduce and deter postage fraud schemes




                                                                                            • Reduce and deter multi-state domestic and international
                                 Reduce Use of the Mail to Defraud Customers, Businesses,     telemarketing and deceptive mail operations
                                 and Government Agencies

             Integrity
                                                                                            • Eliminate the use of the nation’s mail system’s by
                                                                                              major organizations to transport illegal narcotics
                                 Reduce and Prevent the Use of the Postal System for        • Reduce and deter the use of U.S. Postal Money Orders
                                 Prohibited, Illegal, and Dangerous Mailings                  to launder money by disrupting money-laundering operations
                                                                                            • Reduce and deter the use of the postal system to procure or
                                                                                              deliver materials that promote the sexual exploitation of children




PAGE 26   GOALS AND STRATEGIES
Organizational Dynamics




    DID YOU
    KNOW?
   Does the OIG have access to all
   Postal Service documents and
   information?
   Yes. The Inspector General Act
   specifically provides that the Inspector
   General is authorized “to have access to
   all records, reports, audits, reviews,
   documents, papers, recommendations,
   or other material.”




                                              PAGE 27
                                      This section describes organizational vision,            agement retaliation.
                                      values, cultures, and diversity that assist          ◆   Identifies cost savings, enhances contract
                                      with providing value added service to the                and program administration, and pro-
                                      Postal Service. In order to differentiate the
        DID YOU                       OIG from the Inspection Service, the page
                                                                                               motes employee integrity and program
                                                                                               efficiency.
        KNOW?                         concerning Inspection Service has been               ◆   Facilitates audit resolution, which pro-
                                      color-screened.                                          vides a mechanism for resolving findings
                                                                                               and recommendations when the OIG
What are the OIG’s values?            OFFICE OF INSPECTOR                                      and Postal Service management disagree.
The OIG’s core values are                                                                       To improve Postal Service programs and
                                      GENERAL                                              operations, the OIG provides objective infor-
teamwork, leadership, creativity,
communication, and                                                                         mation, analysis, and recommendations. The
                                      AN INDEPENDENT VOICE
conceptualization (TLC3).                                                                  OIG is continuing to work with Postal Service


                                      T
                                              he OIG is an independent agency
                                                                                           management to inform them of the duties and
                                              within the Postal Service and is under
                                                                                           responsibilities of an independent OIG and to
                                              the general supervision of the nine pres-
                                                                                           demonstrate how the OIG adds value to Postal
                                      identially appointed Postal Service Governors.
                                                                                           Service processes.
                                      From 1988 until the establishment of the OIG
                                      in 1996, the Chief Postal Inspector performed        OIG VISION AND VALUES
                                      dual roles as the Inspector General and Chief             The vision of the OIG is “A Constellation
                                      Postal Inspector and reported to the Postmaster      of Talented People Making a Difference.” This
                                      General. In January 1997, Karla W. Corcoran          vision reflects the OIG’s mission to shed light
                                      was sworn in as the first independent Inspector      on problems and opportunities by emphasizing
                                      General of the Postal Service. In carrying out its   five fundamental values:
                                      responsibilities under the Inspector General
                                                                                           ◆   Teamwork—Diverse talents and levels
                                      Act, the OIG:
                                                                                               working cooperatively and collaborative-
                                      ◆   Provides Congress, the Governors, and                ly toward producing timely, relevant, and
                                          Postal Service management with timely,               quality work products and services that
                                          objective, and complete information and              add value to the Postal Service and our
                                          analysis of Postal Service operations.               organization.
                                      ◆   Conducts audits and investigations of all        ◆   Leadership—Encouraging each employee
                                          Postal Service operations and activities,            to be the best they can be regardless of
                                          including ratemaking, contract adminis-              position or grade, understanding that all
                                          tration, labor management, computer                  levels of employees are expected to play a
                                          intrusion, electronic commerce, comput-              role in developing and directing every
                                          er security, and marketing.                          effort performed.
                                      ◆   Maintains oversight of Inspection Service        ◆   Creativity—Cultivating fresh perspec-
                                          operations and performs independent                  tives in the development of new process-
                                          reviews of complaints against its                    es and techniques that will improve the
                                          employees.                                           Postal Service and OIG operations.
                                      ◆   Adds value to Postal Service operations,         ◆   Communication—Ensuring cross level
                                          contributes to a more efficient, economi-            and cross functional sharing of all infor-
                                          cal and effective organization, and helps            mation as well as facilitating honesty,
The values make up the core of            the Postal Service maintain its integrity            openness, respect, and consideration of
the OIG’s culture and define how          through independent investigations,                  the contributions and opinions of others.
it does its work.                         audits, and reviews.
                                                                                           ◆   Conceptualization—Keeping one’s “eye
                                      ◆   Serves as an objective venue for all                 on the ball” and recognizing interrela-
                                          Postal Service employees and other                   tionships to accomplish desired results.
                                          stakeholders to report fraud, waste, abuse,
                                          mismanagement, and other improprieties
                                          and concerns, with protection from man-


                            PAGE 28   ORGANIZATIONAL DYNAMICS
OIG CULTURE AND EMPLOYEES                            ADHERING TO THE HIGHEST
                                                     PROFESSIONAL STANDARDS
Value and Benefit of a Diverse Culture                     The OIG reports to Congress and the nine
      The OIG’s culture is defined by the diver-     presidentially-appointed Governors. The
sity of its employees, who share the organiza-       Inspector General is not supervised by the
tion’s core values of teamwork, leadership,          Postmaster General and cannot be removed by
creativity, communication, and conceptualiza-        the Postmaster General. This independence
tion. The OIG is committed to creating and           allows the OIG to report all findings of fraud,
maintaining a workplace that is enriched by the      waste, abuse, and mismanagement, which it is
talents, contributions, and full participation of    required to do by law. The OIG annually iden-
all of its employees and that reflects the tremen-   tifies major management issues and develops
dous diversity of the Postal community.              work priorities that assist the Postal Service in
Diversity is a tool for achieving the OIG’s mis-     addressing these issues. This enables the OIG to
sion and enhancing its organizational effective-     provide critical information to stakeholders in a
ness by using the creative energies of employees     timely manner.
who contribute different approaches, solutions,            To ensure its work is of the highest quality
and innovations.                                     and has a positive impact, the OIG adheres to
      The OIG workforce is diverse in age, race,     the highest professional standards. The OIG
ethnicity, gender, and background, as well as        complies with the following professional stan-
education, professional accomplishments, work        dards:
experience, and work style. The OIG workforce
includes Certified Public Accountants,               ◆    The General Accounting Office’s Gov-                          OIG Diversity
Certified Internal Auditors, Certified Fraud              ernment Auditing Standards; and
                                                                                                                                     .5%
Examiners, Certified Information Systems             ◆    The President’s Council on Integrity and                           NATIVE AMERICANS



Auditors, Certified Government Audit                      Efficiency’s Quality Standards for
                                                                                                                            7.2%
Professionals, and Certified Acquisition                  Inspections and Quality Standards for                  6.1%
                                                                                                                            ASIANS



Auditors. OIG employees also hold law                     Investigations                                        HISPANICS



enforcement specialty certifications in areas             Each audit is subjected to supervisory
                                                                                                                                                53.1%
such as polygraph examinations. In addition,         review at every stage of the audit process, and         33.1%                              WHITES

many OIG employees have undergraduate or             must meet established standards for due profes-          BLACKS


advanced degrees, while other employees are          sional care, quality, and independence. Each
continuing to work towards professional and          report is subject to review by the OIG’s statisti-
academic achievements. OIG teams include             cians, lawyers, editors, and other experts, and is
auditors, evaluators, criminal investigators,        independently referenced by an individual not
lawyers, technicians, and administrative per-        associated with the project. Draft reports are         The OIG is committed to creating and
sonnel formerly from federal and state govern-       submitted to Postal Service management who             maintaining a diverse workforce.
ment agencies, private industry, non-profit          have the opportunity to provide written com-
organizations, and the Postal Service.               ments in response to the report’s findings and
      The OIG continues to carry out an aggres-      recommendations. These comments are consid-
sive hiring initiative to staff the organization     ered in preparing the final report and the actual
with highly skilled employees. As of March 31,       comments are included in their entirety.
2001, OIG had 655 employees, of whom, 50                  The OIG also ensures the highest ethical
percent were women and 47 percent were               standards by performing full security back-
minorities. The senior staff is composed of          ground investigations on all of its employees.
approximately 40 percent women and 27 per-           Most employees are required to provide annual
cent minorities. Based on 1990 U.S. Bureau of        financial disclosure statements to the legal staff,
Census, Civilian Labor Force estimates, the          who review these statements to determine
OIG has met or exceeded the U.S. percentage          potential conflicts of interest. All employees are
of total population for women and for each           also required to complete ethics training each
minority group, except for Hispanics and             year, and OIG evaluators must meet standards
Native Americans.                                    for continuing professional education.



                                                                                                           PAGE 29
                                                  The OIG also has an aggressive internal         COMMENTARY HIGHLIGHTS
                                            quality assurance program that evaluates              SUPERVISORS’ RIGHTS
                                            processes, programs, and work performance.                 The OIG was pleased with an article writ-
                                            Also, every three years, the OIG undergoes a          ten by Vincent Palladino, President of the
                                            peer review of its audit processes by another         National Association of Postal Supervisors, in
                                            Office of Inspector General.                          the February 20, 2001, edition of their maga-
                                                  The OIG Quality Assurance and Internal          zine, The Postal Supervisor, that explains super-
                                            Affairs team also ensures ethical standards by        visors’ rights and responsibilities in OIG
                                            investigating complaints regarding OIG activi-        investigations and audits. The article discusses a
                                            ties. In addition, complaints against senior OIG      legal opinion provided by the Association’s
                                            management officials are investigated by the          attorney that stated: the OIG has very broad
                                            Integrity Committee of the President’s Council        audit and investigative authority; failure to
                                            on Integrity and Efficiency headed by a senior        cooperate with an OIG investigation or audit
                                            executive with the Federal Bureau of                  could subject the employee to disciplinary or
                                            Investigation.                                        criminal action; the OIG may not disclose the
                                            NOTABLE OIG ACHIEVEMENTS                              identity of complainants, unless the OIG deter-
The OIG issued a CD-Rom that provides
                                                                                                  mines the disclosure is unavoidable; employees
information about its mission, culture,     CD-ROM PROVIDES VIRTUAL                               who complain to the OIG may not suffer
and accomplishments.                        TOUR OF OIG                                           reprisal; and employees have limited rights with
                                                  The OIG has prepared a credit card sized        respect to OIG interviews, which are conducted
                                            compact disc that provides information about          within constitutional parameters. The article is
                                            what it is, what it does, and where its offices are   consistent with OIG’s position regarding its
                                            located. This computer disk contains links to         authority.
                                            the OIG’s main website and useful websites such
                                            as the Postal Service, Congress, and other
                                                                                                  EXECUTIVE AWARDS
                                            agency Offices of Inspector General. It also               Kirt West, Assistant Inspector General for
                                            includes videos highlighting the OIG’s diverse        Internal Business, and Ronald Stith, Assistant
                                            staff, Hotline operations, and OIG teams in           Inspector General for Oversight and Business
                                            action. The CD-Rom was distributed at the             Evaluation, received a 2000 National Executive
                                            National Postal Forum in March and will be            Conference Executive Recognition Award for
                                            used as an informational tool for stakeholders        exceeding performance expectations and deliv-
                                            and the public, and as a recruiting tool.             ering outstanding results while representing the
                                                                                                  Postal Service OIG in challenging proposed
                                            FEDERAL COURT AFFIRMS THE                             audit standards that would have impaired its
                                            IMPORTANCE OF OIG VALUES                              organizational independence. Together, they
                                                 On January 4, 2001, the U.S. District            prepared position papers and made oral presen-
                                            Court in Alexandria, Virginia, granted the            tations to professional associations and govern-
                                            OIG’s summary judgment motion in an                   ment agencies, which resulted in the
                                            employee termination lawsuit. This judgment           Comptroller General agreeing that the OIG is
                                            affirmed the OIG’s right to use its core organiza-    organizationally independent. This decision
                                            tional values as a basis for measuring an             allows the OIG to continue to function effec-
                                            employee’s performance. The OIG terminated a          tively and add value to the Postal Service by
                                            former evaluator during the probationary period       rendering independent audit and investigative
                                            for poor job performance based on a failure to        services.
                                            adhere to the OIG’s core values of teamwork,
OIG Special Agent David Sermos receives                                                           OIG SPECIAL AGENT RECEIVES
the U.S. Attorney’s Award from the          conceptualization, and communication. In
                                            holding for the OIG, the court rejected the for-
                                                                                                  AWARD FROM U.S. ATTORNEY’S
Honorable Alejandro N. Mayorkas, U.S.
                                                                                                  OFFICE
Attorney, Central District of California.   mer employee’s claim that the firing was for dis-
                                                                                                      At its Second Annual Awards Ceremony,
                                            criminatory reasons.
                                                                                                  the U.S. Attorney’s Office, Central District of
                                                                                                  California, presented Special Agent Dave
                                                                                                  Sermos an award for his outstanding contribu-


                                PAGE 30     ORGANIZATIONAL DYNAMICS
tions relating to a significant product substitu-   issues facing the Inspector General investiga-
tion investigation involving Postal Service         tive community, as well as to promote the abil-
equipment. This product substitution case           ity and reputation of the OIG and the Postal
affects post offices throughout the country. The    Service as leaders in the use of technology and
U.S. Attorney commented that this complex           modern management techniques to improve
investigation and its pending prosecution is the    federal law enforcement.
direct result of Special Agent Sermos’ technical
                                                    OIG HOLDS FOURTH ANNUAL
and professional skills.
                                                    TRAINING AND RECOGNITION
OIG SPECIAL AGENT AWARDED                           EVENT
TOP HONORS AT TRAINING                                   The OIG celebrated its fourth anniversary
PROGRAM                                             with an employee training and recognition con-
     The Inspector General Criminal                 ference in Washington, DC, from January 8 -
Investigator Academy presents two awards to         11, 2001. The event emphasized the OIG’s core
students who attend the four-week Inspector         values and featured technical training sessions,
General Investigator Training Program. The          job-related seminars, and a ceremony recogniz-
William Barton Award is based on performance        ing the accomplishments of OIG staff. Awards
in the training program and qualitative stan-       were presented to four Postal Service employees
dards such as demeanor, attitude, responsibility,   –Jayne Schwarz, Wendy Hocking, Stephen
professionalism, and integrity. The Honor           Leavey, and Michael Wolfe– in recognition of
Graduate Award is based on quantitative acad-       the tremendous support they have provided to
emic standards. OIG Special Agent Gregory           the OIG. Awards were also given to 20 staff         OIG employees received special awards
Tremaglio received both awards for the March        members who best exemplified the OIG’s core         for their outstanding work at the OIG.
2001 program. Special Agent Tremaglio               values and performed in a truly outstanding
received the Honor Graduate award for scoring       manner: James Campbell, John Cihota, George
100 percent on the program’s two required           Davis, Sean Dawson, Annette Demory, Carrie
examinations.                                       Fox, Gladis Griffith, Felicia Hawthorne-
                                                    Richardson, Roger Holland, Nancy Lynham,
OIG HOSTS ASSOCIATION OF
                                                    Rose Madden, Sam Montalvo, Beverly Partney,
DIRECTORS OF INVESTIGATIONS
CONFERENCE                                          Concha Perry, Hugh Reynolds, Charles
                                                    Stephens, Michael Striglers, Nora Tijerina,
     The OIG was honored to host the
                                                    Mike Vogel, and Barbara Will.
Association of Directors of Investigations
                                                         The four-day event was highlighted by pre-
Conference in Williamsburg, Virginia, from
                                                    sentations from: Governor John Walsh of the
March 12–16, 2001. The conference is an
                                                    Postal Service Board of Governors; Debbie
annual event attended by the heads of investi-
                                                    Willhite, Postal Service Senior Vice President
gations of the President’s Council on Integrity
                                                    of Government Relations and Public Policy; as
and Efficiency and the Executive Council on
                                                    well as professional authorities on customer ser-
Integrity and Efficiency Office of Inspectors
                                                    vice and relationship building.
General. Forty-seven federal agencies were
represented at the conference. The theme of         MAIL ACCEPTANCE TRAINING
this year’s conference was “Addressing the          COURSE TAILORED TO OIG
Challenges of the 21st Century.”                    NEEDS
     In addition to presentations from experts           OIG employees developed and taught a
in the Inspector General community, the week        mail acceptance training course as an
                                                                                                        Forty-seven agencies were represented
was highlighted by presentations on ethics and      alternative to a two week course taught at the      at the Association of Directors of
stress management; futuristic law enforcement;      Postal Service Training Academy in Norman,          Investigations Conference hosted by
working with Congress; interactive interview-       Oklahoma. Approximately 50 evaluators and           the OIG.
ing; managing “Generation X” employees; com-        investigators attended the course which was
munications and customer service; and               held at OIG headquarters and the Dallas, Texas,
Inspector General investigations from a crimi-      field office. This in-house training saved the
nal defense perspective. The conference pro-        OIG approximately $62,000 in travel expenses.
vided an opportunity to address the emerging

                                                                                                          PAGE 31
                                         OIG CONDUCTS COMPUTER                                 office contributions were equally impressive,
                                         FRAUD AND SECURITY                                    totaling over $20,000 and increasing the OIG’s
                                         AWARENESS BRIEFINGS                                   fundraising efforts to over $100,000. The head-
                                              The OIG conducted Computer Fraud and             quarters campaign garnered two awards from
                                         Security Awareness briefings for the following        the National Capital Area Combined Federal
                                         Postal Service stakeholders during this reporting     Campaign: the President’s Award ($275 per per-
                                         period:                                               son or 75 percent participation) and the
                                                                                               Pacesetter Award (3.4 percent or better over last
                                         ◆   Computer Operations Service Center
                                                                                               year’s fundraising effort). Both awards were pre-
                                             staff, San Mateo, California; Information
                                                                                               sented at the OIG Fourth Annual Training and
                                             Systems managers’ meetings for the Pacific,
                                                                                               Recognition Conference by Ed Kiess, Senior
                                             Allegheny, and Western districts;
                                                                                               Campaign Manager for National Capital Area
                                         ◆   Postal Service staff including Hawaii dis-        Combined Federal Campaign. The OIG Dallas
                                             trict postmasters and Information Systems         Field Office also received the Pacesetter Award
                                             staff; Van Nuys, California, district staff
                                                                                               from the Dallas, Texas, Regional Combined
                                             and plant managers; Portland, Oregon,
                                                                                               Federal Campaign for the 1999 Campaign. The
                                             district manager and staff; Santa Ana,
                                                                                               Award was presented during the field office’s
                                             California, Operations and Customer
                                             Service staff; Philadelphia district manager,     Combined Federal Campaign 2000 kick-off cel-
                                             postmasters and station managers;                 ebration.

                                         ◆   Western Area Managers’ meeting in Las             OIG PROVIDES TRAINING
                                             Vegas, Nevada; and                                AND SUPPORT TO INSPECTOR
                                         ◆   Information Technology managers meet-
                                                                                               GENERAL COMMUNITY
The OIG received Pacesetter and
President’s Awards for its outstanding       ing at the National Center for Employee                The OIG has provided computer forensics
support of the Combined Federal              Development Conference in Norman,                 services to several Offices of Inspector General
Campaign.                                    Oklahoma.                                         at their request, including the Securities and
                                                                                               Exchange Commission, Department of the Interior,
                                         OIG PARTNERS WITH DISTRICT                            Department of Treasury, National Credit Union
                                         OF COLUMBIA REHABILITATION                            Administration, and National Archives and
                                         SERVICES ADMINISTRATION                               Records Administration. Most of this assistance
                                              As part of its continuing efforts to reach out   has involved providing forensic analysis of
                                         to persons with disabilities, the OIG has entered     seized media for evidence. The OIG examina-
                                         into an employer partnership with the D.C.            tions have led to successful prosecution and or
                                         Rehabilitation Services Administration. The           administrative action against the subjects
                                         Administration’s mission is to help people            involved in the cases. The OIG has also assisted
                                         with disabilities prepare for the workforce. An       other Offices of Inspector General in develop-
                                         OIG representative serves on the Rehabili-            ing their own computer forensics capabilities.
                                         tation Services Administration’s Employer                  OIG team members gave numerous presen-
                                         Advisory Council. The Council serves as an            tations this reporting period, including presen-
                                         advisory body to the Rehabilitation Services          tations on computer forensics to:
                                         Administration on providing employment
                                                                                               ◆   International Organization on Computer
                                         opportunities for persons with disabilities. The
                                                                                                   Evidence;
                                         OIG participated in a career fair co-sponsored by
                                         the Rehabilitation Services Administration and        ◆   Department of the Interior;
                                         its Council on October 24, 2000.                      ◆   Diplomatic Security Service; and

                                         OIG RECEIVES COMBINED                                 ◆   Association of Directors of
                                         FEDERAL CAMPAIGN AWARDS                                   Investigations.
                                              The OIG’s Combined Federal Campaign
                                                                                               OIG’S TECHNOLOGICAL
                                         for 2000 was a tremendous demonstration of the        ADVANCES FEATURED IN
                                         OIG’s core values and our employees’ generos-         LEADING TECHNICAL JOURNAL
                                         ity. Headquarters staff raised over $80,000,
                                                                                                   The OIG successfully installed and
                                         exceeding last year’s efforts by 50 percent. Field
                                                                                               deployed its Voice Over Internet Protocol net-

                               PAGE 32   ORGANIZATIONAL DYNAMICS
work to four field locations. This technology          ◆   Establishing a significant presence with
allows the OIG to transmit voice communica-                the Inspector General and law enforce-
tions over its data network, thus reducing                 ment communities;
telecommunications costs. The OIG is one of            ◆   Responding effectively to Hotline and
the first federal government organizations to use          Congressional inquiries; and
this technology. Packet Magazine, a leading            ◆   Resolving disagreements with Postal Ser-
technical journal, highlighted the OIG’s imple-            vice management in a timely manner.
mentation of Voice Over Internet Protocol in
its second quarter 2001 edition.

CHALLENGES FACING THE OIG
     During the past five months, the OIG has
opened four new field offices in Boston,
Massachusetts; Pittsburgh, Pennsylvania;
Portland, Oregon; and Tampa, Florida; for a
total of 15 field offices. These offices will
increase the OIG’s nationwide presence and
reduce travel costs. Adding new offices has been
a challenge, requiring the OIG to rely on state-
of-the-art technology to ensure effective com-
munication among its field offices and
headquarters. Communication, one of the
OIG’s core values, is crucial to maintaining the
flow of information and coordination required
to effectively start up and staff new field offices.
     Further, as the OIG moves forward in its
efforts to help the Postal Service maintain and
enhance its position as best in the world, the
OIG faces several external and internal chal-
lenges. These include:
◆    Continuing to hire and retain talented
     and diverse staff;
◆    Building processes, policies, and proce-
     dures;
◆    Promoting values and culture;
◆    Demonstrating sensitivity to employee
     needs;
◆    Providing meaningful and timely results;
◆    Educating the Postal Service on the
     OIG’s role;
◆    Resolving differences regarding authority
     and responsibility of the OIG and
     Inspection Service;
◆    Balancing our responsibility to report our
     findings with the Postal Service’s com-
     petitive needs;
◆    Strengthening liaison with postal stake-
     holders;




                                                                                                      PAGE 33
                                                                                                providing forensic examinations of evidence;
                                        INSPECTION SERVICE                                      developing, procuring and deploying electronic


                                        T
                                                 he Inspection Service, the traditional         security and surveillance equipment; publishing
                                                 law enforcement arm of the Postal              policy handbooks and consumer awareness
                                                 Service, is a highly specialized, profes-      guides and brochures; supplying photography
                                        sional organization with over 4,300 employees           and video services; and facilitating direct com-
                                        that performs investigative and security func-          munications with Congress and the public.
                                        tions essential to a stable and sound postal sys-             Operating with a staff of 10 Postal
                                        tem. Through its security and enforcement               Inspectors, an Assistant Inspector in Charge,
                                        functions, the Inspection Service provides              four support employees and 39 Postal Police
                                        assurance to: businesses for the safe exchange of       Officers, the Office of Inspections has a three-
                                        funds and securities through the U.S. mail;             fold mission. It ensures integrity and excellence
                                        postal customers of the “sanctity of the seal” in       within the Inspection Service by conducting
                                        transmitting correspondence and messages; and           independent internal investigations of its
                                        postal employees of a safe work environment.            employees. The office oversees the quality and
                                              Postal Inspectors are federal law enforce-        thoroughness of Inspection Service operations
                                        ment officers who carry firearms, make arrests,         by conducting reviews at field divisions and
                                        execute federal search warrants, and serve sub-         headquarters units. Finally, it protects the safety
                                        poenas. Postal Inspectors work closely with U.S.        of postal employees and customers by providing
                                        Attorneys, other law enforcement agencies, and          security and preventive services at national
                                        local prosecutors to investigate postal cases and       Headquarters.
                                        prepare them for court. There are approximately               The Office of Counsel provides legal
                                        2,000 Postal Inspectors stationed throughout            advice and services in support of Inspection
                                        the United States who enforce over 200 federal          Service investigations, programs and goals, and
                                        laws covering investigations of crimes that             processes requests for access to Inspection
                                        adversely affect or fraudulently use the U.S.           Service records. The Counsel’s office is com-
                                        Mail and postal system.                                 posed of 20 inspector-attorneys and a support
                                              To assist in carrying out its responsibilities,   staff of paralegal specialists, information disclo-
                                        the Inspection Service maintains a security             sure specialists, a labor relations specialist, a pro-
                                        force staffed by 1,400 uniformed Postal Police          gram specialist, and an administrative support
                                        Officers, who are assigned to critical postal facil-    specialist.
                                        ities throughout the country. The officers pro-               The Inspection Service’s national informa-
                                        vide perimeter security, escort high-value mail         tion technology infrastructure supports over
                                        shipments, and perform other essential protec-          4,300 users at more than 220 sites nationwide.
                                        tive functions.                                         Inspection Service offices are linked nationally
                                              The Inspection Service operates five foren-       via a dedicated frame-relay network, with on-
                                        sic crime laboratories, strategically located in        line connections to the Postal Service, the
                                        cities across the country. The laboratories are         National Crime Information Center, the
                                        staffed with forensic scientists and technical          National Law Enforcement Telecommunications
                                        specialists who assist Postal Inspectors in analyz-     System, and the Internet.
                                        ing evidentiary material needed for identifying               The Inspection Service extends full coop-
                                        and tracking criminal suspects and in providing         eration to all federal, state, and local investiga-
                                        expert testimony for cases brought to trial.            tive and prosecutorial authorities in law
                                              The Inspection Service’s 900 professional         enforcement matters to ensure greater protec-
                                        and technical employees also include forensic           tion to the public. Working with other agencies,
                                        specialists, program analysts, financial analysts,      Postal Inspectors regularly participate in joint
                                        information technology experts, and others,             task force cases aimed at curtailing widespread
Inspection Service seal and badges
                                        who play a vital role in supporting the criminal        criminal acts of an organized nature.
                                        investigation and security functions of the                   More information on the Inspection Service
                                        Inspection Service. They perform a wide variety         canbe found at http://www.usps.com/postalinspectors.
                                        of tasks, including developing, maintaining and
                                        continually upgrading management systems;

                              PAGE 34   ORGANIZATIONAL DYNAMICS
Organizational Structure




   DID YOU
   KNOW?
  Who does the OIG employ?
  The OIG staff consists of auditors, criminal inves-
  tigators, evaluators, lawyers, technicians, and
  administrative personnel from federal and state
  government agencies, private industry, nonprofit
  organizations, and the Postal Service.




                                             PAGE 35
                                             Office of Inspector General
                                              Organizational Structure
                                                                    (as of March 31, 2001)


                                                    INSPECTOR G                                      T INSPECTOR
                                                ANT            EN                                 TAN            GE
                                             IST                                                IS
                                                                                              SS




                                                                                                                                N
                                           SS




                                                                             ER




                                                                                                                                 ER
                                                                                         A
                                                                               A
                                      A




                                                                                                                                   AL
                                                                                L
                                            Business Operations                                Business Protection

                                            Accepting & Processing                             Contracts/Facilities
                                            Delivery                                           Corruption & Nonfinancial Crimes
                                            Financial Statement/Financial Field                Financial Crimes
                                            Marketing & Enabling                               Health Care Fraud
                                            Transportation




                                                                    Inspector General
                                                                                                                         Oversight and
                     eBusiness                                      Deputy                                               Business Evaluations
                                                                    Inspector General
ASSISTANT IN




                                                                                                                                                                ERAL
                     Computer Intrusion                                                                                  Hotline
                                                                    Congressional & Public Relations
                     Developmental                                                                                       Labor Management
                                                                    Quality Assurance & Internal Affairs




                                                                                                                                                             GEN
                     Electronic Commerce                                                                                 Oversight
                                                                    Strategic Planning
                     Forensic & Technical Services
                                                                   General Counsel




                                                                                                                                                          OR
                     Information Systems
            SP




                                                                   Legal Services




                                                                                                                                                        CT
                     Information Technology
              EC




                                                                                                                                                         E
                                                                                                                                                       SP
                TO




                 R
                      GE                                                                                                                         T   IN
                        NER                                                                                                              ASSISTAN
                           AL
                                                                                              East & West
                                               Internal Business                              Field Liaison
                                               Administrative Resources                       Arlington        Minneapolis
                                               Communications & Policy                        Atlanta          New York
                                                                                              Boston           Pittsburgh
                                               Experts
                                                                                              Chicago          Portland
                                               Human Resources                                Dallas           Raleigh
                                                                                              Denver           San Mateo
                                               Internal Quality
                                     A




                                                                              L




                                                                                              Los Angeles      St. Louis
                                                                                                                                    ES
                                                                             A
                                     SS




                                          ST Workplace Enhancement ER
                                                                                         EX




                                                                                          EC                   Tampa            V
                                                                                                                             TI
                                       I




                                            AN                     N                           UT
                                               T IN             GE                                  IV E                   TA
                                                    SPECT O   R                                            R EP RESE N




                                           PAGE 36       ORGANIZATIONAL STRUCTURE
This section describes the organization of           GENERAL COUNSEL TO THE
the OIG and the Inspection Service. In               INSPECTOR GENERAL
order to differentiate between the OIG and           Thomas Coogan
the Inspection Service, the pages concerning
the Inspection Service have been color               Deputy General Counsel,                                         DID YOU
                                                     Ronnie Wainwright
screened.
                                                     LEGAL SERVICES TEAM
                                                                                                                     KNOW?
                                                     Director, Gladis Griffith - provides legal
OFFICE OF INSPECTOR                                  advice to the Inspector General and OIG staff         How many field offices does
GENERAL                                              in all areas of law, including criminal, civil, and
                                                                                                           the OIG have?
                                                     administrative issues; processes subpoenas;
     The OIG supports the Postal Service’s busi-     responds to Freedom of Information Act and            The OIG has 15 field offices in
ness and public policy objectives. It is a unique,   Privacy Act requests; serves as liaison with          addition to its headquarters
nontraditional, diverse organization that con-       Postal Service and Department of Justice legal
                                                     staffs; manages compliance with Office of Gov-        offices. Field offices supporting
ducts audits, reviews, investigations, and other
core functions identified by the Inspector           ernment Ethics regulations; and reviews exist-        headquarters in Rosslyn, Virginia,
General Act of 1978, as amended.                     ing and proposed legislation, regulations and         are located in San Mateo and Los
                                                     policies affecting the economy and efficiency of      Angeles, California; Denver, Col-
     The OIG’s values of teamwork, leadership,
                                                     the Postal Service.
communication, creativity, and conceptualiza-                                                              orado; Atlanta, Georgia; Chicago,
tion are demonstrated by teams that focus on         ASSISTANT INSPECTOR GENERAL                           Illinois; Minneapolis, Minnesota;
improving Postal Service business processes and      FOR AUDIT (BUSINESS OPERATIONS)
                                                                                                           St. Louis, Missouri; New York,
overall organizational achievement. The follow-      Debra Ritt                                            New York; Raleigh, North Caroli-
ing section describes the OIG organizational         Deputy Assistant Inspectors General,
                                                                                                           na; Dallas, Texas; Boston, Massa-
structure as of March 31, 2001.                      John M. Seeba and Tracy LaPoint
                                                                                                           chusetts; Tampa, Florida; Pitts-
DEPUTY INSPECTOR GENERAL                             (Acting)
                                                                                                           burgh, Pennsylvania; Portland,
Sylvia L. Owens - assists the Inspector              ACCEPTING & PROCESSING TEAM                           Oregon; and Arlington, Virginia.
General and the OIG Management Commit-               Director, Stew Dorris - plans and directs
tee in leading the organization.                     audits and reviews focusing on mail acceptance
                                                     and collection operations, and mail processing
CONGRESSIONAL & PUBLIC                               and distribution processes.
RELATIONS TEAM
                                                     DELIVERY TEAM
Director, Laura Whitaker - serves as liaison
and responds to requests from Congress, the          Director, Chris Nicoloff - plans and directs
Board of Governors, and the media; and coor-         audits and reviews to enhance delivery process-
dinates Congressional testimony and                  es and operations and improve customer satis-
presentations.                                       faction.

QUALITY ASSURANCE & INTERNAL                         FINANCIAL TEAMS
AFFAIRS TEAM                                         Director - Financial Field, Sheila Bruck
Director, George Davis - conducts internal           and Director - Financial Statements,
reviews of OIG operations and procedures to          vacant - plan and direct work in support of
ensure that they are effective and appropriate,      independent public accounting firm’s annual
and reviews allegations against OIG employees.       financial audit opinion and conduct other
                                                     financial-related audits to identify areas for
STRATEGIC PLANNING TEAM                              improvement.
Director, vacant - anticipates and plans for
                                                     MARKETING & ENABLING TEAM
current and future changes in the Postal Ser-
vice, OIG operations, and technology by iden-        Director, Larry Chisley - plans and directs
tifying workload and providing research and          audits and reviews examining the major sources
statistical analysis.                                of revenue from marketing, advertising, stamp
                                                     services, retail and international business, and
                                                     Postal Service support operations such as gov-
                                                     ernment relations and customer service as well
                                                     as performs rate case monitoring.


                                                                                                           PAGE 37
                                           TRANSPORTATION TEAM                                   ASSISTANT INSPECTOR GENERAL
                                           Director, Joe Oliva - plans and directs audits        FOR INTERNAL BUSINESS
                                           and reviews of domestic and international             Kirt West
                                           transportation and logistics operations, specifi-
                                           cally addressing Postal Service fleet operations      Deputy Assistant Inspector General,
                                           and contracts for air, highway, and rail services.    Wayne Goleski

                                           ASSISTANT INSPECTOR GENERAL                           SELF DIRECTED TEAMS
                                           FOR INVESTIGATIONS                                    EXPERTS- provide support to OIG staff in the
                                           (BUSINESS PROTECTION)                                 areas of statistical sampling; statistical and
                                           Billy Sauls                                           other quantitative methods used by the Postal
                                           Deputy Assistant Inspectors General,                  Service; the selection, development, and use of
                                                                                                 analytical methods; economic forecasting;
                                           Daniel O’Rourke and Kim Stroud
                                                                                                 cost/benefit analysis; estimation of monetary
                                           (Acting)                                              benefits; and activity-based costing.
                                           CONTRACTS TEAM                                        INTERNAL QUALITY - facilitates the success
                                                                                                 of OIG operations by providing consulting ser-
                                           Director, Kim Stroud - plans and directs
                                                                                                 vices to strengthen internal processes and pro-
                                           audits and investigations of purchasing activi-
                                                                                                 mote the vision and core values of the OIG —
                                           ties and operations to improve Postal Service         teamwork, leadership, communication, creativ-
The OIG Creative Services staff provides   contracting.                                          ity, and conceptualization.
in-house video and photography services
to enhance OIG products.                   CORRUPTION & NON-FINANCIAL                            ADMINISTRATIVE RESOURCES TEAM
                                           CRIMES TEAM
                                                                                                 Director, Steve Spratt - provides the OIG
                                           Director, Michael Shiohama - investigates             staff with facilities, procurement, financial,
                                           bribery, kickbacks, conflict of interest, embez-      budget, and other services necessary to accom-
                                           zlements, fraudulent tort claims, executive mis-      plish the OIG mission.
                                           conduct, employee retaliation/reprisal, and
                                           cases involving expenditures and contract fraud       COMMUNICATIONS & POLICY TEAM
                                           dealing with product substitution.                    Director, Jim Nugent - provides video,
                                                                                                 graphics, writing, and editorial services; coordi-
                                           FACILITIES TEAM
                                                                                                 nates and publishes OIG reports as well as other
                                           Director, Russ Barbee - plans and directs             documents for Congress, Governors and Postal
                                           audits, reviews, and investigations of all aspects    Service management; and manages develop-
                                           of postal facilities, including repair, renovation,   ment of internal policies and procedures.
                                           and new construction.
                                                                                                 HUMAN RESOURCES TEAM
                                           FINANCIAL CRIMES TEAM
                                                                                                 Director, Eufemia Lucero - provides full-
                                           Director, Anthony T. Cannarella - initi-              service human resources programs to the OIG
                                           ates proactive approaches to prevent and detect       in the areas of employee relations, pay and ben-
                                           fraud, waste, abuse, and mismanagement in the         efits, retirement, awards, performance manage-
                                           expenditure of Postal Service funds.                  ment, counseling, and training.
                                           HEALTH CARE FRAUD TEAM                                WORKPLACE ENHANCEMENT TEAM
                                           Director, Katherine K. Johnson - identi-              Director, Sharon Solomon - provides sup-
                                           fies and investigates medical providers that          port and services to the OIG on internal work
                                           have falsely billed the Postal Service for work-      life, organizational climate, diversity, equal
                                           related injury claims; investigates allegations of    employment opportunity, and other workplace-
                                           wrongdoing by medical providers under                 related issues.
                                           contract with the Postal Service; and plans and
                                           directs audits and reviews of systemic issues         ASSISTANT INSPECTOR GENERAL
                                           involving the Workers’ Compensation                   FOR OVERSIGHT & BUSINESS
                                           Program.                                              EVALUATIONS
                                                                                                 Ronald K. Stith
                                                                                                 Deputy Assistant Inspector General,
                                                                                                 Debbie Pettitt


                               PAGE 38     ORGANIZATIONAL STRUCTURE
HOTLINE TEAM                                        INFORMATION SYSTEMS TEAM
Director, Bob Pemberton - operates the              Director, Dave Berran - plans and directs
OIG Hotline to provide a vital and confiden-        audits and reviews of major automated Postal
tial communications link for postal employees,      management information systems to determine
other stakeholders, and the public to report        whether general and application controls are
fraud, waste, abuse, and mismanagement in the       properly established and systems are designed
Postal Service.                                     to provide accurate data to management; and
                                                    provides computer-assisted audit techniques for
LABOR MANAGEMENT TEAMS
                                                    data retrieval and analysis in support of the
Directors, Bennie Cruz and                          OIG administrative, audit, and investigative
Joyce Hansen - plan and direct audits and           staff.
reviews of labor management and employee
relations issues within the Postal Service to       INFORMATION TECHNOLOGY TEAM
assist in maintaining a healthy and safe organi-    Director, David Sidransky - manages com-
zational climate for employees and improving        puter operations and telecommunications
operational efficiency.                             within the OIG; operates the local and wide-
                                                    area networks; provides computer security and
OVERSIGHT TEAM
                                                    technical support to the OIG staff; and man-
Director, Cathleen Berrick - plans and              ages agency wide information systems.
directs audits and reviews to provide oversight                                                                          The OIG Forensic & Technical Services
of Inspection Service programs and operations.      EXECUTIVE REPRESENTATIVES                                            Team provides technical support to OIG
                                                    FOR FIELD LIAISON                                                    evaluators and investigators.
ASSISTANT INSPECTOR GENERAL
                                                    Colleen McAntee (West) and
FOR eBUSINESS
                                                    Ronald Merryman (East)
Bob Emmons                                          Provides senior-level communication links
Deputy Assistant Inspector General,                 between the OIG Headquarters and its 15 field
Donna Edsall                                        offices, and all Postal Service field operations.

COMPUTER INTRUSION TEAM
                                                    OIG FIELD LOCATIONS
Director, Howard Cox - detects and investi-              During this reporting period, the OIG
gates computer hacking and other high-tech-         opened four new field offices in Tampa, Florida;
nology crimes involving Postal Service com-         Boston, Massachusetts; Portland, Oregon; and
puters and telecommunications systems; and          Pittsburgh, Pennsylvania, for a total of 15 field
assists in identifying vulnerable computer sys-     offices. In addition, the OIG expanded its
tems so that appropriate countermeasures may        headquarters facility in Rosslyn, Virginia.
be implemented.                                     Other field offices supporting headquarters are
DEVELOPMENTAL TEAM                                  located in San Mateo and Los Angeles,
Director, Tracy LaPoint - plans and directs         California; Denver, Colorado; Atlanta,
audits and reviews of new or redesigned Postal      Georgia; Chicago, Illinois; Minneapolis,
Service systems, programs, and operations that      Minnesota; St. Louis, Missouri; New York, New
are under development.                              York; Raleigh, North Carolina; Dallas, Texas;
                                                    and Arlington, Virginia. OIG locations are
ELECTRONIC COMMERCE TEAM
                                                    depicted in the following map.
Director, Robert Batta - plans and directs                                                       OIG Locations Nationwide
audits and reviews in the emerging field of elec-       PORTLAND, OR
tronic commerce, focusing on new electronic                                                                                         PITTSBURGH, PA
business initiatives and revenues.                                                                                                                                   BOSTON, MA
                                                                            PORTLAND, OR         MINNEAPOLIS, MN
                                                                                                                                              PITTSBURGH, PA   NEW YORK, NY
FORENSIC & TECHNICAL SERVICES                        SAN MATEO, CA                                                                                             ROSSLYN &BOSTON, MA
                                                                                                               CHICAGO, IL MN
                                                                                                              MINNEAPOLIS,
TEAM                                                                                                                                                           ARLINGTON, VA NY
                                                                                                                                                                     NEW YORK,
                                                                         SAN MATEO, CA   DENVER, CO                                                              RALEIGH,
                                                                                                                                                                 RALEIGH , NC &
                                                                                                                                                                     ROSSLYN
                                                                                                         ST. LOUIS, MO        CHICAGO, IL
Director, Tommy Hampton - provides tech-               LOS ANGELES, CA                                                                                  ATLANTA, GA ARLINGTON, VA
                                                                                                      DENVER, CO
nical support in such areas as surveillance, evi-                          LOS ANGELES, CA
                                                                                                                         ST. LOUIS, MO                                  RALEIGH, NC
                                                                                                                                                               ATLANTA, GA
dence recovery, firearms, computer forensics,
and polygraph examinations; and maintains                                                             DALLAS, TX                                         TAMPA, FL
                                                                                                                   DALLAS, TX                                   TAMPA, FL
close liaison with technical experts in the law
enforcement community.
                                                                                                                                                               NEW OFFICE
                                                                                                                                                                        NEW OFFICE
                                                       INSPECTION SERVICE                                                         The national headquarters offices of the
                                                                                                                             Inspection Service are organized into functional
                                                            At the end of FY 2000, the Inspection
                                                                                                                             groups that report to Deputy Chief Inspectors
                                                       Service completed a realignment of reporting
                                                                                                                             for Investigations, Security & Technology, and
                                                       relationships among field divisions. Over the
                                                                                                                             Professional     Standards       &     Resource
                                                       last few years, 30 Inspection Service Field
                                                                                                                             Development. The Inspection Service has 18
                                                       Divisions have been consolidated to 18. This
                                                                                                                             field divisions, which report directly to two
                                                       has resulted in increased efficiency and effec-
                                                                                                                             Deputy Chief Inspectors for field operations.
Chief Postal Inspector                                 tiveness. The consolidation of specific support
                                                                                                                             Five Inspection Service Operations Support
Kenneth C. Weaver                                      functions, the availability of additional staff
                                                                                                                             Groups support field offices. The Inspection
                                                       resources for emergency response, and a more
                                                                                                                             Service’s Executive Committee, which consists
                                                       uniform span of control among division
                                                                                                                             of the five Deputy Chief Inspectors and the
                                                       Inspectors in Charge will enhance the
                                                                                                                             three Inspectors in Charge who report directly
                                                       Inspection Service’s ability to address its goals.
                                                                                                                             to the Chief Postal Inspector, establishes the
                                                       The Inspection Service remains committed to
                                                                                                                             direction of the organization. The National
                                                       the ongoing evaluation of organizational perfor-
                                                                                                                             Leadership Team consists of the Deputy Chief
                                                       mance, employee development, and customer
                                                                                                                             Inspectors and all Inspectors in Charge.
                                                       service, with the goal of continuous improve-
                                                       ment.




                Inspection Service Organizational Structure
                                                                                       Chief Postal Inspector
                                                                                       KEN C. WEAVER



    Deputy Chief Inspector    Deputy Chief Inspector                      Deputy Chief Inspector                Deputy Chief Inspector   Deputy Chief Inspector
     Security/Technology          Investigations             Professional Standards & Resource Development       Field Operations East   Field Operations West
           J. BELZ              K. NEWMAN                                   D. WRIGHT                               L. HEATH                 M. AHERN

             INC                      INC                        INC                          Manager            Inspectors in Charge     Inspectors in Charge    Inspector in Charge
    Information Technology     Fraud, Child Expl.,         Strategic Plng. &               Human Resource             Florida -               Gulf Coast -         Office of Counsel
        R. COCCIA              Asset Forfeiture &         Management Process                Performance                                                               L. KATZ
                                                                                                                     M. GREY                 R. DODD
                               Money Laundering          J. STINCHFIELD                   N. JOHNSON
                               L. MAXWELL                                                                             Mid Atl. -              Michiana -
            INC                                                                                                                                                   Inspector in Charge
    Corporate Information
                                                                                                                 A. CRAWFORD              W. MITCHELL             Office of Inspections
                                                                 INC                          Manager
        Management                   INC                  Career Development              Exec. Resources &          NY Metro -                Midwest -           J. SOMERSET
         R. LUERS               Mail Theft &                   Division                    Leadership Dev.        J. SKIDMORE              R. BOWDREN
                                Violent Crimes               K. BOND                         S. CLARK           No. Jersey/Caribbean -         No. Ca -           Inspector in Charge
           INC                A. CLEMMONS                                                                                                                           Congressional &
                                                                                                                    K. BURKE                  A. KIEL
     Computer Crimes &                                          INC                                                                                                  Public Affairs
        Commerce                    INC                                                                              Northeast -             No. Illinois -        D. MIHALKO
                                                             Finance &
         J. EASLEY             Revenue & Asset                                                                       K. JONES                 I. GILLIS
                                                            Adm. Services
                               Protection Prog.                                                                  Philadelphia Metro -         Northwest -
                                                           M. MUNLEY
              INC             S. SCHMERBECK                                                                      B. CHAMBERS               R. MORGAN
     International Security
                                                                                                                     Southeast -           Rocky Mountain -
          D. HILL                    INC
                               Forensic & Tech.                                                                      I. CARLE                M. COBOS
                                   Services                                                                      Washington Metro -             So. Ca -
            INC
           Security
                                 R. GEFFEN                                                                          J. ROWAN               J. FREEMAN
       T. DENNENY                                                                                                  W. Allegheny -             Southwest -
                                                                                                                     J. BIRCH               A. HOLMES




   AIC - Assistant Inspector in Charge
   INC - Inspector in Charge
   ISOSG - Inspection Service Operations Support Group




                                    PAGE 40            ORGANIZATIONAL STRUCTURE
Customer Service




 OFFICE OF INSPECTOR GENERAL
      External Communications
      Internal Communications
      Specialized Services

 INSPECTION SERVICE
      External Communications
      Specialized Services




                                PAGE 41
                                           This section describes the OIG and                   Service needs better controls to strengthen its
                                           Inspection Service’s efforts to provide              performance and improve efficiency, whether or
                                           Customer Service, including initiatives by           not postal reform occurs. The testimony also
                                           support functions to enhance service to              applauded efforts the Postal Service has made to
                                           internal customers. Customer satisfaction            continue its role as a world leader in the deliv-
                                           and service is the underlying creed of               ery of communications and logistics services.
                                           most successful organizations and busi-              RESPONDING TO REQUESTS
                                           nesses. In order to differentiate work               FROM CONGRESS AND THE
                                           reported by the OIG and the Inspection               POSTAL SERVICE GOVERNORS
                                           Service, pages concerning the Inspection                  One of the OIG’s highest priorities is to
                                           Service have been color screened.                    provide accurate and timely responses to
                                                                                                Congress and the Postal Service Governors.
                                                                                                The OIG responds to many of these requests by
                                          OFFICE OF INSPECTOR                                   conducting audits and investigations. However,
                                          GENERAL                                               the OIG does not normally perform an audit or
                                                                                                investigation when the allegation involves an
                                          EXTERNAL COMMUNICATIONS                               individual employee issue that can be resolved
                                                                                                through contractual grievance-arbitration pro-


                                          T
                                                   he OIG is responsible for keeping mem-
                                                                                                cedures or the Equal Employment Opportunity
                                                   bers of Congress and the Governors
                                                                                                process. Instead, the OIG incorporates individ-
                                                   fully and currently informed. The OIG
                                                                                                ual concerns into a database to identify systemic
                                          keeps Congress informed by issuing Semiannual
                                                                                                issues for review. When systemic issues have
                                          Reports to Congress, testifying at oversight and
                                                                                                been identified, the OIG conducts independent
                                          other hearings, and briefing members and their
                                                                                                audits or investigations of Postal Service pro-
                                          staffs on issues related to the Postal Service. The
                                                                                                grams and operations to help ensure their econ-
                                          OIG keeps the Governors informed through
                                                                                                omy, efficiency, effectiveness, and integrity.
                                          regular briefings at monthly Board meetings, a
                                                                                                     During this 6 month reporting period, the
                                          monthly activity report from the Inspector
                                                                                                OIG completed 103 Congressional inquiries.
                                          General, and responses to requests for informa-
                                                                                                Appendix G of this report lists the OIG
                                          tion. The OIG also regularly provides Congress
                                                                                                responses to these inquiries by subject area. A
                                          and the Governors with copies of audit and
                                                                                                few examples of OIG work in response to
                                          management advisory reports.
                                                                                                Congressional requests are highlighted below:
                                          CONGRESSIONAL TESTIMONY                               ◆   A review of allegations that a hostile
The Inspector General submitted written        Each year, the OIG has testified before              work environment existed at a Virginia
testimony to Congress on April 4, 2001.   Congress on various matters. During this period,          post office confirmed that it was poten-
                                          the OIG provided one written statement for the            tially volatile because of harassment and
                                          record.                                                   intimidation by the postmaster. As a
                                                                                                    result of the review, the postmaster was
                                          OIG Submits Written Testimony to                          reassigned to another facility and perfor-
                                          House Committee on Government                             mance and conduct were monitored at
                                          Reform                                                    the new assignment. We verified with
                                               On April 4, 2001, the Inspector General              Postal Service management, district man-
                                          provided a written statement to the House                 agement, and union officials that the
                                          Committee on Government Reform. The                       work environment improved as a result
                                          Inspector General highlighted opportunities to            of the actions taken.
                                          improve critical management and financial             ◆   An allegation that the Postal Service was
                                          practices of the Postal Service, including con-           not properly conducting the site selection
                                          tracting, budget, return on investment, labor             process for a new Postal Service facility
                                          management, systems development, computer                 prompted us to perform a review which
                                          security and privacy, and strategic planning.             found that the process was fundamentally
                                          The Inspector General stated that the Postal              sound and followed Postal Service guide-


                               PAGE 42    CUSTOMER SERVICE
    lines. Although we identified minor                  The OIG Hotline is staffed from 7 a.m. to
    errors in some of the solicitation notices,     7 p.m., Eastern Standard Time, Monday
    the errors were not material and did not        through Friday (except federal holidays). Calls
    adversely affect the site selection process.    can be made 24 hours a day, 7 days a week.
    In addition, we found no indication that        Threats and any other potentially violent work
    these errors occurred as a result of inap-      situations are routed immediately to the Postal
    propriate or unethical behavior by Postal       Police Control Center for action 24 hours a day,
    Service personnel.
                                                    either by an OIG Hotline analyst or through a
                                                    caller-directed menu system. Anyone interested
OIG HOTLINE PROVIDES A VITAL
                                                    in contacting the Hotline can call toll-free,
AND CONFIDENTIAL
COMMUNICATIONS LINK                                 1-888-USPS-OIG (1-888-877-7644); write to
                                                    the United States Postal Service, OIG, ATTN:
     The OIG Hotline provides a vital and con-
                                                    Hotline, 1735 North Lynn Street, Arlington,
fidential communications link between the
                                                    VA 22209-2020; e-mail the OIG at
OIG and individuals who contact the Hotline
                                                    hotline@uspsoig.gov; or fax information toll-
to report allegations of fraud, waste, abuse, and
                                                    free to (866) 756-6741.
mismanagement.

Responding to Hotline Inquiries                     PROPOSED LEGISLATION AND
                                                    REGULATIONS
     The Hotline receives complaints from
                                                         As required by the Inspector General Act,
Postal Service employees, customers, and the
                                                    the OIG monitors existing and proposed legis-
general public concerning alleged violations of
                                                    lation and regulations to advise Congress and
laws, rules, or regulations; mismanagement;
                                                    the Governors of their impact on Postal Service
waste of funds; abuse of authority; or danger to
                                                    programs and operations. During the 6 month
public health and safety. Complaints and allega-
                                                    reporting period, the OIG evaluated 43 legisla-     OIG Reports with white covers (above)
tions received by the Hotline are analyzed to
                                                    tive proposals and 36 regulatory initiatives.       contain restricted information.
identify systemic issues affecting the Postal
                                                    Highlights of the legislative and regulatory pro-
Service, and referred for appropriate action.
                                                    posals are included at the end of the appropriate
The OIG considers all Hotline contacts when
                                                    section that describes the OIG and Inspection
planning audits and reviews.
                                                    Service reviews performed in the last six
     During this reporting period, the Hotline
                                                    months.
received nearly 11,000 contacts, some of which
were addressed by the OIG on such issues as         FREEDOM OF INFORMATION
waste, fraud, abuse, mismanagement, deficient       AND SUBPOENA REQUESTS
postal operations, personnel matters, and other          The OIG releases all final audit and man-
concerns. In addition:                              agement advisory reports when requested pur-
◆   Twenty-six percent were addressed by the        suant to the Freedom of Information Act, 5
    Inspection Service and involved criminal        U.S.C. 552, unless the law prohibits disclosure.
    issues such as mail theft, assaults and         In addition, the Electronic Freedom of
    threats, and workers compensation fraud;        Information Act amendments, Public Law No.
◆   Seventeen percent were addressed by the         104-231, require federal agencies to make cer-
    Office of Consumer Advocate involving           tain records accessible electronically. The OIG
    complaints related to customer service          established its Internet reading room in order to
    issues, particularly mail delivery;             make certain information available to the pub-
                                                    lic without requiring a Freedom of Information
◆   Forty-five percent were related to miscel-                                                          OIG Reports with blue covers (above) are
    laneous requests for information such as        Act request.
                                                                                                        available to the public.
    ZIP Codes, postage meters, and other                 Each request is reviewed on a case-by-case
    Postal Service related matters; and             basis in accordance with the Freedom of
                                                    Information Act, the Privacy Act, and the
◆   Eight percent were related to operational
                                                    Postal Reorganization Act. The OIG may coor-
    and human resource issues that were
                                                    dinate its review and response with Postal
    referred to Postal Service management.
                                                    Service management and the Law Department



                                                                                                         PAGE 43
                                    when it deems appropriate. In deciding what         tion in the Federal Register. The Postal Service
                                    information to release, the OIG balances the        receives requests from other government agen-
                                    public’s right to access federal agency records     cies for Postal Service data that are used in com-
        DID YOU                     with the government’s need to safeguard certain
                                    protected information, such as those affecting
                                                                                        puter matching programs for a variety of
                                                                                        purposes, including statistical studies and law
        KNOW?                       business needs and employee privacy. As a           enforcement activities. Pursuant to the Privacy
                                    result, requested information may be deleted to     Act, the Postal Service Data Integrity Board
                                    protect proprietary or confidential information,    reviews requests for information needed to per-
How does the OIG promote            or withheld in its entirety.                        form computer matches. The Inspector General
                                         The OIG received sixty-eight Freedom of        is a member of the Data Integrity Board, along
open communication through-         Information Act requests which were handled         with the Postal Service Vice President,
out the organization?               as follows:                                         Employee Resources Management; Vice
In addition to e-mail and voice                                                         President, General Counsel; Chief Financial
                                    ◆   11 were answered in full, 12 were
                                                                                        Officer and Executive Vice President, Finance;
mail, the OIG uses videotelecon-        answered stating no OIG documents
                                        existed, 12 were withheld totally,              and the Chief Postal Inspector.
ferencing, all-hands meetings,
                                        23 were partially withheld, 1 was                     During this 6 month period, the Inspector
teambuilding, and field office                                                          General, as a member of the Data Integrity
                                        withdrawn, and 9 were referred outside
visits to foster communication          the OIG. Nine of the 68 requests were           Board, reviewed and approved one request for
throughout the organization.            appealed. Of the nine appeals, seven            computer matching data from the Postal
                                        were upheld by the Postal Service, one          Service. The Alaska Department of Labor and
                                        was partially upheld, and one appeal was        Workforce Development requested information
                                        withdrawn. To date the OIG has no               from the Postal Service in order to identify
                                        appeals pending.                                postal employees who are former students of the
                                         In addition, the Inspector General is          state of Alaska’s education system and to deter-
                                    authorized under the Inspector General Act to       mine whether their postal job duties related to
                                    issue subpoenas for audits and investigations,      the funded education they received. The match
                                    and in support of selected investigations for the   will be used to generate statistics, determine
                                    Inspection Service. In the last 6 months:           program effectiveness, and identify potential
                                                                                        improvements.
                                    ◆   The OIG issued 184 subpoenas; 141 sup-
                                        porting Inspection Service investigations       SPECIALIZED SERVICES
                                        and 43 supporting OIG investigations.
                                                                                        COMPUTER FORENSICS
                                     INTERNAL COMMUNICATIONS                                  The OIG’s Computer Forensics Team is
                                         In addition to responding to official          staffed by specialists trained and certified in
                                    requests by Congress and the Governors for          computer seizures and the recovery of electronic
                                    information, the OIG responds to Postal             evidence. The team’s mission is to provide tech-
                                    Service management and other agency requests.       nical support to extract data to help identify
                                                                                        individuals who use computers for criminal pur-
                                    MONITORING COMPUTER                                 poses, generally in one of three ways. First, a
                                    MATCHING REQUESTS FOR
                                                                                        computer may be the target of the offense where
                                    POSTAL INFORMATION
                                                                                        the criminal’s goal is to steal information or
                                         Under the Privacy Act, a computer match-
                                                                                        cause damage to a computer. Second, the com-
                                    ing program is defined as any computerized
                                                                                        puter may be a tool of the offense. This occurs
                                    comparison between the automated federal sys-
                                                                                        when an individual uses a computer to facilitate
                                    tem of records of a federal agency with the auto-
                                                                                        some traditional offense, such as fraud. Third,
                                    mated records of another federal, state, or local
                                                                                        computers are sometimes incidental to the
                                    agency. Information contained in a system of
                                                                                        offense but significant to law enforcement
                                    records may be disclosed to a recipient agency
                                                                                        because they contain evidence of a crime.
                                    for use in a computer matching program pur-
                                    suant to a written agreement between the
                                    source and recipient agencies, and after publica-



                          PAGE 44   CUSTOMER SERVICE
   During this reporting            period,    the
Computer Forensics Team:
◆    Examined data seized in a variety of cases
     involving postal employee misconduct,
     intrusion into postal computer systems,
     and contract frauds.
◆    Seized and examined a subject’s com-
     puter, uncovering evidence that led to
     the individual’s conviction for vandaliz-
     ing the OIG website of numerous other
     federal and state government agencies.
◆    Assisted the Treasury Department and
     State Department Inspectors General
     with the seizure and examination of
     computer evidence.

POLYGRAPH SERVICES
    The OIG polygraph program aids criminal
investigators and is an effective tool to assist in
proving guilt as well as innocence. OIG poly-
graph examiners represent the OIG within the
polygraph community and on the Federal
Polygraph Executive Committee.

COMPUTER ASSISTED
ASSESSMENT TECHNIQUES
     The OIG’s Computer Assisted Assessment
Techniques team uses automated methods and
tools to extract and analyze electronic data
located in over 900 postal systems in support of
OIG audit and investigative efforts. This team
has supported several significant OIG efforts
during this reporting period, including:
◆    Conducting data retrieval analyses of
     Postal Service databases to identify con-
     tract irregularities that may indicate cor-
     ruption. As a result, two companies
     admitted to paying bribes in exchange
     for postal contracts and scheming to
     delay the issuance of the solicitation to
     ensure they received the contract award.
◆    Gathering data from three purchasing
     systems and the Highway Payment
     System in support of a benchmarking
     study of supplier diversity.




                                                      PAGE 45
                                          INSPECTION SERVICE                                  CONSUMER PROTECTION
                                                                                                   In an effort to maintain the integrity of the
                                               The Inspection Service has adopted
                                                                                              mail and to ensure the confidence and trust that
                                          numerous initiatives to improve customer ser-
                                                                                              government agencies, businesses, and customers
                                          vice. The Inspection Service alerts consumers
                                                                                              place in the Postal Service, the Inspection
                                          and businesses to current crimes by attracting
                                                                                              Service conducts mail fraud investigations that
                                          media attention to postal crime trends, publiciz-
                                                                                              focus on a variety of schemes. Because of their
                                          ing positive law enforcement accomplishments,
                                                                                              complexity and far-reaching implications, mail
                                          circulating media releases, and hosting crime
                                                                                              fraud investigations are often conducted jointly
                                          prevention presentations.
                                                                                              with other federal and local law enforcement
                                           EXTERNAL COMMUNICATIONS                            agencies to take advantage of the expertise of
                                               The Inspection Service is responsible for      each agency and to maximize resources. Postal
                                          communicating its law enforcement and crime         Inspectors also work with other law enforce-
                                          prevention achievements to the American pub-        ment agencies and consumer groups in preven-
                                          lic, Congress, the Postal Service, and the law      tion efforts to raise awareness of fraud.
                                          enforcement community.
                                                                                              ANNUAL REPORT OF
                                          PROVIDING CONGRESSIONAL                             INVESTIGATIONS
                                          LIASION                                                  The 2000 Annual Report of Investigations
                                               The Inspection Service provided members        of the Inspection Service was released in
                                          of Congress with the following information          November 2000. The accomplishments
                                          relating to Postal Service and Inspection           described in the report are intended to inform
                                          Service issues:                                     the Governors, the Postmaster General, Postal
                                                                                              Service managers, and employees about
                                          ◆   An introductory package, including a
                                                                                              Inspection Service activities and give greater
                                              new brochure entitled Congressional
                                                                                              insight into the value and benefits provided by
Congressional Guide to Postal Crimes          Guide to Postal Crimes, was completed
                                              and delivered to all members of the             the Inspection Service.
                                              107th Congress.                                 SPECIALIZED SERVICES
                                          ◆   To further educate Congress and the
                                              American public on current mail related         FORENSIC SERVICES
                                              crime, an updated brochure, Sweepstakes               Inspection Service forensic analysts pro-
                                              Advertising: A Consumer’s Guide, was            vide expert examinations and testimony on evi-
                                              distributed to Congressional offices.           dence submitted by Postal Inspectors for
                                              Published in cooperation with the Direct        document, fingerprint, chemical, and physical
                                              Marketing Association, the brochure             evidence analyses. Laboratory personnel are
                                              helps consumers distinguish between             available to respond to the most critical crimi-
                                              legitimate sweepstakes offers and fraudu-       nal investigations of violent crimes to assist in
                                              lent promotions.                                processing and evaluating evidence. During this
                                          ◆   In February, members of the Senate              reporting period, over 780 sets of fingerprints
                                              Subcommittee on International Security,         were searched on Automated Fingerprint
                                              Proliferation and Federal Services were         Identification System searches yielding 34 iden-
                                              briefed about the Inspection Service’s          tifications.
                                              enforcement of the Deceptive Mail
                                              Prevention and Enforcement Act. Also            TECHNICAL SERVICES
                                              in February, a briefing was held with                 Technical services personnel assist and sup-
                                              staffers of the Senate Permanent                port field division staff in the acquisition and
                                              Subcommittee on Investigations regard-          use of various sophisticated equipment and ser-
Sweepstakes Advertising: A Consumer’s
                                              ing cross border lotteries and gold card        vices to make their job easier and safer. The unit
Guide                                         merchandising schemes.                          utilizes Postal Inspectors, security technicians,
                                                                                              and communications specialists to meet pro-
                                                                                              gram objectives. Programs include radio and



                                PAGE 46   CUSTOMER SERVICE
electronic surveillance and mail screening. Two          admitted that the injury occurred in a
examples of technical services support follow:           nonwork-related incident. As a result of
                                                         the admission, the Department of Labor
◆   The technical services unit has been
                                                         denied the claim for worker’s compensa-
    instrumental in assisting the revenue
                                                         tion. This resulted in savings of over
    asset protection program division in iden-
                                                         $41,000 to the Postal Service.
    tifying, evaluating, procuring, deploying,
    installing, and providing training in the
                                                     DIGITAL EVIDENCE RECOVERY
    use of special equipment needed by field
    inspectors to conduct difficult embezzle-             Inspection Service personnel also preserve,
    ment investigations. In three unrelated          access, retrieve, and recover evidence stored on
    cases in two field divisions, the new            computers, and conduct forensic examinations
    equipment was used to assist in the iden-        of audio and video media. This reporting period,
    tification of three postal employees for         the Inspection Service received 431 new
    embezzlement of Postal Service assets            requests and completed 275 requests. An exam-
    totaling over $123,000.                          ple of the use of digital evidence follows:
◆   Portable X-ray equipment training was            ◆   Forensic analysis of a notebook computer
    provided to 33 Postal Inspectors and 18              identified several documents and data-
    new portable X-ray units were deployed               bases relevant to a financial investments
    to the field in support of our mail screen-          mail fraud case that promised customers a
    ing and prohibited mail investigations.              70 percent per month return on invest-
    The technical service unit also con-                 ments. Following a 6 week trial in a fed-
    ducted a survey of the 2002 Olympic                  eral district court, a jury convicted the
    games venue to identify security, mail               defendants on all counts.
    screening, and communication issues.

POLYGRAPH SERVICES
     Polygraph examinations continue to be
excellent aids in criminal investigations and
have proven to be very effective in resolving
cases involving employee assaults, registered
and other mail thefts, allegations of assault, and
misappropriation of postal funds or property.
◆   In December 2000, a Texas bank sent
    several registered bags to two other banks
    located in Texas. A transfer point
    reported one of the bank bags missing,
                                                                                                        The Inspection Service 2000 Annual
    which contained $25,000 in cash.                                                                    Report of Investigations summarizes
    Polygraph assistance was requested. In                                                              its achievements and investigative
    January 2001, during the pretest inter-                                                             accomplishments.
    view, a postal clerk admitted taking the
    registered bank bag containing the cash.
    During the interview process, the
    employee retrieved $24,500, was termi-
    nated, and has been indicted on federal
    mail theft charges.
◆   A postal clerk submitted a claim for
    allegedly being injured while on duty at a
    postal station in Texas. A review of a
    video tape revealed that the employee
    had not lifted any parcels on the day the
    claimed injury occurred. A polygraph test
    was administered and the employee



                                                                                                          PAGE 47
PAGE 48
Performance Reviews




 OFFICE OF INSPECTOR GENERAL
      Accepting and Processing Reviews
      Transportation Reviews
      Delivery Reviews
      Marketing Reviews
      Legislative and Regulatory Reviews

 INSPECTION SERVICE
      Mail Theft Investigations
      Service Investigations




                                           PAGE 49
                                            This section highlights audits, reviews, and         months, the OIG issued two reports in the
                                            investigations performed by the OIG and              accepting and processing area, which are
                                            the Inspection Service in the Performance            discussed below:
                                            area. Report numbers are shown in paren-             DELAYS IN CERTIFIED MAIL
                                            theses after the narrative, as appropriate.          DELIVERY IDENTIFIED
                                            Also, the OIG legislative and regulatory
                                                                                                      At the request of a Congressional subcom-
                                            reviews are included at the end of this sec-
                                                                                                 mittee chairman, the OIG reviewed allegations
                                            tion. In order to differentiate the work
                                                                                                 of delayed certified tax mailings reported by the
                                            reported by the OIG and Inspection Ser-
                                                                                                 media. The audit confirmed that mail was
                                            vice, the pages containing the work report-
                                                                                                 delayed in four of the five reported locations.
                                            ed by the Inspection Service have been
                                                                                                 The delays, ranging from 2 to 38 days, were pri-
                                            color screened.
                                                                                                 marily due to a lack of planning and supervision.
                                                                                                 Additionally, one postal facility processed 1,417
                                                                                                 pieces of certified mail, but the courier only
                                            OFFICE OF INSPECTOR                                  picked up 294 pieces. Of the 1,123 remaining
                                            GENERAL                                              pieces, 1,003 were not picked up for approxi-
                                                                                                 mately three weeks. The Postal Service could

                                            T
                                                     o deliver world-class service, businesses
                                                     and government agencies must excel in       not account for the remaining 120 pieces.
The OIG evaluates operations that utilize
                                                     performing their core business processes.        The OIG also identified that in some loca-
automation such as the advanced facer/
canceler, which faces, cancels, and         For the Postal Service, these core business          tions, delays were caused by manual processing
sorts incoming letter-size mail for         processes and systems encompass accepting,           and inaccurate reporting. The OIG recom-
further automated processing.               processing, transporting, and delivering the mail    mended and Postal Service management agreed
                                            as well as marketing postal products and services    to establish standard procedures for processing,
                                            worldwide. During the past six months, the OIG       measuring, and reporting certified mail.
                                            has completed 27 reviews of key and emerging         Management also agreed to develop methods to
                                            issues relating to the Postal Service’s perfor-      leverage existing mail processing technology
                                            mance of core business processes. OIG reviews        and establish plans to handle seasonal increases
                                            and investigations identified opportunities to       in certified mail processing.
                                            save about $40.5 million during current and          (OIG AC-AR-01-001)
                                            future years.
                                                                                                 MAIL CONTAINERS IMPROPERLY
                                            ACCEPTING AND PROCESSING                             LABELED
                                            REVIEWS                                                   In response to complaints to the OIG
                                                 On average, over 660 million pieces of mail     Hotline, the OIG conducted a review of alleged
                                            are accepted each day by the Postal Service in a     mail processing delays at a Mid-Atlantic Area
                                            variety of ways, including collections from more     post office. The OIG found no evidence of
                                            than 300,000 blue collection boxes as well as        delays; however, mail containers were improp-
                                            residential and business collection mailboxes.       erly labeled and mail was arriving late from a
                                            Express Mail, First-Class Mail, and some Priority    processing and distribution facility. The review
                                            Mail and periodicals are sorted at more than 470     also identified two contracted delivery trailers
                                            processing and distribution plants, while            that did not comply with safety standards. The
                                            Standard Mail is generally handled at the 21         OIG suggested and Postal Service management
                                            bulk mail centers. In order to ensure timely and     agreed to repair or remove unsafe trailers from
                                            accurate delivery of mail, accepting and process-    service and to determine the feasibility of reas-
                                            ing equipment must be state-of-the-art.              signing responsibility for the post office’s mail to
                                            Situations that result in delayed mail processing    a processing and distribution facility that was 57
                                            must be vigorously evaluated and the underlying      miles closer to the existing facility.
                                            causes must be promptly resolved. The Postal         (OIG AC-MA-01-001)
                                            Service continues to explore ways to enhance         TRANSPORTATION REVIEWS
                                            the acceptance and processing of mail through
                                                                                                     Transportation of mail is a vital part of the
                                            innovative automation. During the past six
                                                                                                 Postal Service’s mission of binding the nation


                                 PAGE 50    PERFORMANCE REVIEWS
together by providing prompt, reliable, effi-         safety standards and identify opportunities for
cient, and universal mail delivery. To fulfill this   cost savings. The audit projected that more
mission, the Postal Service spends in excess of       than 25 percent of the leased trailers did not
$4.7 billion annually for air, highway, rail, and     meet standards because the Postal Service did
water transportation contracts. For example, in       not have adequate procedures to verify contrac-
January 2001, the Postal Service contracted           tor compliance with preventive maintenance
with Federal Express to transport Express,            and safety requirements. Specifically, the OIG
Priority, and First-Class mail. This contract is      found bald tires, damaged or missing lights,
expected to provide more reliable service,            reflectors, mud flaps, doors, load restraint sys-
reduce costs, and manage future cost growth.          tems, and bumpers. The OIG also found that
Contractors provide most transportation; how-         the Postal Service could not account for $5 mil-
ever, the Postal Service operates its own fleet of    lion in leased trailer inventory and did not
trucks for some highway routes. During the past       always secure and protect trailers.
six months, the OIG completed three trans-                  In addition, the OIG identified that the
portation related audits and a number of inves-       Postal Service paid trailer damage claims to
tigations, some of which are highlighted below:       contractors without determining fault or verify-
                                                      ing the cost of the repairs, and trailers leased for
OIG INVESTIGATION LEADS
                                                      transportation were being used for storage. As a
TO COST AVOIDANCE OF
$23 MILLION                                           result, the OIG projected that the Postal
                                                      Service could reduce costs by more than $17.5
     An OIG investigation revealed that a
                                                      million over a 5-year period by properly admin-
Postal Service manager developed a question-
                                                      istering damage claims on leased trailers, and
able relationship with a contractor and pro-
                                                      improving controls over trailer use. The OIG
vided favorable treatment during the Postal
                                                      recommended and Postal Service management
Service’s testing and assessment of a transporta-
                                                      agreed to include requirements regarding safety,
tion contract. As a result, the Postal Service
                                                      maintenance, and liability insurance in con-
decided not to proceed with the $23.5 million
                                                      tracts; establish procedures to account for trailer
expenditure for the system as initially proposed
                                                      inventory; secure and protect trailers; and
to the Board of Governors.
                                                      update policies governing damage claims.
     The product ultimately experienced cata-                                                                The OIG found trailers in substandard
                                                      (OIG TR-AR-01-002)
strophic failures on critical safety testing mea-                                                            condition and some used improperly for
sures, a fact that the manager did not fully          LEASED TRAILER SAFETY                                  storage.
disclose to senior Postal Service management.         DEFICIENCIES FOUND
The OIG was able to prove that during the time              The OIG conducted a review of the New
the manager was providing favorable treatment         York Metro Area’s leased trailer fleet involving
to the contractor, he was receiving gratuities        six locally negotiated contracts for over 2,400
from the contractor. The manager was given a          trailers. The OIG’s review was intended to
notice of proposed removal; however, prior to         determine compliance with safety standards
removal, the manager resigned. In addition, this      and identify opportunities for cost savings. The
program was drastically scaled back. The cur-         OIG observed trailers that appeared in substan-
rent proposal is to purchase significantly fewer      dard condition and which reflected poorly on
units from a different contractor at a cost of only   the Postal Service. The OIG brought the sub-
$500,000, resulting in a cost avoidance of $23        standard condition of the trailers to the atten-
million.                                              tion of Postal Service management who
                                                      conducted an inspection of 1,300 trailers and
AUDIT OF SAFETY AND SECURITY
OF LEASED TRAILER FLEET                               identified 239 that were unsafe, required repair,
IDENTIFIES POTENTIAL COST                             or needed to be completely refurbished. In addi-
REDUCTION OF $17.5 MILLION                            tion, management performed a survey of trailer
      The OIG conducted a nationwide audit of         usage and identified over 1,000 trailers, or more
the Postal Service’s leased fleet of about 8,700      than 41 percent of the trailers leased for trans-
trailers to determine compliance with federal         portation, were being used for equipment stor-
                                                      age. As a result, the Postal Service paid for


                                                                                                               PAGE 51
                                        trailers that were not needed. The OIG sug-          DELIVERY REVIEWS
                                        gested and Postal Service management agreed
                                                                                                  Universal service—delivering mail to
                                        to require contractors to meet provisions regard-
                                                                                             everyone, everywhere in America, at uniform
                                        ing trailer safety, maintenance, and appearance;
                                                                                             rates—is the cornerstone of the Postal Service’s
                                        to evaluate equipment and storage requirements
                                                                                             mission. To fulfill this mission, the Postal
                                        in the New York Metro Area; and to prohibit
                                                                                             Service developed a delivery network of over
                                        storing equipment in trailers leased for trans-
                                                                                             235,000 mail routes that are serviced by nearly
                                        portation. (OIG TR-MA-01-001)
                                                                                             300,000 letter carriers and 200,000 delivery
                                        POSTAL SERVICE MANAGER                               vehicles. During FY 2000, the Postal Service
                                        ACCEPTS GRATUITIES - OIG                             delivered almost 208 billion pieces of mail to
                                        RECOUPS COST OF                                      136 million homes and businesses—a yearly
                                        INVESTIGATION                                        average of 1,500 pieces of mail for every house-
                                             The OIG investigated allegations that a         hold and business in America. During the last
                                        Postal Service manager accepted gratuities and       six months, the OIG issued the following report:
                                        provided favorable treatment to a subcontractor
                                                                                             IMPROVEMENTS NEEDED IN
                                        regarding the procurement of transportation
                                                                                             THE DELIVERY CONFIRMATION
                                        equipment. Postal Service management issued a
                                                                                             PROGRAM
                                        termination letter to the manager. In lieu of
                                                                                                   In response to complaints to the OIG
                                        debarment, the subcontractor agreed to repay
                                                                                             Hotline regarding improper scanning of mail
                                        the Postal Service over $125,000 as reimburse-
                                                                                             delivery times, the OIG conducted an audit of
                                        ment for the cost of the OIG’s investigation. In
                                                                                             the Postal Service’s delivery confirmation pro-
                                        addition, the subcontractor has agreed to adhere
                                                                                             gram at five locations. The review substantiated
                                        to a set of ethical standards, receive ethical
                                                                                             that improper scanning of mail occurred and
                                        training, and make its internal records available
                                                                                             that computer connection problems at one
                                        for OIG inspection. The subcontractor has also
                                                                                             facility resulted in the inaccurate reporting of
The OIG audits delivery processes and   agreed to repay the Postal Service for the cost of
                                                                                             delivery information to customers. For example,
operations which utilize nearly         reviewing their internal records.
300,000 letter carriers. Pictured                                                            the OIG identified that two of the five facility
above are a city letter carrier in      LACK OF CONTROLS ON MAIL                             managers instructed employees to scan mail as
1890 and present day.                   TRANSPORT EQUIPMENT                                  delivered or attempted delivery, before actual
                                        SERVICE CENTER NETWORK                               delivery was attempted. As a result, Postal
                                              Based on a request from a Governor, the        Service customers were not provided with accu-
                                        OIG assessed the internal controls over the          rate delivery status information and facility
                                        Mail Transport Equipment Service Center              scanning scores were inflated. The OIG recom-
                                        Network. This network, consisting of 22 con-         mended and Postal Service management agreed
                                        tractor operated centers, supplies Postal Service    to monitor procedures to detect and prevent
                                        facilities and customers with mailbags, trays,       improper scanning, and determine if improper
                                        sleeves, pallets, hampers, and rolling containers    scanning was occurring at other facilities.
                                        to move the mail. The audit found equipment          However, Postal Service management did not
                                        processing was improperly invoiced, repairs          fully agree that connectivity tests should be per-
                                        were incorrectly reported, and serviceable           formed because of recent software modifica-
                                        equipment was inappropriately condemned and          tions. (OIG DE-AR-01-001)
                                        discarded. The OIG recommended and Postal
                                                                                             MARKETING REVIEWS
                                        Service management agreed to segregate net-
                                        work oversight from service center operations;            The Postal Service operates in a competi-
                                        have qualified staff test and verify the service-    tive environment. The Postal Service’s ability
                                        ability of equipment before it is discarded; and     to maintain or increase its market share is essen-
                                        require documentation for container repair and       tial to provide universal service at affordable
                                        service histories. Management also agreed to         rates. Therefore, the Postal Service designs its
                                        fully staff the quality assurance function.          products and features to build customer aware-
                                        (OIG TR-AR-01-001)                                   ness and loyalty. The Postal Service also wants
                                                                                             to ensure that its services are available at places


                              PAGE 52   PERFORMANCE REVIEWS
where customers choose to do business. During       PROPOSED LEGISLATION
this reporting period, the OIG completed one
review of marketing operations, which is high-      H.R. 76 - George Thomas ‘Mickey’
lighted below:                                      Leland Hunger Relief Stamp Act

INABILITY TO MEET                                   H.R.116 - Book Stamp Act
                                                                                                                   DID YOU
REQUIREMENTS OF AN                                       Both bills require the Postal Service to                  KNOW?
eCOMMERCE MAILER MAY LEAD                           establish a semipostal stamp with a special rate
TO ANNUAL REVENUE LOSS OF                           of postage no higher than 125 percent of the
$25-40 MILLION                                      current First-Class rate to promote certain          During Fiscal Year 2000, the
     The OIG determined whether the Postal          causes. Postal Service patrons who desire to sup-    Postal Service delivered over
Service had the flexibility to compete in the       port the cause depicted on the stamp pay the         208 billion pieces of mail to
eCommerce parcel delivery market by conduct-        higher rate to purchase the stamp. The George
                                                                                                         136 million homes and
ing an audit of one of its largest eCommerce        Thomas ‘Mickey’ Leland Hunger Relief Stamp
mailers. The audit found that, although the                                                              businesses.
                                                    bill would fund emergency food relief programs
Postal Service met the basic requirements of the    in the United States; the Book Stamp bill
mailer, regulatory constraints prevented Postal     would fund child literacy programs. The organi-
Service officials from quickly meeting the          zations would receive revenues in excess of the
mailer’s requests for discount rates and deferred   First-Class rate, less any reasonable costs
payments. As a result, the mailer signed a three-   incurred by the Postal Service for printing, sell-
year agreement with a Postal Service competi-       ing, and distributing the stamps.
tor. Postal Service officials estimate they may          Last year, Congress enacted the Semipostal
lose $25–40 million annually in future revenue.     Authorization Act, authorizing the Postal
(OIG MK-AR-01-001)                                  Service to issue and sell semipostals to promote
                                                    causes the Postal Service considers to be in the
LEGISLATIVE AND REGULATORY
REVIEWS                                             national public interest. H.R. 76 and H.R. 116,
                                                    if enacted, would require the Postal Service to
     During this reporting period, the OIG
                                                    issue particular semipostal stamps authorized by
identified the following legislation and regula-
                                                    Congress outside of the Postal Service’s estab-
tion affecting Postal Service performance.
                                                    lished review and selection process set forth in
ENACTED LEGISLATION                                 the Semipostal Authorization Act.
                                                         The OIG previously audited the Breast
Public Law 106-384 - Nonprofit Relief               Cancer Research Semipostal Stamp program,
Act of 2000                                         the first semipostal initiative. The audit raised
     This legislation modified rates on nonprofit   concerns about the Postal Service’s ability to
mailings. In January 2000, the Postal Service       account for its costs in producing and marketing
Board of Governors proposed postage rate            semipostal stamps. The Postal Service needs
increases for all classes of mail. Under the        adequate controls in this area to keep track of
ratemaking schedule in effect at that time, some    costs associated with the production and mar-
nonprofit rates would have been higher than         keting of the semipostal stamp.
corresponding commercial rates. In October
2000, Congress passed legislation proposed by       S.122 - Armed Services Voting Rights
the Postal Service and nonprofit mailers to cor-    Protection Act of 2001
rect this anomaly. As a result, the Postal Rate          This bill prohibits a state from determining
Commission was able to employ the new rate          that a ballot submitted by an absent uniformed
formula for nonprofit mailers to ensure that        services voter was improperly or fraudulently
nonprofit rates are lower than corresponding        cast unless that state finds clear and convincing
rates.                                              evidence of fraud. It requires the Postal Service
     This legislation was a corrective measure      to conduct joint studies with each branch of the
that addressed a rare and specific situation. It    armed services to examine why state election
has minimal impact on Postal Service opera-         officials threw out many overseas military bal-
tions.                                              lots cast in the 2000 election.



                                                                                                         PAGE 53
               The Postal Service would be expected to
          cooperate fully with the armed services in this
          effort. However, because the armed services are
          responsible for military mail and its postmark-
          ing, it would be appropriate for the armed ser-
          vices to provide the majority of resources to
          support this effort.

          PROPOSED REGULATION
          Semipostal Stamp Program, Proposed
          Rule, Postal Service, Federal Register,
          February 15, 2001
               This proposed rule creates implementing
          regulations for the Semipostal Authorization
          Act, enacted July 28, 2000. The Act authorizes
          the Postal Service to determine which causes
          will be selected for semipostal stamp issues, and
          then produce and market the stamps. The regu-
          lations establish evaluation criteria and proce-
          dures for selecting causes and agencies to
          receive funds raised. Under the proposed regu-
          lations, the Postal Service must establish a base-
          line in order to determine the amount of
          reasonable costs to be recovered from the rev-
          enue in excess of the First-Class rate.
               The OIG provided written comments to
          the regulations. The OIG raised concerns that
          the proposed regulations do not require the
          Postal Service to establish a baseline of reason-
          able costs before any costs for the semipostal are
          incurred. In addition, the OIG recommended
          that the regulations be revised to clearly define
          the advertising costs recoverable from the rev-
          enue in excess of the First-Class rate.




PAGE 54   PERFORMANCE REVIEWS
                                                      OIG and Inspection Service, effective April
INSPECTION SERVICE                                    2000, the Inspection Service is responsible for
     The Inspection Service is responsible for        conducting mail theft investigations including
investigations that ensure the sanctity of the        those involving postal employees. Examples of
mail. This section describes some of its work in      case activity related to mail theft by employees              DID YOU
the areas of mail theft and service investigations.   follow:                                                       KNOW...
MAIL THEFT INVESTIGATIONS                             ◆   Postal Inspectors and local law enforce-
     Postal Inspectors are committed to reduc-            ment officers in New York conducted an
ing mail theft to maintain the public’s confi-            undercover operation that resulted in the      The Post Office Department
dence in the Postal Service and preserve the              arrest of a mail handler at a local airmail    operated the telephone and
                                                          center. This employee sold undercover
sanctity of the mail. Postal Inspectors are cur-                                                         telegraph systems of the United
                                                          agents 31 credit cards that were stolen
rently working with major mailers to prevent                                                             States from July 31, 1918, to
                                                          from the mail.
mail theft and related problems. During this                                                             July 31, 1919.
reporting period, Postal Inspectors arrested over     ◆   A Louisiana processing and distribution
390 employees and almost 3,100 non-employees              clerk was arrested for conspiracy and pos-
                                                          session of stolen mail. At the time of the
or contractors for mail theft. Mail theft targets
                                                          arrest, this employee was in possession of
include not only items of obvious value in the
                                                          120 U.S. Treasury checks totaling almost
mail, such as jewelry, computers, cash, credit
                                                          $85,000, and 124 First-Class letters con-
cards, and checks but mail containing personal
                                                          taining personal checks for credit card
and financial information.                                payments. The employee subsequently
NON-EMPLOYEE MAIL THEFT                                   pled guilty to all charges.
      Thieves frequently concentrate on targets
                                                      SERVICE INVESTIGATIONS
that offer a large volume of mail. Despite
                                                           Service investigations are conducted to
Inspection Service efforts to lessen the vulnera-
                                                      address localized service related concerns or to
bility of such targets, volume attacks continue to
                                                      verify the accuracy and timeliness of reports of
be a challenge. To date, volume attacks equal
                                                      mail processing conditions or delivery services.
2,950 compared to 2,062 for the same period last
                                                      During the reporting period, the Inspection
year. An example of case activity related to mail
                                                      Service reported completing two service investi-
theft by non-employees is highlighted below:
                                                      gations: return-to-sender mail on hand and
◆   Postal Inspectors in the Southwest Area           national mail condition review.
    arrested an individual involved in mail
    theft in New Mexico, Colorado, Nebras-
    ka, Utah, and Idaho. After searching the
    vehicle, inspectors found guns, drugs,
    credit cards, counterfeit identification
    cards, and forged birth certificates.
    Approximately $1 million in losses have
    been attributed to this individual.

EMPLOYEE MAIL THEFT
     The overwhelming majority of Postal
Service employees work conscientiously to
move the nation’s mail to its proper destination
and they take their responsibilities seriously.
Unfortunately, a small number of employees
abuse the public’s trust. It is the job of the
Inspection Service to identify these individuals
and take steps to have them prosecuted and
removed from the Postal Service. According to
the revised designation of functions between the



                                                                                                          PAGE 55
PAGE 56   PERFORMANCE REVIEWS
Financial Management
Reviews




 OFFICE OF INSPECTOR GENERAL
      Financial Opinion Audits
      Financial-Related Reviews
      Contracting and Facilities Reviews
      Legislative and Regulatory Reviews

 INSPECTION SERVICE
      Revenue Investigations




                                           PAGE 57
                                     This section highlights audits, reviews,                and the Information Technology and
                                     and investigations performed by the OIG                 Accounting Service centers located in
                                     and the Inspection Service in the financial             Eagan, Minnesota; St. Louis, Missouri;
        DID YOU                      management area. Report numbers are
                                     shown in parentheses after the narrative,
                                                                                             and San Mateo, California.
                                                                                             The OIG disclosed that management’s
        KNOW?                        as appropriate. Also, the OIG legislative               policies, accounting procedures, and
                                     and regulatory reviews are included at the              internal controls conformed with gener-
                                     end of this section. In order to differenti-            ally accepted accounting principles.
What is a seven-day letter?          ate the work reported by the OIG and                    However, OIG identified weaknesses in
                                     Inspection Service, the pages containing                the following areas:
Although rarely used, under
Section 5 of the Inspector           the work reported by the Inspection Service              ◆ remittance processing;
                                     have been color screened.                                ◆ tax liability reporting;
General Act, the Inspector
General must report to the                                                                    ◆ protection and destruction of
                                                                                                obsolete money orders and
Governors any serious or flagrant   OFFICE OF INSPECTOR                                         imprinters;
problems relating to the adminis-   GENERAL                                                   ◆ processing of money order data;
tration of Postal Service pro-


                                    T
                                            he Postal Service is a $65 billion busi-
grams. Within seven calendar                                                                  ◆ capitalization of new equipment; and
                                            ness that relies on strong financial man-
days, the Governors must trans-             agement controls to maximize revenue              ◆ adjustments of fuel inventory.
mit the letter to Congress.         and minimize costs. In the past six months, the          The OIG recommended and Postal Ser-
                                    OIG has completed 108 financial management               vice management generally agreed to
                                    reviews. These reviews resulted in the identifi-         these recommendations for improve-
                                    cation of $49 million in questioned costs and            ments in these areas. In addition, OIG
                                    funds that could be put to better use. In                recommended adjustments to the finan-
                                    addition, OIG investigations resulted in 6               cial statements totaling about $94 mil-
                                    convictions, 7 arrests, 14 indictments, and over         lion. Postal Service management accept-
                                                                                             ed approximately $77 million of these
                                    $6 million in recoveries, restitution, and cost
                                                                                             adjustments. The remainder of the
                                    savings. These projects add value to the Postal
                                                                                             adjustments Postal Service management
                                    Service by identifying opportunities for cost
                                                                                             waived, rejected, or partially accepted
                                    savings and improving financial management,              were evaluated together and we deter-
                                    contracting, and facilities practices, and               mined that they did not have a material
                                    detecting and deterring fraud, waste, abuse, and         impact on the financial statements.
                                    mismanagement.                                           (OIG FT-AR-01-007 through
                                    FINANCIAL OPINION AUDITS                                 OIG FT-AR-01-009)

                                         The Postal Reorganization Act of 1970           ◆   An audit at Postal Service Headquarters
                                    requires annual audits of the Postal Service’s           examined cash, investments, workers’
                                    financial statements. The OIG conducts these             compensation, and unemployment com-
                                    audits in support of the independent public              pensation totaling over $1.6 billion. This
                                    accounting firm’s overall opinion on those state-        audit disclosed that the Postal Service
                                    ments. These audits assess the integrity and reli-       policies, accounting procedures, and
                                    ability of the financial information contained in        internal controls complied with generally
                                    the Postal Service financial statements. These           accepted accounting principles.
                                    centers and headquarters oversee the collection          (OIG FT-AR-01-003)
                                    of approximately $65 billion in revenue and the      ◆   The OIG reviewed travel and miscella-
                                    recording and disbursement of about a similar            neous expenses for the Office of the
                                    amount each year. Examples of reviews in this            Board of Governors and travel and
                                    area are highlighted below:                              representation expenses for Postal Ser-
                                                                                             vice officers. The reviews determined
                                    ◆   The OIG conducted audits at Postal Ser-              expenses were properly supported,
                                        vice headquarters in Washington, D.C.,               reasonable, and complied with Postal


                          PAGE 58   FINANCIAL MANAGEMENT REVIEWS
    Service policies and procedures and              agreed to update and fully document studies,
    Board of Governors’ guidelines.                  analyses, and program benefits; and evaluate
    (OIG FT-AR-01-004 and                            the benefits of implementing accrual and cost
    OIG FT-AR-01-005)                                accounting systems at the program level.
                                                     (OIG FT-AR-01-006)
FY 2001 FINANCIAL
INSTALLATION AUDITS                                  TORT CLAIMANT CONVICTED ON
      The OIG successfully transitioned finan-       PERJURY CHARGES
cial installation audit work from the Inspection          Based on a referral from the U.S.
Service and began its FY 2001 audit work in          Attorney’s Office, Northern District of
October 2000, as scheduled. In addition, the         California, the OIG investigated a tort claimant
OIG contracted with four accounting firms to         who filed a $1 million lawsuit against the Postal
assist in conducting the financial installation      Service. The claimant filed the lawsuit as a
audit work. The OIG completed financial              result of a car accident with a postal vehicle.
transactions audits at seven Postal Service facil-   Although the claimant’s car sustained less than
ities and determined that transactions were rea-     $64 in property damage, the claimant later
sonably and fairly represented in the accounting     alleged physical and emotional trauma totaling
records, and that internal controls were in place    $1 million as a result of the accident. However,
and effective. (OIG FF-AR-01-002 through             the claimant failed to disclose a prior car acci-
OIG FF-AR-01-008)                                    dent occurring the month before, in which the
                                                     claimant suffered extensive injuries. The
FINANCIAL-RELATED REVIEWS                            claimant, who was arrested during the previous
     Financial related audits examine areas that     reporting period, was found guilty and is await-
have significant financial implications and offer    ing sentencing.
the Postal Service an opportunity to save
resources. The OIG has taken a proactive             OIG EFFORTS REDUCE CIVIL
approach to identify areas that offer potential      CLAIMS AGAINST POSTAL
                                                     SERVICE BY OVER $2.8 MILLION
cost savings and improve postal operations. In
                                                     ◆   As a result of an OIG investigation, a
the past six months, the OIG has completed
                                                         $1 million federal tort claim was reduced
over ten financial-related audits and investiga-
                                                         to $45,000. An individual overstated the
tions. The most significant reviews and investi-
                                                         extent of injuries in a $1 million lawsuit
gations are highlighted below:                           claiming that a letter carrier’s mailbag
POSTAL SERVICE’S FY 2000                                 caused the individual to trip, fall, and
BUDGET FORMULATION                                       sustain severe and protracted personal
PROCESS GENERALLY EFFECTIVE                              injuries. The OIG investigation revealed
      The Postal Service’s FY 2000 budget for-           that the subject’s claims were exaggerated.
mulation process was generally effective in allo-    ◆   As a result of an OIG investigation, the
cating funds for programs and operations for the         federal district court for the Northern
six functional areas reviewed. However, budget           District of Illinois reduced a $1.5 million
allocations were not always based on current             claim by more than $1 million. The
and complete analyses and may not have been              investigation determined that a contract-
sufficient to support the Postal Service’s strate-       ed truck driver, injured in the perfor-
                                                         mance of Postal Service work, had exag-
gic goals for reducing costs and increasing rev-
                                                         gerated disabilities. The driver filed a
enue. In addition, program budget officials did
                                                         $1.5 million tort claim against the Postal
not have complete financial information to
                                                         Service alleging permanent knee damage
effectively evaluate and manage their programs.          that would prohibit returning to work.
The lack of a comprehensive accrual account-             However, the OIG investigation revealed
ing system and a cost accounting methodology             that the subject owned, operated, and
prevented managers from effectively making               was actively working at a restaurant and
informed decisions about the benefits of fund-           bar. The awarded damages were reduced
ing, delaying, or eliminating programs. The              to $411,000.
OIG recommended and management generally

                                                                                                         PAGE 59
                                     ◆   An OIG investigation resulted in a               WEAKNESSES IN MANAGEMENT
                                         $135,000 settlement in the case of a for-        CONTROLS OVER STATISTICAL
                                         mer postal employee who filed a                  TESTS FOR FISCAL YEAR 2000
                                         $800,000 tort claim against the Postal           COST AND REVENUE ANALYSIS
        DID YOU                          Service. The subject claimed that the                 The OIG issued a report on the adequacy
        KNOW?                            Postal Service failed to accommodate a
                                         disability while employed as a mainte-
                                                                                          of statistical tests used to validate costs and rev-
                                                                                          enues supporting postal rates. The OIG identi-
                                         nance technician. The OIG investigation
                                                                                          fied minor test errors and weaknesses in
                                         revealed that the disability was overstat-
Are copies of previous                                                                    management controls in 17 of the 33 districts
                                         ed and the subject was capable of operat-
                                         ing with no visible limitations.                 reviewed. Incorrect data in Postal Service sys-
Semiannual Reports to                                                                     tems could affect postal rate decisions. The OIG
                                     ◆   A $360,000 tort claim was reduced
Congress available?                                                                       recommended and Postal Service management
                                         almost by half after an OIG investigation
Yes, electronic copies of previous                                                        agreed to reinforce policies and procedures
                                         determined that a private citizen
                                                                                          related to marking sample items and coordinat-
Semiannual Reports to Congress           exaggerated injuries after being involved
                                         in an accident with a postal delivery            ing test schedules; provide training in areas
can be accessed at website                                                                identified; and modify specific training topics.
                                         truck. The subject claimed sustained
www.uspsoig.gov and printed                                                               Postal Service management also agreed to coor-
                                         lifestyle changing injuries. The OIG
copies can be obtained by                investigation determined that the subject        dinate with district officials to ensure that super-
contacting the OIG.                      overstated injuries and the damages were         visors and employees provide accurate
                                         reduced to $175,000.                             information to data collectors.
                                                                                          (OIG FF-AR-01-001)
                                     POSTAL SERVICE EMPLOYEE
                                     PLEADS GUILTY TO                                     SUBJECTS IN BID-RIGGING
                                     MISAPPROPRIATION OF                                  SCHEME SENTENCED
                                     POSTAL FUNDS                                              As a result of an OIG investigation, two
                                          An OIG and Inspection Service joint             subjects of a bid-rigging scheme involving viola-
                                     investigation disclosed that a Postal Service tort   tions of the Sherman Antitrust Act have pled
                                     claims coordinator fraudulently prepared,            guilty. The investigation revealed that the indi-
                                     approved, and submitted vehicle accident             viduals conspired to defraud the Postal Service
                                     claims. The embezzlement scheme resulted in          by rigging bids for various lots of books being
                                     14 checks being fraudulently issued with the         auctioned at the Postal Service Mail Recovery
                                     employee receiving almost $68,000. The               Center auction in the San Francisco District. In
                                     employee has pled guilty and sentencing is           this case, the subjects conspired not to bid
                                     pending.                                             against each other, resulting in the book lots
                                                                                          being sold at the minimum bid price. The sub-
                                     REVIEW OF WITHHOLDINGS                               jects were each sentenced to 2 months in
                                     AND CONTRIBUTIONS FOR                                prison, with 1 year supervised probation, and
                                     EMPLOYEE BENEFITS                                    ordered to pay a fine of $20,000.
                                           The OIG assisted the United States Office
                                     of Personnel Management in a review of               CONTRACTING AND FACILITIES
                                     employee withholdings and employer contribu-         REVIEWS
                                     tions for health benefits, life insurance, and            The Postal Service awards approximately
                                     retirement, totaling almost $8 billion. The          $9 billion in contracts per year for essential
                                     review did not identify any errors or differences    goods and services, including facilities, trans-
                                     that exceeded the materiality limits established     portation, mail processing equipment, and sup-
                                     by the Office of Personnel Management and the        plies. During FY 2000 purchases included over
                                     OIG made no recommendations regarding the            $592 million in noncompetitive contracts and
                                     sufficiency of the procedures.                       $348 million in credit card purchases. The
                                     (OIG FT-AR-01-001)                                   Postal Service is also one of America’s largest
                                                                                          owners, developers, and managers of real estate,
                                                                                          committing nearly $1 billion in FY 2000 for
                                                                                          repair, renovation, and construction of new


                           PAGE 60   FINANCIAL MANAGEMENT REVIEWS
facilities, and paying $780 million in rent.
      The OIG is responsible for contract audits     ◆   Audits of three contractor cost proposals
designed to assist Postal Service contracting            valued at $139.1 million disclosed ques-
officers in determining fair and reasonable con-         tioned and unsupported costs of $23.1
                                                         million. These proposals were for the fol-
tract prices, as well as providing them with
                                                         lowing services: expanded capability for
reviews of contractor financial systems. In the
                                                         the delivery bar code sorter; an optical
past six months, the OIG conducted 38 reviews
                                                         character reader/video coding system;
of contracting and facilities related issues with
                                                         and optional character readers for Flat
the assistance of a contract audit agency, which         Sorting Machine 1000. The OIG found
specializes in pre-award and post-award con-             that none of the three proposals were
tract audits. Also, the OIG has many open                acceptable for negotiation because of the
criminal investigations targeting fraud and cor-         contractors’ inability to provide support-
ruption in these areas. The most significant             ing documentation for some of the pro-
contracting and facilities reviews and investiga-        posed costs. Postal Service contracting
tions are highlighted below:                             officers were still in the process of deter-
                                                         mining whether to withhold questioned
CONTRACT AUDITS IDENTIFIED                               costs identified by these audits.
OVER $26 MILLION IN                                      (OIG CA-CAR-01-002,
QUESTIONED COSTS                                         OIG CA-CAR-01-013, and
      In the past six months, the OIG completed          OIG CA-CAR-01-026)
36 audits of contracts valued at over $227 mil-
                                                     ◆   An audit of another contractor’s
lion. These audits resulted in over $26 million
                                                         accounting system disclosed that the sys-
in questioned and unsupported costs. These
                                                         tem was partially inadequate for report-
contract audits include: incurred cost audits            ing costs. The contractor provides deliv-
that evaluate the reasonableness of costs                ery of Priority Mail. The report also iden-
incurred by contractors; proposal audits that            tified that the contractor lacked formal
evaluate the reasonableness of contractor cost           written accounting policies and proce-
estimates; defective pricing audits that are per-        dures, costs were not segregated by con-
formed to determine whether contract prices              tract line item, and subcontract rate
significantly increased because of defective con-        agreements and modifications were not
tractor pricing data; and contractor financial           maintained. The OIG recommended
                                                         that the Postal Service contractor take
                                                                                                                 Types and Number of Contract
systems, such as accounting, estimating, and                                                                     Audits Completed
billing systems that are reviewed to determine           corrective actions to address the issues
their adequacy to account for contract costs.            identified and improve the reliability of
These audits, which are summarized in the                the data. The Postal Service has not yet                                             8
graph in the margin, focused on whether con-             provided the OIG with adequate docu-                                              OTHERS


                                                         mentation that corrective actions have                                                       17
tractors’:
                                                         been implemented.                                1 DEFECTIVE PRICING                       PROPOSALS


◆   Proposed and incurred costs were allow-              (OIG CA-CAR-01-001)                            1 SYSTEM REVIEWS
    able and reasonable;                                                                                                         8
                                                     ◆   An audit of a contractor’s $24.5 million                          INCURED COSTS

◆   Pricing data was accurate, complete, and             proposal for control system upgrade
    current; and                                         options for a small parcel bundle sorter                                            1
                                                                                                                                           CLAIMS

◆   Accounting systems for allocating costs              questioned almost $1.3 million in costs.
    to the Postal Service were adequate.                 The audit determined the proposal was
                                                         adequate as a basis for negotiating a fair
     In addition to raising questions about costs,       and reasonable contract price. Postal
the audits disclosed that a major contractor did         Service contracting officers entered into
not have an adequate accounting system.                  negotiations with the contractor.
Inadequate accounting systems may affect accu-           (OIG CA-CAR-01-011)
racy of costs charged to Postal Service con-
tracts. Following is a summary of five significant   POSTAL CONTRACTOR RECEIVES
contract audits completed in the last six            ILLEGAL KICKBACK
months:                                                  As the result of a joint OIG investigation


                                                                                                        PAGE 61
          with other federal agencies, two former employ-         ing in the fraudulent activities of the postal
          ees of a Postal Service contractor pled guilty to       managers. The accountant has pled guilty and is
          charges relating to conspiracy, receiving kick-         awaiting sentencing. As of March 31, 2001, the
          backs, and tax evasion. The investigation dis-          Postal Service has recovered over $1.2 million
          closed that a contractor in the New York Metro          of the court-ordered restitution.
          Area conspired with its subcontractors to get
                                                                  UNSAFE STRUCTURAL
          kickbacks while performing work on various
                                                                  CONDITIONS RESULT IN
          environmental and construction engineering              RELOCATION OF POSTAL
          projects for the Postal Service, the Department         FACILITY
          of Defense, and other government agencies. For
                                                                        The OIG requested the Army Corps of
          approximately 5 years, the company’s invoices
                                                                  Engineers to assess structural deficiencies at a
          to the Postal Service and other federal agencies
                                                                  renovated postal facility. The assessment indi-
          were based on subcontractor invoices, which
                                                                  cated that the roof posed a potential safety risk
          included approximately $800,000 in kickbacks
                                                                  and required immediate attention. It was deter-
          remitted to a shell company created by a com-
                                                                  mined that the roof could not support the
          pany manager. The Postal Service had an esti-
                                                                  design load and that any additional weight or
          mated $26 million in contracts with the
                                                                  stress brought onto the roof by snow, rain, or
          contractor. In addition, the contractor’s accoun-
                                                                  wind could result in failure of the roof system.
          tant pled guilty to filing false tax returns by fail-
                                                                  As a result, management took immediate action
          ing to disclose $315,000 received by the client
                                                                  to relocate the facility temporarily. The retail
          in the form of kickbacks and gratuities.
                                                                  operation and the carriers have since returned
          Sentencing is pending.
                                                                  to the facility. As of March 31, the carriers were
          FORMER POSTAL MANAGERS                                  able to use about 80 percent of the facility and
          ORDERED TO REPAY OVER                                   repairs are continuing on the dock area.
          $3 MILLION                                              Negotiations are ongoing regarding the contrac-
               A joint investigation by the OIG, the              tor’s financial liability for costs associated with
          Inspection Service, and the Internal Revenue            the relocation.
          Service disclosed that two former Postal Service
                                                                  POSTAL MANAGER INDICTED
          managers, a married couple, devised a scheme to         FOR VEHICLE REPAIR SCAM
          defraud the Postal Service of several million
                                                                       A former vehicle maintenance facility
          dollars. The postal employees conspired with
                                                                  manager in the Northeast Area was indicted on
          the owner of two computer companies to submit
                                                                  embezzlement and conspiracy charges relating
          fraudulent invoices to the Postal Service for
                                                                  to having his family’s vehicles repaired at Postal
          computers and supplies not received. The
                                                                  Service expense. The manager conspired with a
          employees then laundered the proceeds over-
                                                                  repair contractor who inflated bills by $87,000
          seas. This investigation was reported in the
                                                                  to cover the costs of repairs to the vehicles. The
          September 30, 2000, Semiannual Report to
                                                                  manager has been fired from the Postal Service
          Congress.
                                                                  and is awaiting trial and the contractor was
               During this reporting period, the managers
                                                                  given immunity for cooperating with the inves-
          pled guilty and were sentenced to 71 months in
                                                                  tigation.
          prison, 3 years supervised probation, and over
          $31,000 in fines. The couple was also ordered to        POSTAL SERVICE COULD PAY
          jointly make restitution of over $3 million. In         MILLIONS MORE BECAUSE OF
          addition, they were ordered to forfeit their resi-      NONCOMPETITIVE CONTRACTS
          dence, boat, jewelry, and other tangible property            An audit of the mail transport equipment
          as well as their Postal Service pensions as pay-        service center project disclosed that the Postal
          ment toward the restitution amount. The com-            Service could save almost $11 million by renego-
          puter company pled guilty and was ordered to            tiating a noncompetitive contract. In addition,
          pay almost $257,000 in restitution and a                the Postal Service may pay up to $42 million
          $10,000 fine. A criminal information was filed          more than necessary on three contracts awarded
          charging an accountant with aiding and assist-          noncompetitively to the same contractor. The


PAGE 62   FINANCIAL MANAGEMENT REVIEWS
OIG also found that the three noncompetitive         tion that exposed multiple counts of false
contracts were initially awarded with undefined      claims by the company. Sentencing is pending.
contract prices and terms, which potentially
                                                     LEGISLATIVE AND REGULATORY
exposed the Postal Service to performance and
cost risks. Additionally, a Postal Service man-
                                                     REVIEWS                                                        DID YOU
                                                         During this reporting period, the OIG
ager improperly directed contractors to perform
                                                     identified the following legislation affecting
                                                                                                                    KNOW?
over $12.5 million of additional work that was
                                                     Postal Service financial management.
not authorized. Postal Service management
generally agreed with the OIG’s recommenda-          ENACTED LEGISLATION
tions. (OIG CA-AR-01-001)
                                                                                                         Does the OIG employ in-house
                                                     Public Law 106-554 - Consolidated                   experts?
CONSTRUCTION CONTRACTS                               Appropriations Act of 2001
FRAUDULENTLY OBTAINED                                                                                    Yes. For example, the OIG has
                                                          Section 401 of the Miscellaneous
      The OIG, working with other federal and                                                            two statisticians, an economist, a
                                                     Appropriations Act of 2001, incorporated by
state agencies, investigated allegations that a      reference into the Consolidated Appropriations
                                                                                                         cost benefit analyst and an activi-
contractor defrauded the Postal Service and          Act, adds a new Subparagraph (5) to Section         ty-based cost analyst who provide
other federal and state agencies, by fraudulently    43-1552(b) of the District of Columbia Code         expert support to OIG staff.
obtaining construction contracts valued at over      requiring Inspectors General to analyze and
$11 million under programs designed to give          report to Congress on each agency’s promptness
preferential treatment to small, minority-           of payment for water services to the District of
owned businesses. The contractor purported to        Columbia. Similar language amending Section
own and operate a general construction com-          43-1612(b) requires the same report for sewer
pany; however, the company was established as        services.
a pretext to commit fraud and was actually run            The Postal Service appears to be within
out of an apartment.                                 the scope of this law. However, the Postal
      The fraud scheme involved submitting fic-      Service does not pay into the U.S. Treasury’s
titious contract documents in an effort to           “Federal Payment for Water and Sewer
obtain government contracts. The total Postal        Services” account. Bills from the District of
Service contract amount was over $530,000.           Columbia Water and Sewer Authority are
The subject brokered the contract to a non-          forwarded to the financial accounting center in
minority company for approximately 12 per-           San Mateo, California, for payment. In a letter
cent less than the contract amount, resulting in     to the District of Columbia Appropriation
a loss to the Postal Service of over $68,000. The    Committees and Subcommittees, the OIG
company and its president defaulted on several       informed Congress of this procedure and plans
contracts, causing a loss to the government of       no further reporting on the matter.
approximately $1 million. The company presi-
dent pled guilty in New Jersey on behalf of him-     PROPOSED LEGISLATION
self and his company to charges of major fraud
                                                     S. 95 - Federal Energy Bank Act
against the government and making false state-
                                                           This bill would promote energy conserva-
ments. The company president also pled guilty
                                                     tion investments in federal facilities, including
in New York to mail fraud charges. Sentencing        postal facilities. The legislation requires agen-
is pending.                                          cies at the beginning of fiscal years 2002, 2003,
CONTRACTOR DEBARRED FOR                              and 2004 to transfer to the Secretary of the
SUBMITTING FALSE CLAIMS                              Treasury five percent of the amount of their
     A construction company executive pled           utility bill for the previous fiscal year. The
guilty to submitting false claims for constructing   money would be used for loans to agencies to
a post office in the Mid-Atlantic Area. As part      assist in financing energy efficient projects.
of a plea agreement, the company agreed to be              This legislation would have an impact on
debarred from doing business with the federal        Postal Service finances and could result in
government for a period of 3 years. The plea         further postal rate increases.
agreement was the result of an OIG investiga-


                                                                                                          PAGE 63
          INSPECTION SERVICE
               Within the financial management area,
          the Inspection Service performs various types of
          revenue investigations.
          REVENUE INVESTIGATIONS
               The Inspection Service conducts revenue
          investigations to help ensure that Postal Service
          revenue is properly assessed and collected.
          Priority is given to investigations of alleged
          schemes to avoid payment of postage and to
          identify, pursue, and seek prosecutive actions
          against violators through civil, administrative,
          and criminal remedies.
               Postal Inspectors focus on revenue investi-
          gations where there is customer intent to
          defraud the Postal Service. In the last six
          months, there were 45 arrests and 33 successful
          criminal convictions resulting from revenue
          investigations.
               Embezzlements may occur when employees
          steal money from cash drawers or in sophisti-
          cated kiting schemes involving postal money
          orders and through the falsification of financial
          records. Postal Inspectors initiated 187
          employee embezzlement investigations this
          reporting period, which documented losses of
          over $2.2 million. Examples in this area are
          summarized below.
          ◆   A former postmaster in Maryland was
              sentenced to 18 months supervised
              release and community service for
              embezzling 150 postal money orders
              valued at over $58,000. The postmaster
              made full restitution to the Postal
              Service.
          ◆   A window clerk in Maryland was sen-
              tenced to 8 months in prison, 3 years
              supervised release, and ordered to pay full
              restitution of over $49,000 for embezzling
              postal stamp stock.
          ◆   A postal timekeeper in Connecticut was
              sentenced to 10 months imprisonment,
              3 years supervised release, and ordered to
              pay over $34,000 in restitution for over-
              stating time records and altering payroll
              records to receive compensation for
              hours not worked.




PAGE 64   FINANCIAL MANAGEMENT REVIEWS
Technology Reviews




   OFFICE OF INSPECTOR GENERAL
        Developmental Reviews
        Information Systems Reviews
        eCommerce Reviews
        Computer Intrusion Detection Activities
        Legislative and Regulatory Reviews

   INSPECTION SERVICE
        eCommerce Activities




                                              PAGE 65
                                                                                                lowed by the proof of concept test, and first
                                           This section highlights audits, reviews,
                                                                                                article test and final deployment. The OIG
                                           and investigations performed by the OIG
                                                                                                recognizess the importance of reviewing these
                                           and the Inspection Service in the technol-
                                                                                                systems as they are developed and has com-
                                           ogy area. Report numbers are shown in
                                                                                                pleted four audits of major projects currently
                                           parentheses after the narrative, as appro-
                                                                                                under development during the reporting period.
                                           priate. Also, the OIG legislative and reg-
                                                                                                These reviews are highlighted below:
                                           ulatory reviews are included at the end of
                                           this section. In order to differentiate the          ROBOTICS CONTAINERIZATION
                                           work reported by the OIG and Inspection              SYSTEM WORK HOUR SAVINGS
                                           Service, the pages containing the work               QUESTIONABLE
                                           reported by the Inspection Service have                    The Robotics Containerization System
                                           been color screened.                                 automates the dispatch of letter trays and flat
                                                                                                tubs within the mail processing facilities. The
                                                                                                OIG audit of the system disclosed that the total
                                          OFFICE OF INSPECTOR                                   work hour savings of $346.6 million, as fore-
                                          GENERAL                                               casted by Postal Service management, would
                                                                                                only be realized if planned staffing levels are


                                          T
The OIG evaluated the Postal Service’s              he Postal Service recognizes that tech-     achieved. Work hour savings were based on the
use of the Robotics Containerization                nology, including electronic commerce,
System, which automates the dispatch                                                            assumption that one person would be required
                                                    is key to productivity and affordability.   to operate a robotic system. However, during
of letters and flat tubs within mail
processing facilities.                    Through technology, the Postal Service is able        testing, between four and eight persons were
                                          to handle more than 660 million pieces of mail        used to operate one system. The audit also dis-
                                          every day and maintain its network of over            closed that the system could only process 10
                                          38,000 post offices and facilities. Its technology    trays of mail per minute instead of the 15 as
                                          strategy is to provide convenient access to all       forecasted. Finally, the audit identified an addi-
                                          customers on a daily basis through increasingly       tional $4.1 million needed for repair parts and
                                          sophisticated retail systems, expansion in new        maintenance training that had not been
                                          electronic access channels, and electronic link-      included in the project justification. The OIG
                                          ages that integrate customer and postal               recommended changes to the program and
                                          processes. In addition, the Postal Service is         management agreed to address the issues identi-
                                          using modern technology, such as NetPost              fied. (OIG DA-AR-01-002)
                                          Mailing Online,™ NetPost™ Cardstore, and
                                          eBillPay.™ These initiatives will improve and         COMPUTER CONTROLS OVER
                                          build on its existing services and relationships      ROBOTICS CONTAINERIZATION
                                          with customers and continue meeting tradi-            SYSTEM SHOULD BE REVISED
                                          tional customer demands.                                   An OIG audit found that computer access
                                                OIG reviews have covered developmental          controls over the Robotics Containerization
                                          systems, information systems, electronic com-         System did not comply with Postal Service
                                          merce, and computer intrusion detection activ-        policy that requires, “data and information
                                          ities. In the past six months, the OIG performed      handled by computer equipment and associated
                                          18 reviews and investigations in the technology       telecommunication equipment systems to be
                                          area, some of which are highlighted below.            properly safeguarded.” The audit identified
                                                                                                concerns with the length, format, and apparent
                                          DEVELOPMENTAL REVIEWS                                 sharing of logon identifications and passwords.
                                               The Postal Service is developing business        These concerns could impact the ability to
                                          systems and mail processing equipment to              identify, report, and assign accountability for
                                          improve performance, enhance service, and             potential compromises of system integrity. The
                                          reduce operating costs. The typical develop-          OIG suggested computer access controls over
                                          ment process begins with the identification of a      the Robotics Containerization System be
                                          business need. After the business need has been       revised to meet Postal Service policy and that
                                          identified, a solution is developed which is fol-     statements of work include standards for access



                                PAGE 66   TECHNOLOGY REVIEWS
control. Postal Service management agreed            INFORMATION SYSTEMS
with OIG’s suggestions.                              REVIEWS
(OIG DA-MA-01-001)                                        The Postal Service relies on a massive
DELIVERY OPERATIONS INFOR-                           computer infrastructure to accomplish and
MATION SYSTEM DID NOT                                streamline operations, manage one of the
ADDRESS BUSINESS GOALS                               largest civilian workforces in the world, and
     The OIG conducted an audit to evaluate          move billions of pieces of mail each year. The
the deployment of the Delivery Operations            Postal Service has initiated several information
Information System. The System is a manage-          technology projects to enhance efficiency and
ment tool intended to help delivery unit super-      increase revenue. However, computer security
visors manage mail carriers’ workload. The           overall needs to be improved and maintained to
audit disclosed that the system did not fully        reduce the risk of fraud, inappropriate disclosure
address emerging business goals in support of        of sensitive data, unauthorized disclosure of cus-
the Postal Service Information Platform. The         tomer information, and disruption of critical
OIG also found conditions that affected the          operations and services. The OIG has initiated
ability of the System to provide accurate,           a postalwide telecommunications review and an
timely, and useful information. Postal Service       annual assessment of general controls at major
management agreed with OIG’s recommenda-             processing centers. The most significant reviews
tions. (OIG DA-AR-01-003)                            are highlighted below:

CONSOLIDATION OF SAN                                 NETWORK VULNERABILITIES
                                                     IDENTIFIED                                            The OIG evaluates vital mail systems
MATEO ACCOUNTING SERVICE                                                                                   including the Automated Flat Sorting
AND DATA CENTER WOULD                                     The OIG issued four technical reports on         Machine 100, which automates
PRODUCE SAVINGS                                      the results of vulnerability tests of selected net-   processing of mail larger than a letter
      The OIG evaluated the potential benefits,      works within the Postal Service’s network infra-      incorporating on-site barcode technology.
costs, and operational issues relating to the        structure. The OIG noted various weaknesses in
potential consolidation of the Postal Service’s      the server systems that required remedial action
Information Service Centers. The Postal              to reduce security risks. As requested by Postal
Service had estimated that consolidating the         Service managers, OIG categorized the risks
San Mateo data center operations with other          into high, medium, and low vulnerabilities to
Information Service Centers located in Eagan,        help management focus its resources for correc-
Minnesota; St. Louis, Missouri; and Wilkes-          tive action.
Barre, Pennsylvania, could produce approxi-               The reports give the results of tests run
mately $78 million of savings in staffing,           against four networks covering more than 140
utilities, maintenance, and contractor systems       servers at one location. The reports contain a
software support. These savings include approx-      CD-ROM with detailed information on the
imately $49 million from the sale of the San         vulnerabilities identified for each server, and
Mateo facility.                                      the potential impacts if the security exposures
      However, the OIG found that the pro-           are exploited. The reports will assist managers
jected $78 million in savings understated the        and system administrators in locating weak-
cost of leasing space for the remaining San          nesses, establishing priorities for corrective
Mateo accounting service center personnel by         action, making immediate repairs, and evaluat-
$4–8 million. Despite this understatement,           ing the completeness of baseline security mod-
the Postal Service would still realize savings and   els for the selected servers. Postal Service
a positive cash flow from the consolidation. The     management plans to use this information to
Postal Service has updated the cash flow analy-      strengthen network security.
sis and disclosed that the consolidation could       (OIG IS-CS-01-001 through
impact workforce diversity and has planned or        OIG IS-CS-01-004)
taken corrective actions to address OIG’s rec-
ommendations. (OIG DA-AR-01-001)




                                                                                                            PAGE 67
                                   WEAKNESSES IDENTIFIED IN                            ducted two audits focusing on security and pri-
                                   GENERAL CONTROLS OVER                               vacy and reported concerns involving the pro-
                                   INFORMATION SYSTEMS                                 tection of information and disaster recovery. In

        DID YOU                          The OIG audited the adequacy of general
                                   controls over financial systems and included
                                                                                       one audit, OIG recommended updating the pre-
                                                                                       implementation security review process and
        KNOW?                      information system security and software at the     establishing minimum requirements for the col-
                                   Eagan, Minnesota; San Mateo, California; and        lection, use, and disclosure of information gath-
                                   St. Louis, Missouri, Information Technology         ered via the Internet. In another audit, OIG
                                   and Accounting Service Centers. General con-        recommended improvements to backup and
What is Voice Over Internet
                                   trols, such as passwords, detect and prevent        recovery procedures to restore functionality in
Protocol capability?               unauthorized or inaccurate transactions in          emergencies. Postal Service management
Voice Over Internet Protocol       financial systems and help ensure the reliability   agreed with OIG’s recommendations and has
                                   of financial data and reports. The audit revealed   implemented or plans to implement procedures
allows the OIG to transmit voice   that controls over software and data security at    and controls to address the issues identified in
communications over its data       these sites were generally adequate. However,       the reports. (OIG EC-AR-01-001 and
                                   controls over local area network, mainframe         OIG EC-AR-01-002)
network, reducing telecommuni-
                                   security, and change control procedures needed
                                                                                       OIG PROVIDES INPUT ON
cations costs.                     improvement. Postal Service management
                                                                                       INTERNET PRIVACY POLICY
                                   agreed with the recommendations and provided
                                                                                            Working with the Postal Service’s Chief
                                   a summary of initiatives that are planned, in
                                                                                       Privacy Officer, the OIG commented on the
                                   progress, or completed to address these issues.
                                                                                       Postal Service’s Web Privacy Commitment
                                   (OIG FT-AR-01-002)
                                                                                       Statement. The OIG recommended expansion
                                   eCOMMERCE REVIEWS                                   of the privacy policy in the areas of information
                                        The Postal Service continues to provide        disclosure, collection, and data retention. The
                                   customers with new online products and              OIG also suggested changes to the policy that
                                   services to enhance customers’ personal and         would clarify the customer information that
                                   business lives. Some of the newer services          would be collected, how it would be collected,
                                   available through the website, www.usps.com,        and what would be done with the information
                                   include NetPost Mailing Online,™ NetPost™           that was collected. Postal Service management
                                   Cardstore, The Postal Store,™ and eBillPay.™        generally agreed with the comments and is in
                                   In addition, the Postal Service continues to        the process of updating its privacy statement.
                                   improve the performance and usability of its
                                                                                       OIG COMMENTS ON ADEQUACY
                                   web presence to ensure secure access and the        OF COMPUTER SECURITY
                                   protection of customer privacy. The Postal
                                                                                            The OIG issued an advisory letter address-
                                   Service has recently appointed a Chief Privacy
                                                                                       ing the lack of adequate computer security and
                                   Officer and a Manager, Information Security, to
                                                                                       privacy provisions in an agreement with a major
                                   help focus Postal Service management’s efforts
                                                                                       business partner. Although the agreement has
                                   in these important areas.
                                                                                       been in place for almost a year, a formal con-
                                        The OIG is committed to helping the
                                                                                       tractual agreement is not in place to ensure the
                                   Postal Service meet the eCommerce challenge.
                                                                                       protection of the Postal Service and customer
                                   OIG efforts during this period focused on
                                                                                       interests. The OIG recommended that manage-
                                   eCommerce architecture, customer privacy, and
                                                                                       ment execute formal agreements granting the
                                   ensuring the Postal Service enters into sound
                                                                                       Postal Service authority to review and monitor
                                   strategic eCommerce agreements. OIG efforts
                                                                                       the business partner’s activities and require the
                                   are highlighted below:
                                                                                       business partner to follow minimum security
                                   eCOMMERCE AUDITS                                    and privacy requirements. Postal Service man-
                                        One of the main concerns faced by              agement has not addressed this issue and we
                                   eCommerce companies today is the preserva-          remain concerned about the computer security
                                   tion of personal privacy and the continued          and privacy of this important program.
                                   availability of Internet services. The OIG con-


                         PAGE 68   TECHNOLOGY REVIEWS
COMPUTER INTRUSION                                   The OIG provides timely information to Postal
DETECTION ACTIVITIES                                 Service management so that it can eliminate
     The OIG Computer Intrusion Team inves-          vulnerabilities and mitigate risks to the Postal
tigates criminal violations of laws enacted to       Service’s and customers’ sensitive information.
protect the authenticity, privacy, integrity, and    During this six month period, OIG completed
availability of electronically stored and trans-     tests of eight postal computer facilities.
mitted information. Rapidly expanding                MEMBER OF A NOTORIOUS
eCommerce ventures make the protection of            HACKER GROUP CONVICTED
postal information systems critical to the finan-    AND SENTENCED
cial viability of the Postal Service. Because such        A member of a notorious hacker group
ventures involve connectivity between postal         pled guilty under Texas law to six charges of
systems and eCommerce partners, the                  breach of computer security and one charge of
Computer Intrusion Team conducts investiga-          aggravated theft for hacking into websites oper-
tions of attacks upon the security of those sys-     ated by the OIG, Canadian Department of
tems in order to maintain the integrity of           National Defense, State of Texas, and a corpo-
eCommerce information.                               ration. The OIG initiated and directed this
     The team proactively informs Postal             international multi-agency, criminal investiga-
Service management and eCommerce partners            tion into the online activities of the “High
regarding emerging threats to information sys-       Voltage 2000” hacking group. This group com-
tems, and assists them in identifying and elimi-     promised and defaced more than 60 websites
nating potential vulnerabilities. These efforts      between September 1999 and January 2000.
include assisting the Postal Service in develop-     The OIG coordinated and led the activities of
ing security policies, information systems, and      various Canadian and American law enforce-
eCommerce procedures that conform to the             ment agencies, including the Royal Canadian
best practices in industry and government. The       Mounted Police, Canadian Defense Forces
most significant activities are highlighted          National Investigative Service, Texas
below:                                               Department of Public Safety, and Army               Packet magazine recognized OIG for being the
                                                                                                         first entity in federal government to make
OIG PARTICIPATES IN SEARCH                           Criminal Investigations Division.
                                                                                                         extensive use of this technology.
WARRANT RELATED TO                                        The hacker received a 2-year suspended
ELECTRONIC CRIMES                                    sentence for each charge of breach of computer
     The OIG participated in the execution of        security and a 10-year suspended sentence for
a search warrant in a joint investigation involv-    the aggravated theft charge. In addition, the
ing the theft and fraudulent use of an Internet      hacker was placed on 2 years probation and
provider’s personal identification numbers. Task     ordered to pay $45,000 in damages to the vic-
force members included several California state      tims. After the hacker was subsequently arrested
law enforcement agencies, the OIG, the Federal       on an unrelated drug charge and brought back
Bureau of Investigation, the Internal Revenue        before the same Texas court, probation was
Service, and the United States Secret Service.       revoked and the hacker was ordered to serve 2
The investigation is ongoing.                        years in jail for probation violations related to
                                                     the breach of computer security and aggravated
OIG TESTS SECURITY OF POSTAL                         theft charges, and to serve 5 years probation
ELECTRONIC INFRASTRUCTURE                            upon release from prison. The hacker subse-
     The OIG continued testing postal infor-         quently pled guilty to two additional breach of
mation systems to identify weaknesses that           computer security charges and was sentenced to
cyber criminals can exploit to impair the            an additional 30 days in jail and fined.
authenticity, privacy, integrity, and availability
of electronically stored and transmitted infor-      OIG PROPOSES COMPUTER
mation. When security holes are discovered,          SECURITY CLAUSES
the OIG investigates to determine whether the             The OIG proposed developing and includ-
vulnerabilities have been exploited and may          ing standard clauses in Postal Service contracts
refer such intrusions for criminal prosecution.      and agreements with its eCommerce business


                                                                                                           PAGE 69
                                      partners. These clauses would address standard      ENACTED LEGISLATION
                                      requirements regarding computer security,
                                      Privacy Act compliance, and access to contrac-      Public Law 106-398 - Government
                                      tor records, computers, and facilities by the       Information Security Reform Act
        DID YOU                       Postal Service and the OIG. The Postal                   The Government Information Security
        KNOW?                         Service’s recent eCommerce agreements have          Reform Act, enacted on November 30, 2000,
                                      not adequately addressed these issues or con-       provides a framework for ensuring the security
                                      tained the standard clauses found in the Postal     of federal information systems. It did so by
Does the OIG use a backup and         Service’s procurement manual. The Postal            amending the Paperwork Reduction Act of
                                      Service agreed with the OIG’s concerns and          1995, which is not specifically applicable to the
recovery system for its laptop        continues to refine the agreement language.         Postal Service. The Act requires the Postal
computers?                                                                                Service to report to Congress on its information
                                      OIG ASSISTS POSTAL SERVICE IN                       security policies. However, the Postal Service is
Yes. This technology allows           STRENGTHENING eCOMMERCE
                                                                                          not governed by other provisions of the Act.
employees to restore any files that   INFRASTRUCTURE
may have accidentally been delet-          The OIG assisted Postal Service
ed from their hard drive up to 90     Information Technology management in:
days ago. In addition, if an          ◆   Developing a Computer Incident
employee’s system crashes, or gets        Response Team to be a first-responder for
damaged, lost, or stolen, the             suspected computer intrusions. The team
                                          will perform initial assessments of sus-
complete system can be recovered
                                          pected computer intrusions and will noti-
without losing any data.                  fy the OIG of unauthorized intrusions in
                                          Postal Service systems.
                                      ◆   Revising the Postal Service computer
                                          security policy to ensure that the opera-
                                          tions and the integrity of eCommerce
                                          remain protected in the cyber crime
                                          environment.

                                      OIG CRIMINAL INVESTIGATOR
                                      ASSIGNED TO NATIONAL
                                      CYBERCRIMES CENTER
                                            The OIG assigned a criminal investigator
                                      to the FBI’s National Infrastructure Protection
                                      Center to keep abreast of trends in cyber crime
                                      and emergent cyber threats. The Center was
                                      established by the President in 1998 to serve as
                                      the federal government’s focal point for threat
                                      assessment, warning, investigation, and
                                      response for threats or attacks against America’s
                                      critical infrastructure. OIG participation in the
                                      Center will further assist the OIG in protecting
                                      postal computer systems from criminal attacks.
                                      LEGISLATIVE AND REGULATORY
                                      REVIEWS
                                          During this reporting period, the OIG
                                      identified the following legislation affecting
                                      Postal Service information technology.




                           PAGE 70    TECHNOLOGY REVIEWS
INSPECTION SERVICE
     The Inspection Service plays an important
role in the support of Postal Service eCommerce
initiatives and technical applications. The                       DID YOU
Inspection Service evaluates the need for and
processes security clearances of employees and
                                                                  KNOW...
contractors accessing postal systems or sensitive
information. The Inspection Service also moni-
                                                       On average, each household and
tors and reviews the physical security of individ-
ual systems before and after implementation.           business receives 1,500 pieces of
                                                       mail annually.
eCOMMERCE ACTIVITIES
     The Inspection Service monitors the devel-
opment of new postal electronic products and
services and consults with Postal Service man-
agers on the capabilities for security, loss preven-
tion, revenue protection, and data retention.
The Inspection Service has developed and con-
ducted training on computer crimes, particularly
those involving the Internet, and provides pro-
gram management and guidance to field divi-
sions conducting online investigations.
     The Inspection Service continues to review
security clearance requirements for all Postal
Service new electronic products, including:
eBillPay,™ NetPost,™ Mailing Online,™ and
NetPost Certified,™ and enterprise public key
infrastructure. The Inspection Service is evaluat-
ing the risks associated with contractor employ-
ees having access to sensitive customer
information and the appropriate security clear-
ance for those individuals.




                                                        PAGE 71
PAGE 72   TECHNOLOGY REVIEWS
Labor Management
Reviews




 OFFICE OF INSPECTOR GENERAL
      Violence in the Workplace Reviews
      Workplace Environment Reviews
      Human Resource Process Reviews
      Health Care Reviews
      Legislative and Regulatory Reviews

 INSPECTION SERVICE
      Workplace Safety Investigations
      Postal Robbery Investigations
      Drugs in the Workplace Investigations
      Workers’ Compensation Investigations



                                              PAGE 73
                                      This section highlights audits, reviews, and        period, the OIG completed 19 reviews of work-
                                      investigations performed by the OIG and             place violence issues, which are highlighted
                                      the Inspection Service in the labor manage-         below:
                                      ment area. Report numbers are shown in
         DID YOU                      parentheses after the narrative, as appro-
                                                                                          OIG REVIEWS OF VIOLENCE
                                                                                          PREVENTION PROGRAMS
         KNOW...                      priate. Also, the OIG legislative and regu-         IDENTIFY NEED FOR
                                      latory reviews are included at the end of           IMPROVEMENT
                                      this section. In order to differentiate the              OIG reviews of Postal Service’s violence
The Pony Express originally           work reported by the OIG and Inspection             prevention program in 19 postal districts dis-
charged $5 per letter. Rates          Service, the pages containing the work              closed that management generally followed the
                                      reported by the Inspection Service have             Postal Service’s Threat Assessment Team
were later reduced to $2 per
                                      been color screened.                                Guide; however, some controls designed to pre-
letter; later, under the Post
                                                                                          vent violence had not been fully implemented.
Office Department, mail was
                                                                                          Specifically, these reviews disclosed that
carried for only $1 per letter.       OFFICE OF INSPECTOR                                 although all 19 districts established threat
                                      GENERAL                                             assessment teams, the districts did not proac-
                                                                                          tively monitor and evaluate climate indicators

                                      T
                                              he Postal Service has characterized
                                              labor management as one of the most         and mandate violence awareness training. In
                                              important challenges in achieving its       addition, some districts did not conduct the
                                      goals in the 21st century. To operate effectively   required physical security reviews, measure team
                                      in a rapidly changing environment, the Postal       performance, and fully engage in case manage-
                                      Service recognizes the need to give employee        ment. The OIG recommended and Postal
                                      issues a higher priority and enhance each           Service management agreed to improve con-
                                      employee’s contribution to organizational per-      trols to prevent violence.
                                      formance. The OIG supports the Postal Service       (OIG LB-AR-01-001 through OIG LB-AR-
                                      in its overall goal of fostering an inclusive and   01-012; OIG LB-AR-01-015 and OIG LB-AR-
                                      welcoming workplace consistent with the Postal      01-016; OIG LC-AR-01-001 through OIG
                                      Service values of fairness, opportunity, safety,    LC-AR-01-003; OIG LC-AR-01-005 and OIG
                                      and security. The labor management area             LC-AR-01-006)
                                      includes issues involving workplace violence,       WORKPLACE ENVIRONMENT
                                      workplace environment, human resource               REVIEWS
                                      processes, and health care.                              The Postal Service believes that signs of
                                           While the OIG has worked diligently and        workplace stress are present and that compre-
                                      closely with the Postal Service and Congress to     hensive steps are needed to improve the work-
                                      address these issues, reviewing labor manage-       place environment, including aligning human
                                      ment areas continues to be one of the OIG’s         resources with business requirements. In addi-
                                      greatest challenges. The OIG has received over      tion, the Postal Service became subject to the
                                      3,100 individual labor management complaints        monetary penalties of the Occupational Safety
                                      since 1997. During this reporting period, the       and Health Act in September 1998. To assist
                                      OIG conducted 79 reviews and investigations         the Postal Service in this area, the OIG con-
                                      in the labor management area.                       ducted five reviews of workplace environment,
                                      VIOLENCE IN THE WORKPLACE                           three of which are highlighted below:
                                      REVIEWS
                                                                                          MANAGERS NOT HELD
                                           Recognizing that workplace stress contin-      ACCOUNTABLE FOR SAFETY
                                      ues to be an issue and comprehensive steps are      VIOLATIONS
                                      needed to improve the work environment, both            An OIG review found that local Postal
                                      the OIG and the Postal Service are dedicated to     Service management did not promptly cease
                                      preventing violence and consider early inter-       operations of unsafe mail processing equipment
                                      vention and cooperation with management and         or warn employees of safety hazards. As a result,
                                      employee groups essential. During this reporting    employees were exposed to potential hazards


                            PAGE 74   LABOR MANAGEMENT REVIEWS
including electrical shock and fire. In addition,    DEFICIENCIES FOUND IN EQUAL
the OIG found that managers responsible for          EMPLOYMENT OPPORTUNITY
the unsafe operation were not held accountable       SETTLEMENT PROCESS
for their actions. Postal Service management              An OIG review found that a former Postal
did not agree with our findings but stated they      Service executive settled an equal employment
would discipline some of the managers and issue      opportunity complaint filed against that
a directive to all districts reemphasizing the       executive, and authorized a $52,000 payment to
importance of complying with Postal Service          the individual who filed the complaint. The
safety policies. (OIG LB-AR-01-014)                  OIG recommended that current policy be
                                                     changed to require a higher-level review of
SAFETY AND HEALTH
INSPECTIONS IN THE PACIFIC                           Equal Employment Opportunity complaint set-
AREA NEED IMPROVEMENT                                tlements involving executives. Postal Service
     An OIG audit found that Postal Service          management agreed to take appropriate correc-
officials did not conduct all required safety        tive action. (OIG LB-AR-01-013)
inspections at postal facilities in the Pacific      ABANDONED PERSONNEL
Area. The lack of safety and health inspections      RECORDS FOUND
could put the Postal Service at risk for fines and         An OIG audit found records, which were
penalties by the Occupational Safety and             subject to the Privacy Act, abandoned on
Health Administration and expose employees           unused floors at a Southwest Area postal facil-
to possible injury and sickness. The OIG rec-        ity. These records included Equal Employment
ommended and Postal Service management               Opportunity complaints, payroll, recruiting,
agreed to conduct necessary inspections, and         and workers compensation files. In response to
establish a system to track when inspections are     OIG concerns that the records were not safe-
needed and ensure they are completed.                guarded, Postal Service officials directed custo-
(OIG LC-AR-01-004)                                   dians to remove and properly store active
ALLEGATIONS OF A HOSTILE                             records and dispose of inactive files.
WORK ENVIRONMENT                                     (OIG LB-LA-01-001)
CONFIRMED                                            HEALTH CARE REVIEWS
     An OIG review confirmed contentious
                                                           In FY 2000, the Postal Service paid over
labor management relations at a post office in
                                                     $670 million for employee injury claims, a $90
the Mid-Atlantic Area. Additionally, the
                                                     million increase over the $580 million paid in
review found that district officials were aware of
                                                     FY 1999. Controlling injury claims costs con-
the long-standing labor management problems;
                                                     tinues to be a key to the Postal Service’s finan-
however, past approaches to resolve these issues
                                                     cial well being because the Postal Service is
were unsuccessful. The OIG recommended and
                                                     self-insured for workers’ compensation costs and
Postal Service management agreed to develop a
                                                     makes payments out of operating funds, which
plan to improve the work environment at the
                                                     directly affects the Postal Service’s net income.
post office. (OIG LB-MA-01-001)
                                                           The OIG assists in protecting the health
HUMAN RESOURCE PROCESS                               and welfare of the Postal Service’s workforce by
REVIEWS                                              conducting audits and investigations to prevent
     Postal Service managers are responsible for     and detect fraud, waste, abuse, and mismanage-
preserving and protecting official records and       ment related to Postal Service health care pro-
privacy information. In addition, managers           gram costs. As part of its investigative program,
must avoid conflicts of interest, which could        the OIG has initiated proactive projects to
affect both the public’s trust and confidence in     identify improper billing practices, such as false
human resource processes. The OIG conducted          claims and false statements by health care
the following audits to assess controls over these   providers. During this reporting period, OIG
processes:                                           health care fraud investigations have resulted in
                                                     22 arrests, 19 indictments, and 9 convictions.




                                                                                                          PAGE 75
                                    Some activities are highlighted below:             LEGISLATIVE AND REGULATORY
                                    ◆ A two-year undercover multi-agency               REVIEWS
                                       investigation resulted in 11 arrests and            During this reporting period, the OIG
                                       indictments for violations related to
       DID YOU                         health care fraud. The investigation
                                                                                       identified the following legislation affecting
                                                                                       Postal Service labor management.
       KNOW?                           identified medical providers who routine-
                                       ly submitted claims for services not ren-       PROPOSED LEGISLATION
                                       dered, inflated fees to maximize insur-
                                       ance reimbursements regardless of med-          H.R.135 – A bill to require that the
Who controls the OIG’s                 ical necessity, and misrepresented services     same transit pass transportation fringe
documents and information?             rendered through widespread billing             benefits that are currently being offered
                                       manipulation, including workers’                to certain executive branch employees
The OIG controls its own records.
                                       compensation fraud.                             in the National Capital Region be
Requests for information pertain-
                                    ◆   As a result of a task-force investigation,     extended to other federal employees,
ing to OIG documents and infor-                                                        including Postal Service employees
                                        five individuals were arrested since the
mation go directly to the OIG.          last reporting period for violations related         This legislation would create a local travel
                                        to health care fraud. Two individuals,who      benefit subsidy, not to exceed $65 monthly, for
                                        were indicted, allegedly fabricated or         Postal Service employees in the Washington
                                        stole employee health insurance informa-       Metropolitan area. This benefit was extended
                                        tion from the Postal Service to generate       last year to nearly every federal employee in the
                                        and submit fraudulent medical claims.          region by executive order. This legislation
                                        These claims resulted in fraudulent pay-       would have an impact on the Postal Service’s
                                        ments to the individuals of $20 million.
                                                                                       finances and the additional costs could result in
                                    ◆   An unqualified individual who billed for       further postal rate increases.
                                        psychotherapy services provided to a
                                        Postal Service employee agreed to pay          H.R. 250 (companion bill: S.177) —
                                        restitution in a pre-trial diversion agree-    Postmasters Fairness and Rights Act of
                                        ment. To qualify for payment workers’          2001
                                        compensation psychotherapy services                 This bill would amend provisions of Title
                                        must be performed or supervised by a psy-      39, United States Code, relating to the manner
                                        chiatrist. A joint agency investigation        in which pay policies, schedules, and fringe ben-
                                        found that the individual, who was not a       efit programs for postmasters are established.
                                        psychiatrist, fraudulently billed for the      The legislation would require the Postal Service
                                        services as if they were provided or super-    to propose changes in pay policies, schedules,
                                        vised by a psychiatrist when they actually     and fringe benefit programs for postmasters
                                        were not. Of the $125,000 restitution          within 45 days of the date on which a collective
                                        paid almost $29,000 was returned to the
                                                                                       bargaining agreement is made with the largest
                                        Postal Service.
                                                                                       postal union. The bill provides for binding arbi-
                                    ◆   The OIG participated in a joint investi-       tration if the postmasters and the Postal Service
                                        gation involving the diversion of rejected     are unable to reach agreement.
                                        or substandard pharmaceuticals to health            The bill also defines “postmaster” and
                                        care providers. The investigation resulted     “postmasters’ organization” and gives the post-
                                        in five arrests and four indictments dur-
                                                                                       masters’ organization the right to participate in
                                        ing the reporting period. The investiga-
                                                                                       the planning and development of pay policies
                                        tion disclosed that pharmaceuticals,
                                                                                       and schedules, fringe benefit programs, and
                                        which were rejected after failing quality
                                        control tests, were stolen from their place    other programs relating to supervisory and other
                                        of manufacture and sold to a suspected         managerial employees. This legislation would
                                        drug trafficker. The trafficker resold the     have an impact on Postal Service negotiations
                                        pharmaceuticals to pharmacies and other        with management associations.
                                        health care providers used by Postal Ser-
                                        vice employees.




                         PAGE 76    LABOR MANAGEMENT REVIEWS
H.R. 1049 — A bill to amend Chapter                  costs for the Postal Service could be later offset
89 of Title 5, United States Code, to                by savings in the record-keeping process.
make available to federal employees the              Implementation of this rule was postponed
option of obtaining health benefits cov-             pending completion of a presidentially man-
erage for dependent parents                          dated review. The OIG will continue to moni-
     This bill will establish a third enrollment     tor this rule and will take appropriate steps to
category for federal employees participating in      follow implementation of the rule if it goes into
the federal health benefit plan—that of “self        effect on January 1, 2002.
and extended family.” It defines extended fam-
                                                     Ergonomics Program Standard, Final
ily to include a dependent parent of the
                                                     Rule, Occupational Safety and Health
enrolled employee.
                                                     Administration, Federal Register,
     Under the Postal Reorganization Act,
                                                     November 14, 2000, Repealed by Pub-
Congress gave the Postal Service broad author-
                                                     lic Law 107-5
ity to set employee compensation and terms of
                                                           Congress recently voted to repeal new
employment. Most laws dealing with federal
                                                     workplace ergonomics regulations issued by
employees do not apply to the Postal Service.
                                                     the Occupational Safety and Health
However, by statute, Postal Service employees
                                                     Administration. Issued at the close of the
are covered under the federal health benefit
                                                     Clinton Administration and set to take effect in
programs. The Postal Service pays a higher por-
                                                     October 2001, the new regulations would have
tion of the premiums than other federal agen-
                                                     required employers to design workplace
cies because of its collective bargaining
                                                     routines to guard against repetitive motion
agreements with the employee unions.
                                                     injuries, such as carpal tunnel syndrome. The
     Adding dependent parents to postal
                                                     Occupational Safety and Health Administration
employees’ health plans may result in higher
                                                     estimated compliance costs to be $4.5 billion
premiums. Health insurance premiums are an
                                                     nationally, but that figure was widely contested.
expense to the Postal Service, and are higher
                                                     The Postal Service estimated that implement-
than in other federal agencies. This legislation
                                                     ing the rules might have cost over $3.4 billion
would have an impact on Postal Service
                                                     in the first year and $1.5 billion per year there-
finances and could result in further postal rate
                                                     after. While the Occupational Safety and
increases.
                                                     Health Administration is not precluded from
FINAL REGULATIONS                                    issuing new regulations on this matter, it may
                                                     not re-issue the same regulations as those that
Occupational Injury and Illness                      were repealed. The OIG will continue to mon-
Recording and Reporting Requirements                 itor further developments with this issue.
Final Rule, Department of Labor,
Occupational Health and Safety                       Standards for Privacy of Individually
Administration, Federal Register,                    Identifiable Health Information, Final
January 19, 2001                                     Rule, Department of Health and
     This rule revises the procedure for record-     Human Services, Federal Register,
ing and reporting occupational injuries and ill-     December 28, 2000
nesses, including the forms employers use to              This rule sets forth standards to protect the
record those injuries and illnesses. The objec-      privacy of an individual’s medical records, out-
tives of the rule are to produce more useful         lines procedures for accessing these records, and
records, collect better information, simplify the    delineates the authorized uses and disclosures of
recordkeeping process, make better use of tech-      such information. Because it targets only health
nology, and to promote employee awareness            care providers, health plans, and their adminis-
and involvement in occupational safety.              trative contractors, the rule would not apply to
     Implementing a new reporting system             the Postal Service. However, it may have an
throughout the Postal Service could increase         impact on OIG operations. For example, the
costs. However, if the efficiencies anticipated by   rule specifically states that it shall not be con-
the rule are realized, any initial implementation    strued to limit the authority of any Inspector


                                                                                                          PAGE 77
          General, but there is a concern that the excep-
          tion language is not sufficiently clear. This,
          when read in conjunction with other restrictive
          provisions of the rule, could lead health care
          providers to refuse OIG access to an individual’s
          medical records. The OIG will continue to
          monitor further developments on this rule.




PAGE 78   LABOR MANAGEMENT REVIEWS
                                                         room to a Federal prison term of 272
INSPECTION SERVICE                                       months followed by 5 years supervised
     The Inspection Service reviews a number             probation for his role in the 1999 armed
of labor management relations areas, including           robbery of a postal employee. A co-
workplace safety, postal robberies, drugs in the         defendant was previously sentenced to a
                                                         term of 141 months in prison.
                                                                                                                     DID YOU
workplace, and workers’ compensation investi-
gations involving individual Postal Service
                                                                                                                     KNOW...
                                                     DRUGS IN THE WORKPLACE
employees.
                                                     INVESTIGATIONS
WORKPLACE SAFETY                                          Postal Inspectors investigate the posses-       Walt Disney was a substitute
INVESTIGATIONS                                       sion, personal use, and sale of narcotics by         carrier and former presidents
     The Inspection Service is committed to          Postal Service employees or others while on          Abraham Lincoln and Harry
employee safety in the workplace, and partners       postal property. Information regarding the pos-      S. Truman were postmasters.
with Postal Service management and employee          session or personal use of illegal drugs by postal
groups in early interventions and other efforts      employees is referred through Postal Service
to prevent violence in the workplace. There          management to the Employee Assistance
were 190 arrests and 148 convictions for             Program for attention. In the last six months,
assaults and threats in this reporting period.       Postal Inspectors arrested 32 individuals for the
Examples of significant investigations follow:       sale of drugs on postal property.
◆   An individual was sentenced to 14 years          ◆   In January, a part time flexible postal car-
    and 6 months in prison for the shooting              rier in Illinois was sentenced to two years
    of a city carrier. The individual was also           and six months probation, with fines and
    ordered to pay restitution to the Postal             restitution in the amount of $620 for
    Service over $261,000 to cover the cost              possession of cocaine with the intent to
    of the employee’s medical expenses.                  deliver. The carrier sold drugs while in
◆   An individual was sentenced to 10                    uniform and on official duty.
    months in prison for the attempted               ◆   Working with U.S. Customs Service
    abduction and sexual assault of a city let-          agents, Postal Inspectors intercepted an
    ter carrier. At the time of this assault, the        Express Mail parcel shipped from Colum-
    individual was on probation for a prior              bia to Connecticut. The parcel was
    abduction and assault conviction.                    found to contain one pound and ten
                                                         ounces of cocaine. The parcel was deliv-
POSTAL ROBBERY                                           ered and a federal search and arrest war-
INVESTIGATIONS                                           rant executed. A loaded handgun was
     The Inspection Service regards the preven-          found in the individual’s residence. In
tion of robberies as one of its highest organiza-        January, an indictment was returned
tional priorities and affords task force attention       charging the individual with importation
to facility, letter carrier, and other postal rob-       of cocaine, attempted possession of
beries to deter these attacks on employees.              cocaine with intent to distribute and
Letter carrier robberies are generally committed         possession of a firearm as a prohibited
for the purpose of stealing mail and postal keys         person. Each of the drug charges carries a
                                                         mandatory minimum 5 year prison sen-
to mail receptacles while robberies of facilities
                                                         tence and the firearm charge carries a 10
are committed for cash and money orders. The
                                                         year prison sentence.
total number of robberies this six month period
is down compared to the same period last year.       ◆   Postal Inspectors arrested a Bulk Mail
There have been 45 arrests and 41 convictions            Center mail handler, who was charged
                                                         with possession and delivery of
this reporting period related to robberies com-
                                                         marijuana while on duty at the local
pared to 32 and 55 , respectively, for the same
                                                         Bulk Mail Center.
period last year. An example of an investigation
follows:                                             WORKERS’ COMPENSATION
◆   In November 2000, an individual was              INVESTIGATIONS
    sentenced in a North Carolina court-                 The Inspection Service assists the OIG by


                                                                                                           PAGE 79
                                    investigating fraudulent claims and receipt of
                                    workers’ compensation benefits by individual
                                    employees. Unlike other federal agencies, these
                                    claims are paid from postal revenues, thereby
        DID YOU                     affecting the Postal Service’s net income.
        KNOW?                       Prosecution of workers’ compensation fraud
                                    serves as a deterrent and prevents future benefit
                                    payments from being made to violators.
To whom does the OIG report         Normally, prosecution is based on showing that
                                    the allegedly disabled claimant is receiving out-
information?                        side earnings and failing to report them to the
The OIG is required by law to       Department of Labor.
keep the Governors and Congress          Inspection Service investigations resulted
fully and currently informed.       in over $53 million in long-term and continua-
The OIG also reports its findings   tion-of-pay cost savings for this reporting
                                    period, compared to over $66 million for the
and issues to postal management
                                    same period last year. In the last six months, 15
so that they can take appropriate
                                    individuals were arrested for workers’ compen-
and timely action to improve the    sation fraud.
efficiency and effectiveness of
                                    ◆   A former Ohio mail handler was sen-
postal programs and operations.         tenced in February to one year in prison
                                        and three months probation for failure to
                                        report income and misrepresenting a
                                        physical condition while receiving work-
                                        ers’ compensation benefits. The former
                                        employee received these benefits for 31
                                        years. The investigation revealed that the
                                        former employee had worked as a restau-
                                        rant manager and was being paid “under
                                        the table.” As a result of the investiga-
                                        tion, the Postal Service realized over
                                        $347,000 in future cost savings.
                                    ◆   In March, a former Georgia carrier was
                                        sentenced to six months in prison, three
                                        years and two months home detention,
                                        and a $200 penalty assessment. The for-
                                        mer carrier had been on the periodic rolls
                                        since 1994 for a traumatic left wrist
                                        injury and a subsequent claim in 1995 for
                                        carpal tunnel to the right wrist. The
                                        Department of Health and Human Ser-
                                        vices partnered with the Inspection Ser-
                                        vice because this individual also received
                                        social security disability benefits for the
                                        alleged injuries. The investigation result-
                                        ed in court ordered restitution of over
                                        $45,000 and the Postal Service realized
                                        over $841,000 in future cost savings.




                          PAGE 80
Oversight of the
Inspection Service




 OFFICE OF INSPECTOR GENERAL
      Oversight Reviews
      Legislative and Regulatory Reviews




                                           PAGE 81
                                                                                                  statistics so that each organization receives
                                             This section highlights audits, reviews,
                                                                                                  appropriate credit. The OIG believes it is
                                             and investigations performed by the OIG
                                                                                                  important to include both organizations’ statis-
                                             in conducting its oversight of the Inspec-
                                                                                                  tics because some Inspection Service activities
                                             tion Service. Report numbers are shown
                                                                                                  involve fraud, waste, and abuse.
                                             in parentheses after the narrative, as
                                                                                                        The Inspection Service has 4,300 employ-
                                             appropriate. Also, the OIG legislative
                                                                                                  ees including 2,000 Postal Inspectors who are
                                             and regulatory reviews are included at
                                                                                                  criminal investigators, and 1,400 Postal Police
                                             the end of this section.
                                                                                                  Officers. The Inspection Service also operates
                                                                                                  five forensic science laboratories. The agency’s
                                                                                                  annual budget for FY 2001 is $465 million,
                                            OFFICE OF INSPECTOR                                   including salary and benefits and nonpersonnel
                                            GENERAL                                               expenses. During this reporting period, the
                                                                                                  Inspection Service reported 6,379 arrests and

                                            O
                                                      ne of the primary reasons the OIG
                                                      was established within the Postal           over $407 million in fines and restitutions.
                                                      Service was to provide oversight of all     OVERSIGHT REVIEWS
                                            Inspection Service activities. The Inspector
                                                                                                        As a law enforcement agency, it is essential
                                            General Act as amended provides for the OIG
                                                                                                  that the Inspection Service be held to the high-
                                            to conduct, supervise, coordinate, and provide
                                                                                                  est standards of conduct to maintain the public’s
                                            policy direction for investigations, including
                                                                                                  trust and the Postal Service’s reputation of reli-
                                            those of the Inspection Service, relating to the
                                                                                                  ability. During the last six months, the OIG
                                            programs and operations of the Postal Service.
                                                                                                  focused on security issues impacting the Postal
                                                 In addition, the 1996 amendment of the
                                                                                                  Service, the appropriate use of Postal Police
                                            Inspector General Act provided specific
                                                                                                  Officers, and the international travel and over-
                                            “oversight responsibility for all activities of the
                                                                                                  seas assignments of Postal Inspectors. During
                                            Postal Inspection Service, including any inter-
                                                                                                  this reporting period, the OIG completed 19
                                            nal investigations performed by the Postal
                                                                                                  oversight reviews, as well as numerous monitor-
                                            Inspection Service.” This additional authority
                                                                                                  ing actions, some of which are highlighted
                                            means that any and all activities of the Postal
                                                                                                  below:
                                            Inspection Service are subject to the OIG’s
                                            scrutiny and review, except as it may be limited      ENHANCED SECURITY BADGE
                                            by the Governors, for specified reasons and with      CONTROLS NEEDED
                                            notification to Congress.                                  An OIG review determined that building
                                                 The OIG’s oversight efforts provide an           access controls at Postal Service Headquarters
                                            independent voice with objective information          could be improved. Specifically, Postal Police
                                            and analyses of Inspection Service operations         Officers did not request photo identifications
                                            and issues. In addition, the OIG keeps the            from all personnel with temporary badges enter-
                                            Governors, Congress, and postal stakeholders          ing the Headquarters building because
Postal Police Officers, the uniformed
                                            fully informed of Postal Service law enforce-         Inspection Service management required only
branch of the Postal Service, provide
access security at postal facilities. The   ment efforts to detect and prevent fraud, waste,      spot checks of photo identifications. As a result,
OIG review of security badge controls       abuse, and mismanagement, by reporting the            there was an increased risk that unauthorized
should further enhance the security at      activities of the OIG and the Inspection              personnel may have been admitted into Postal
postal facilities.                          Service.                                              Service Headquarters. Inspection Service man-
                                                 Finally, the OIG works with the Inspection       agement agreed with our observations and
                                            Service to ensure that all relevant Inspection        stated that they would work with Postal Service
                                            Service statistics are accurate, complete and         management to ensure that photo identifica-
                                            included in OIG publications such as the              tions would be reviewed for all persons holding
                                            Semiannual Report to Congress and the                 temporary nonphoto badges during the modifi-
                                            President’s Council on Integrity and Efficiency’s     cation of existing systems and the implementa-
                                            Annual Report to the President. The OIG indi-         tion of new security systems at field locations.
                                            cates which organization is responsible for the       (OIG OV-LA-01-001)


                                 PAGE 82    OVERSIGHT OF THE INSPECTION SERVICE
FULL COST SHOULD BE                                   the Inspection Service. At the same time, the
RECOVERED FOR POSTAL POLICE                           OIG provides the Inspection Service with an
OFFICERS USED ON                                      unbiased review of accusations that, if left unre-
CONSTRUCTION PROJECT                                  solved, could harm its reputation as a profes-
     Postal Police Officers were used for traffic     sional law enforcement agency.
and pedestrian control on postal property                  Over the past six months, the OIG closed
impacted by the Massachusetts Highway                 16 Congressional inquiries and 8 Hotlines
Department’s Central Artery/Tunnel construc-          related to the Inspection Service. The inquiries
tion project. The OIG review found that Postal        resulted from complaints made by Postal
Service and Inspection Service officials acted        Service and Inspection Service employees, and
within the scope of their authority when per-         the general public concerning a variety of issues
forming these services; however, they needed to       including the inadequate conduct and selection
improve the billing process for postal police ser-    of investigations. Examples of Congressional
vices.                                                and Hotline inquiries are highlighted below:
     Specifically, Postal Service officials did not   ◆   An OIG review determined that an alle-
bill the Massachusetts Highway Department                 gation that the Inspection Service failed
using current rates or for indirect expenses asso-        to properly investigate a mail-tampering
ciated with services provided. The audit further          incident was unsubstantiated. However,
revealed that controls were not in place to               based in part on the allegation that cor-
ensure the highway department was billed for              respondence submitted as evidence was
total labor hours worked and that all payments            never returned, the OIG has planned an
were received. The OIG suggested and                      audit of Inspection Service evidence
Inspection Service management agreed to seek              handling.
reimbursement for an additional $26,000 from          ◆   The OIG reviewed an allegation that
the Highway Department and to adjust labor                Postal Service and Inspection Service
rates to include indirect expenses.                       management were not responsive to a
(OIG OV-MA-01-001)                                        claim of a hostile work environment.
                                                          The OIG determined that it was unsub-
DOCUMENTED APPROVAL AND                                   stantiated. However, based in part on
JUSTIFICATION NEEDED FOR                                  this information, the OIG initiated an
INSPECTION SERVICE                                        audit of the Inspection Service’s support
INTERNATIONAL TRAVEL                                      to Postal Service threat assessment
      An OIG audit disclosed that the                     teams, which included an assessment of
Inspection Service could not provide evidence             the Inspection Service’s efforts in reduc-
that all international travel was properly                ing workplace violence.
approved and justified for fiscal years 1997-         ◆   The OIG reviewed a Hotline allegation
2000. Although international travel practices             that the Inspection Service was inappro-
could be improved, we found that international            priately conducting surveillance of a for-
assignments of Postal Inspectors were in the              mer Postal employee and the employee’s
best interest of the Postal Service. The OIG              family. The individual threatened to take
recommended and the Chief Postal Inspector                legal actions if the surveillance did not
agreed to establish additional controls to ensure         stop. The OIG investigated the allega-
that international travel requests are properly           tion and found that another federal
justified and approved prior to the travel.               agency had conducted the surveillance.
(OIG OV-AR-01-001)                                    ◆   An OIG review found that a Hotline
                                                          allegation concerning Postal Inspectors          The OIG Hotline poster must be posted in all Postal
REVIEW OF COMPLAINTS                                                                                       facilities.
                                                          sponsoring “beer parties” using
REGARDING THE INSPECTION
SERVICE                                                   Inspection Service funds was unsubstan-
                                                          tiated. The allegation, if true, would
    The OIG’s oversight of the Inspection
                                                          have been a violation of postal policy.
Service provides customers, employees, and                The investigation revealed that Postal
other interested persons with an independent              Inspectors annually sponsored a hospital-
avenue to address their complaints regarding              ity room during a Sheriff’s Conference,

                                                                                                            PAGE 83
              and served food and beverages at their          of the results of Inspection Service internal
              own personal expense.                           investigations to ensure they are performed in a
                                                              consistent and fair manner and in accordance
          MONITORING INSPECTION                               with best practices in the federal law enforce-
          SERVICE INTERNAL                                    ment community.
          INVESTIGATIONS
               The OIG’s Oversight Team is responsible        LEGISLATIVE AND REGULATORY
          for monitoring internal investigations of
                                                              REVIEWS
          Inspection Service non-executive employees               During this reporting period, the OIG
          performed by the Inspection Service. These          identified the following legislation affecting the
          investigations are conducted when allegations       mission of the Inspection Service.
          of employee misconduct affect the performance       PROPOSED LEGISLATION
          of duties or when managers have information of
          employee misconduct. The OIG’s Oversight            S. 118 - Fruit, Vegetable, and Plant
          Team continually reviews the results of internal    Smuggling Prevention Act of 2001
          investigations, including conclusions reached            This bill will strengthen the penalties for
          and recommended actions. Internal investiga-        violating plant quarantine laws, including
          tions reviewed this period include the inappro-     plants sent through the mail. The bill also pro-
          priate use of official position, accidental         vides for the forfeiture of any property used by a
          discharge of a duty weapon, loss of investigative   person in committing a plant quarantine felony,
          funds, and an accident in a law enforcement         or any real or personal property acquired with
          vehicle while a postal inspector was under the      proceeds derived by violating the plant quaran-
          influence of alcohol.                               tine law. When this property is sold, the proceeds
               At the beginning of the reporting period,      can be used to reimburse the Postal Service for
          the Inspection Service had 49 open internal         any costs incurred to initiate and complete the
          investigations. During the reporting period, 27     forfeiture proceeding. This legislation would
          cases were closed and 20 new cases were             benefit the Postal Service by providing addi-
          opened. As of March 31, 2001, 42 cases remain       tional revenue and ensuring the security and
          open. During this fiscal year, the OIG plans to     sanctity of the mail.
          establish a program to perform a quality review




PAGE 84   OVERSIGHT OF THE INSPECTION SERVICE
Other Significant
Reviews




 OFFICE OF INSPECTOR GENERAL
      Executive Investigations
      Support Operations Reviews
      Legislative and Regulatory Reviews

 INSPECTION SERVICE
      Prohibited Mail Investigations
      Physical Security Activities
      Narcotics Offenses and Trafficking Investigations
      Child Exploitation Investigations
      Postal Burglary Investigations
      Mail Fraud Investigations
      Money Laundering Investigations

                                              PAGE 85
                                                                                          reviews in this area, which are highlighted
                                    This section highlights reviews and inves-
                                                                                          below:
                                    tigations performed by the OIG and the
                                    Inspection Service in other significant               CONTROLS OVER SIGNATURE
       DID YOU                      areas. Also, the OIG legislative and regu-
                                    latory reviews are included at the end of
                                                                                          DEVICES INADEQUATE
                                                                                               At the request of the Board of Governors,
       KNOW...                      this section. In order to differentiate the           the OIG audited controls over signature devices
                                    work reported by the OIG and Inspection               used by Postal Service officers. Devices such as
                                    Service, the pages containing the work                signature machines and signature stamps are
The Postal Service has developed    reported by the Inspection Service have               used when postal officers are absent for
a delivery network of over          been color screened.                                  extended periods. The audit revealed that con-
235,000 mail routes.                                                                      trols over signature devices were not adequate
                                                                                          to prevent unauthorized use of these devices on
                                   OFFICE OF INSPECTOR                                    official documents. Postal Service management
                                   GENERAL                                                agreed to develop policies and procedures rec-
                                                                                          ommended by the OIG to improve controls


                                   T
                                           he OIG has completed 40 investigative          over signature devices. However, while policies
                                           efforts and reviews of other significant       are being developed, Postal Service manage-
                                           issues related to Postal Service operations.   ment decided to continue using signature
                                   EXECUTIVE INVESTIGATIONS                               devices on a limited basis.
                                        The OIG is responsible for reviewing alle-        (OIG OS-AR-01-001)
                                   gations involving Postal executives for criminal       NEW INDEMNITY CLAIMS
                                   violations and misconduct, including retaliation       SYSTEM IMPROVES CUSTOMER
                                   against individuals who have previously pro-           SERVICE
                                   vided the OIG with information about possible               The OIG reviewed the Postal Service’s
                                   fraud, waste, abuse, and mismanagement. This           efforts to redesign its indemnity claims system.
                                   reporting period, the OIG completed 26 execu-          The Postal Service redesigned this system
                                   tive investigations, two of which are high-            because of lengthy claims processing times,
                                   lighted below:                                         which resulted in poor customer service and lost
                                   IMPROPER USE OF POSTAL                                 revenue to commercial insurance services. The
                                   VEHICLES BY POSTAL EXECUTIVE                           OIG found that controls over the redesigned
                                                                                          claims process were generally adequate; how-
                                        An OIG investigation disclosed that over a
                                                                                          ever, customer service, product tracking, record
                                   period of four years, an area executive was
                                                                                          retention, and the reliability of insurance claims
                                   frequently transported by postal employees from
                                                                                          data could be improved. The OIG suggested
                                   the executive’s residence to the workplace in
                                                                                          and Postal Service management agreed to han-
                                   postal vehicles. In lieu of being transferred, the
                                                                                          dle customer inquiries and to determine the fea-
                                   executive retired.
                                                                                          sibility of modifying the product tracking
                                   POSTAL EXECUTIVE SUBMITS                               system. Management disagreed with the OIG’s
                                   FRAUDULENT RELOCATION                                  suggested record retention period; however,
                                   VOUCHER                                                they proposed a satisfactory alternative.
                                        An OIG investigation determined that an           (OIG OS-MA-01-001)
                                   area executive submitted a fraudulent reloca-
                                   tion expense voucher in an amount over
                                                                                          LEGISLATIVE AND REGULATORY
                                                                                          REVIEWS
                                   $3,000. The executive retired and was required
                                   to repay the amount of the fraudulent expense.              During this reporting period, the OIG also
                                                                                          identified the following significant legislation
                                   SUPPORT OPERATIONS REVIEWS                             affecting the Postal Service.
                                        The OIG is responsible for reviewing
                                   Postal Service support operations such as gov-
                                   ernment relations and customer service. During
                                   this reporting period, the OIG conducted two


                         PAGE 86   OTHER SIGNIFICANT REVIEWS
ENACTED LEGISLATION                                  Privacy Act of 1974, Implementation,
                                                     Proposed Rule, Postal Service, Federal
Public Law 106-422 - Amending the                    Register, December 27, 2000
Inspector General Act of 1978                             This proposed rule modifies existing regu-
     This law established a Criminal                 lations to exempt the OIG Investigative File
Investigator Academy and an Inspectors               System from certain provisions of the Privacy
General Forensic Laboratory within the               Act and corresponding agency regulations in
Department of the Treasury. The Academy will         order to prevent disclosures that may compro-
train investigators working in the OIG commu-        mise investigations or violate the privacy of
nity. The laboratory will perform forensic ser-      third parties. This rule is central to preserving
vices for the OIG community. Training for            the integrity of information contained in inves-
existing and newly hired agents is essential for     tigative files. The exemption has been previ-
maintaining a high level of investigative exper-     ously published in the Postal Service’s
tise and professionalism. The OIG community          Administrative Support Manual, Appendix
will benefit by having its own training academy      Section 300.010. Disclosure of information
and forensics lab. The legislation also authorizes   otherwise covered under these exemptions
annual appropriations for these establishments.      could alert a subject to the fact that he or she is
                                                     the target of an investigation. This could com-
PROPOSED LEGISLATION
                                                     promise investigation and evidence, endanger
H.R. 44 - Inspector General Act                      the witnesses or law enforcement personnel, or
Amendments of 2001                                   intrude upon the personal privacy of the third
     This bill would amend the Inspector             parties.
General Act of 1978 to increase the efficiency
and accountability of OIGs within federal                                                                  The Reports Processing staff prepares
departments. The bill specifies reporting                                                                  and finalizes electronic and print
                                                                                                           versions of all OIG reports.
requirements, prohibits the receipt of any cash
award or cash bonus by an Inspector General;
increases the rate of pay of Inspectors General to
offset the prohibition against bonus and awards;
and provides for an external review of OIGs at
least every three years by the General
Accounting Office or a private entity.
     In addition, the legislation changes the
Congressional reporting requirement from semi-
annually to annually, although, a Congressional
oversight committee or the Comptroller
General may request a semiannual report. A
final provision calls for a study by the
Comptroller General to determine whether any
OIGs should be consolidated.




                                                                                                            PAGE 87
                                     INSPECTION SERVICE                                   ◆   The Inspection Service kicked off a secu-
                                                                                              rity messaging program on Postal Service


                                     T
                                             he Inspection Service conducted
                                                                                              television. The campaign is designed to
                                             numerous investigations and reviews
       DID YOU                               relating to significant issues in the fol-
                                                                                              encourage postal employees to get per-
                                                                                              sonally involved in workplace security.
       KNOW?                         lowing areas: prohibited mail; physical security;
                                     narcotics offenses and trafficking; child
                                                                                              Employees are being asked to wear their
                                                                                              identification badges and politely chal-
                                     exploitation; postal burglaries; mail fraud              lenge strangers in postal facilities to
                                     including fraud against consumers, fraud against         ensure that they are properly secure. The
Why does the Office of
                                     businesses, fraud against government; and                Postmaster General and the Chief Postal
Inspector General review             money laundering.                                        Inspector jointly signed a letter to all
proposed legislation,                                                                         postal employees explaining this cam-
                                     PROHIBITED MAIL
                                                                                              paign. In March, post offices began to
regulations, and policy?             INVESTIGATIONS
                                                                                              receive a copy of the new Poster 66 on
Section 4 of the Inspector Gener-         The Inspection Service considers the                workplace security.
                                     investigation of mail bombs among its highest
al Act requires the Office of                                                             ◆   The Inspection Service Division has
                                     priorities. In the last six months, Postal
Inspector General to review all                                                               been responsible for coordinating and
                                     Inspectors arrested 33 individuals and convicted
proposed legislation, regulations,                                                            implementing the rollout of MARIA
                                     22 defendants for their involvement in inci-
                                                                                              2000 worldwide. This program enables
and policies and make recommen-      dents related to mail bombs and bomb threats.            countries to identify high loss route seg-
dations to the Postal Service.       These include threats against postal facilities,         ments by comparing the effects of various
                                     placement of hoax devices and other suspicious           routings with documented mail losses
                                     items in the mail, and bombs and devices placed          and thefts. The program supports our cus-
                                     in private mail receptacles. Examples of signifi-        tomer confidence initiatives by identify-
                                     cant investigations follow:                              ing international mail loss trends, which
                                                                                              have an adverse effect on customers,
                                     ◆   Three members of a gun smuggling ring
                                                                                              since over 40 percent of the world’s inter-
                                         that hid more than 100 guns inside chil-
                                                                                              national mail originates in the United
                                         dren’s toys and electronics gear and then
                                                                                              States.
                                         shipped the guns to Ireland were arrested
                                         in Florida and sentenced to five years in
                                                                                          NARCOTICS OFFENSES AND
                                         prison.
                                                                                          TRAFFICKING INVESTIGATIONS
                                     ◆   The writer of a threatening letter that                The Inspection Service interdicts mailings
                                         was sent through the U.S. mail was sen-
                                                                                          of illegal drugs and drug proceeds to protect
                                         tenced to 10 months in prison and 3
                                                                                          postal employees from violence related to drug
                                         years probation. In the letter, the writer
                                                                                          trafficking and to preserve the integrity of the
                                         threatened to sexually abuse the young
                                                                                          mail. Postal Inspectors, working with other law
                                         child to whom the letter was mailed as
                                         well as the child’s father, mother, and          enforcement agencies, arrested 843 individuals
                                         grandmother.                                     during this semiannual period for drug traffick-
                                                                                          ing and money laundering via the mail. Seizures
                                     PHYSICAL SECURITY ACTIVITIES                         from the mail for this period included over
                                          The Inspection Service devotes significant      5,700 pounds of illegal narcotics and about
                                     resources to prevent crimes by conducting            170,000 units of steroids. Investigations also
                                     employee and customer awareness training pro-        resulted in the seizure of over $1.8 million in
                                     grams and implementing security measures.            cash and monetary instruments, 9 vehicles, and
                                     Potential problems and deficiencies are identi-      54 firearms. Examples of significant investiga-
                                     fied and priorities set based on trend analyzes of   tions follow:
                                     criminal activity. When trends are identified,       ◆   A major figure in a heroin conspiracy
                                     prevention and security measures are developed           ring who mailed heroin from California
                                     to reduce or eliminate the risk of criminal activ-       to Iowa was found guilty in an Iowa
                                     ity against the mail, the Postal Service, and its        federal court and stands to receive in
                                     employees.                                               excess of 40 years in prison.


                          PAGE 88    OTHER SIGNIFICANT REVIEWS
◆   Three former California processing and           POSTAL BURGLARY
    distribution employees were indicted by a        INVESTIGATIONS
    federal grand jury and subsequently                   The Inspection Service employs sophisti-
    arrested by Postal Inspectors for
                                                     cated burglary prevention techniques and
    possession and distribution of
                                                     detection devices to make postal facilities less
    methamphetamine.
                                                     vulnerable to attack. Burglaries may result in
CHILD EXPLOITATION                                   property losses, mail thefts, and repair expenses
INVESTIGATIONS                                       for damage to postal facilities as a result of
      Postal Inspectors employ proactive inves-      forced entries. In the last 6 months, there were
tigative techniques to identify and bring to jus-    74 arrests and 72 convictions related to burglar-
tice individuals who use the mail to distribute or   ies compared to 90 arrests and 85 convictions
knowingly receive child pornography. During          for the previous reporting period. Examples of
this reporting period, 72 child pornographers        significant investigations follow:
were identified and stopped as a result of the       ◆   In October 2000, an individual was sen-
Inspection Service’s efforts to rid the mail of          tenced to life imprisonment without the
child pornography. In addition, 75 children              possibility of parole for robbing a postal
were rescued from further incidents of ongoing           facility. This sentence was based on a
child sexual abuse, and three other previously           federal “three strikes” law and followed
victimized children were identified. Postal              the subject’s earlier conviction in 1995
Inspectors nationwide are investigating 636              for the robbery of a letter carrier and the
cases involving child exploitation.                      attempted murder of a witness to this
      During this reporting period, Inspection           robbery.
Service efforts have resulted in 179 arrests and     ◆   An individual was sentenced to 11 years
126 convictions. Some of the more significant            and 6 months in prison, 5 years proba-
child exploitation cases are highlighted below:          tion, and ordered to pay restitution over
                                                         $8,200 for the armed robbery of a
◆   In a joint federal criminal investigation,
                                                         California post office and the attempted
    Postal Inspectors in Texas arrested and
                                                         robbery of another California post office.
    convicted a husband and wife team on
    88 counts of conspiring with an                  ◆   An individual was sentenced to 9 years
    international webmaster to distribute and            and 7 months in prison, and 5 years pro-
    possess child pornography. In this inves-            bation for involvement in the armed rob-
    tigation, which is believed to be the                bery of a New Jersey post office, two
    largest case of commercialized child                 bank robberies, and the robbery of a jew-
    exploitation ever encountered in the his-            elry store.
    tory of U.S. law enforcement, the sub-
    jects made a profit of over $1 million.          MAIL FRAUD
                                                     INVESTIGATIONS
◆   A South Carolina individual was sen-
                                                          Postal Inspectors protect postal customers,
    tenced to nine years in prison for traf-
    ficking in child pornography by mail and         business mailers, and local, state, and federal
    the Internet. This investigation by the          governments from schemes involving invest-
    Inspection Service found that the subject        ments, insurance, Medicare/Medicaid fraud,
    had been continually molesting a minor           telemarketing, loans, and merchandise misrep-
    daughter.                                        resentations. The elderly and disadvantaged
                                                     individuals who depend on mail delivery for
◆   Postal Inspectors arrested a husband and
    wife and charged them with possession of         purchases are particularly susceptible to fraudu-
    child pornography. This investigation            lent schemes. These citizens trust the Postal
    began after the couple mailed film to a          Service to maintain the integrity of the mail
    commercial film developer that depicted          while opportunists take advantage of the
    minor females being sexually abused. A           anonymity the mail offers. Postal Inspectors are
    search of the couple’s residence disclosed       currently conducting over 3,500 mail fraud
    a large quantity of child pornography and        investigations. As a result, 937 individuals were
    the identification of the children who           arrested and 756 individuals were convicted.
    were being molested.                             Examples of significant investigations follow:
                                                                                                         PAGE 89
                                       ◆   Postal Inspectors arrested an account          ◆   In New York, a telemarketer was found
                                           executive of a finance company who was             guilty of operating a fraudulent invest-
                                           charged with conspiracy to submit false            ment vending machine business. No
                                           loan applications using the identity of            vending machines were delivered and the
         DID YOU                           elderly victims. Using this scheme, the            telemarketer subsequently went out of
         KNOW?                             executive stole over $400,000 from the
                                           finance company.
                                                                                              business. Victims’ investments ranged
                                                                                              from $2,000 to $25,000, with total losses
                                       ◆   Postal Inspectors along with other law             exceeding $250,000.
                                           enforcement agencies arrested three indi-
Is employee diversity                      viduals and charged them with identity         FRAUD AGAINST BUSINESSES
important to OIG?                          theft from more than 90 victims that                Postal Inspectors devote considerable
Yes. The OIG is proud of the               they used to steal in excess of $500,000.      resources to protecting the business community
                                           These individuals used six different com-      from being victimized by mail fraud scams.
diverse talents, skills, and profes-
                                           mercial mail receiving agency addresses        Postal Inspectors are currently conducting 1,440
sional experience of our staff.            as mail drops to obtain the identification.    investigations relating to frauds against busi-
The OIG believes diversity has                                                            nesses. During this reporting period, there have
                                       ◆   Postal Inspectors and local law enforce-
enhanced our work environment.             ment officers arrested two individuals for     been a total of 339 arrests and 302 convictions.
                                           the theft of personal identification from      Following are a few examples of actions taken.
                                           numerous unsuspecting victims. The             Examples of significant investigations follow:
                                           identification was then used to establish
                                                                                          ◆   Florida Division Postal Inspectors, U.S.
                                           fraudulent bank accounts that resulted in
                                                                                              Secret Service Agents, and other law
                                           the loss of over $1 million. Federal prose-
                                                                                              enforcement officers arrested two people
                                           cution is pending.
                                                                                              for operating large-scale credit card fraud,
                                                                                              identity theft, and mail diversion
                                       FRAUD AGAINST CONSUMERS
                                                                                              schemes from recently deceased individu-
                                            Consumers are targeted by sweepstakes,            als. Total losses exceeded $1 million.
                                       telemarketing, work at home, lottery, merchan-
                                                                                          ◆   Postal Inspectors working with represen-
                                       dise misrepresentations, vacation, real estate
                                                                                              tatives of the recording industry arrested a
                                       and investment scams, just to name a few. Postal
                                                                                              Florida resident for using the Internet and
                                       Inspectors are currently conducting 1,447 inves-       U.S. mail to sell pirated compact discs,
                                       tigations relating to mail fraud against con-          audiocassettes, and videos. This individ-
                                       sumers. During this reporting period, Postal           ual also established a Postal Service cus-
                                       Inspectors have made 328 arrests and 243 con-          tomer account and received over 700
                                       victions have been obtained. Examples of sig-          Domestic and Global Priority Mail
                                       nificant investigations follow:                        envelopes to further fraudulent sales.
                                       ◆   In December 2000, an individual was            ◆   An Illinois doctor and the hospital the
                                           imprisoned for 36 months for participat-           doctor controlled agreed to pay the
                                           ing in a mortgage flipping scheme.                 United States and the State of Illinois a
                                           Mortgage flipping occurs when distressed           total of $14 million to settle allegations
                                           properties are purchased for a small               that both the doctor and the hospital
                                           price and then are sold to low-income,             defrauded Medicare and Medicaid for
                                           first-time homebuyers at a substantially           over 8 years.
                                           inflated price. This case was highlighted      ◆   In October 2000, the U.S. Attorney’s
                                           in a Senate Appropriations                         office in New York forwarded a check in
                                           Subcommittee hearing on nationwide                 the amount of over $3.1 million to the
                                           mortgage flipping and predatory lending            Postal Service as a representative share of
                                           practices.                                         the net proceeds realized from an investi-
                                       ◆   Three individuals were convicted in con-           gation where Postal Inspectors discovered
                                           nection with operating two illegal tele-           that the owner of a company defrauded
                                           marketing operations in California.                various manufacturers by improperly
                                           These companies defrauded 2,200 victims            redeeming manufacturers’ coupons. The
                                           (mostly elderly) of over $1.2 million.             overall net worth of the coupon scheme
                                                                                              was in excess of $5 million.

                             PAGE 90   OTHER SIGNIFICANT REVIEWS
FRAUD AGAINST GOVERNMENT                               task force agents in Puerto Rico arrested
     A total of 270 individuals have been              an individual for structuring bank
                                                       accounts to avoid federal reporting regu-
arrested and 211 convicted for fraud against the
                                                       lations. The individual purchased numer-
government. The mail is used to commit a vari-
                                                       ous postal money orders at different
ety of frauds against government agencies at all
                                                       postal stations from January 2000
levels, including Medicare/Medicaid fraud, false       through March 2001, with each purchase
claims for tax refunds, and false claims for a         totaling under $3,000. A total of over
variety of benefits such as education, housing,        $133,000 was seized, with over $72,000
and welfare. Examples of significant investiga-        representing postal money orders.
tions follow:
◆    As a result of an investigation by Postal
     Inspectors and agents from the
     Department of Labor for the State of
     Massachusetts, the ringleader of an
     unemployment scheme was convicted of
     filing more than 40 fraudulent claims for
     unemployment benefits under fictitious
     company names. The fraudulent claims
     exceeded over $350,000.
◆    In Missouri, a clinical psychologist pled
     guilty to defrauding Medicare of at least
     $442,600 by submitting over 3,000 fraud-
     ulent claims for undocumented psy-
     chotherapy services on behalf of nursing
     home patients.

 MONEY LAUNDERING
 INVESTIGATIONS
     The Inspection Service investigates crimi-
nals who use postal money orders and other
postal financial products to launder illicit pro-
ceeds and avoid federal reporting requirements
in violation of the Money Laundering Control
Act and the Bank Secrecy Act. Illicit proceeds
may include those gained through narcotic
sales, the smuggling of illegal aliens, tax evasion,
or the selling of counterfeit merchandise.
Following are examples of investigated money
laundering cases:
◆    In February 2001, Postal Inspectors seized
     $148,000 from two bank accounts in
     California after an investigation dis-
     closed that the proceeds in these
     accounts were directly derived from the
     deposit of postal money orders. These
     accounts were specifically structured to
     avoid federal reporting regulations.
◆    On March 29, Postal Inspectors and
     High Intensity Financial Crimes Area




                                                                                                   PAGE 91
PAGE 92   OTHER SIGNIFICANT REVIEWS
Appendices




   DID YOU
   KNOW?
 Is OIG responsible for all audits within the Postal Service?
 Yes. In January 1999, the Postmaster General reemphasized to all
 Postal Service officers the audit role of the OIG. Specifically, the
 OIG is responsible for performing or contracting for all Postal
 Service audits as well as establishing procedures for
 management requested audits. In addition, the OIG serves as the
 focal point with other agencies to coordinate work efforts and
 avoid any duplication.




                                                PAGE 93
                                       APPENDIX A

                                       Reports Issued to Postal Management
                                       For the period October 1, 2000, through March 31, 2001

                                       OVERVIEW
                                       Office of Inspector General
                                       OIG teams are aligned to conduct performance and financial audits, evaluations, and other
                                       reviews to address the business processes of the Postal Service. Each team issues audit reports
                                       (AR), letter advisory reports (LA), or management advisory reports (MA) in accordance with
                                       the identified needs of the project.

                                       Inspection Service
                                       Inspection Service audit groups were aligned by the type of audits performed which are primarily
                                       performance, financial, contract, and facility audits. The Inspection Service provided Postalwide
                                       attention in selected areas until September 30, 2000, when all audit functions were transitioned
                                       to the OIG.


                                       SUMMARY
                                       The following is a summary by principal area of reports issued to Postal Service management for both
                                       the OIG and Inspection Service. The following pages list each organization's reports separately.

                                                                                                                   Recommend
                                                                      Number of      Questioned   Unsupported     Funds Put to   Unrecoverable
                                       Principal Area             Reports Issued          Costs        Costs1       Better Use           Costs
Definitions                            Performance                            9              $0            $0    $17,561,800               $0
Questioned Costs - A cost that is      Financial Management                  57      39,031,995     5,988,850     10,684,162       42,315,838
unnecessary, unreasonable, unsup-      Technology                            10               0             0              0                0
ported, or an alleged violation of     Labor Management                      24               0             0              0                0
law, regulation, contract, etc.
                                       Oversight                              3               0             0              0
Unsupported Costs - A cost that        Other Significant Review              29               0             0              0                0
is not supported by adequate docu-
mentation.                             GRAND TOTAL                         132     $39,031,995    $5,988,850    $28,245,962      $42,315,838
Funds Put to Better Use - Funds
that could be used more efficiently
by implementing recommended
actions.
Unrecoverable Costs - A cost that
perhaps should not have been
incurred and is not recoverable.




                                       1 Unsupported costs are included with the amounts shown as questioned costs.

                             PAGE 94    APPENDICES
REPORT LISTING
The following is a list of each report grouped by core business processes and enabling functions.


OIG REPORTS
PERFORMANCE
                                                                   Un-    Recommend             Un-
Report          Subject Title/                  Questioned   supported   Funds Put to   recoverable     Issue
Number          Project Type                         Costs       Costs     Better Use         Costs      Date
 ACCEPTING AND PROCESSING
AC-AR-01-001       Certified Mail Processing           $0          $0             $0            $0     3/9/01
                   and Delivery Functions
AC-MA-01-001       North Carolina Post                  0           0              0             0    3/30/01
                   Office Mail Delays
DELIVERY
DE-AR-01-001       Review of the                       $0          $0             $0            $0    1/26/01
                   Postal Service Delivery
                   Confirmation Program at
                   Selected Facilities
MARKETING
MK-AR-01-001       The Postal Service's                $0          $0             $0            $0    3/27/01
                   Ability to Meet
                   Requirements of an
                   Electronic Commerce
                   Mailer
TRANSPORTATION
TR-AR-01-001       Adequacy of Mail                    $0          $0             $0            $0 10/31/00
                   Transport Equipment
                   Service Center Network
                   Internal Controls
TR-AR-01-002       Safety and Security of               0           0    17,561,800              0    3/30/01
                   Postal Service Leased
                   Trailer Fleet
TR-MA-01-001       Leased Trailer                       0           0              0             0    3/30/01
                   Deficiencies in the
                   New York Metro Area
PERFORMANCE TOTALS                                     $0          $0 $17,561,800               $0


FINANCIAL MANAGEMENT
FINANCIAL-RELATED
FF-AR-01-001       Audit of Statistical Tests          $0          $0             $0            $0 10/26/00
                   for the Fiscal Year 2000
                   Cost and Revenue
                   Analysis - capping report
FT-AR-01-001       Withholdings &                       0           0              0             0 10/27/00
                   Contributions for
                   Health Benefits,
                   Life Insurance,
                   Retirement, and
                   Employee Headcount Data
FT-AR-01-002       Fiscal Year 2000                     0           0              0             0 10/31/00
                   Information System
                   Controls, Eagan,
                   San Mateo, and
                   St. Louis Information
                   Technology & Accounting
                   Service Centers



                                                                                                                PAGE 95
                                                                          Un-    Recommend             Un-
          Report         Subject Title/                Questioned   supported   Funds Put to   recoverable     Issue
          Number         Project Type                       Costs       Costs     Better Use         Costs      Date
          FT-AR-01-003   FY 2000 Postal Service               $0          $0             $0            $0 12/21/00
                         Financial Statement Audit
                         Washington, D.C.
                         Headquarters
          FT-AR-01-004   Postal Service Board of               0           0              0             0 12/22/00
                         Governors' Travel and
                         Miscellaneous Expenses
                         for FY 2000
          FT-AR-01-005   Postal Service Officers'              0           0              0             0 12/22/00
                         Travel and Representation
                         Expenses for FY 2000
          FF-AR-01-002   Fiscal Year 2001 Financial            0           0              0             0    1/25/01
                         Installation Audit -
                         South Georgia Stamp
                         Distribution Office
          FF-AR-01-003   Fiscal Year 2001 Financial            0           0              0             0    1/25/01
                         Installation Audit -
                         Cleveland Stamp
                         Distribution Office
          FF-AR-01-004   Fiscal Year 2001 Financial            0           0              0             0    1/25/01
                         Installation Audit -
                         Self-Service Postal Center
                         Miami, Florida
          FT-AR-01-006   Audit of the Postal                   0           0              0             0    2/22/01
                         Service's FY 2000 Budget
                         Formulation Process
          FT-AR-01-007   FY 2000 Postal Service                0           0              0             0     3/6/01
                         Financial Statement Audit -
                         Eagan Information
                         Technology and Accounting
                         Service Center
          FT-AR-01-008   FY 2000 Postal Service                0           0              0             0     3/6/01
                         Financial Statement Audit -
                         San Mateo Information
                         Technology and Accounting
                         Service Center
          FT-AR-01-009   FY 2000 Postal Service                0           0              0             0     3/6/01
                         Financial Statement Audit -
                         St. Louis Information
                         Technology and Accounting
                         Service Center
          FF-AR-01-005   Fiscal Year 2001 Financial            0           0              0             0    3/16/01
                         Installation Audit -
                         Village Station Post Office
          FF-AR-01-006   Fiscal Year 2001 Financial            0           0              0             0    3/16/01
                         Installation Audit -
                         Northern Illinois District
                         Accounting Office
          FF-AR-01-007   Fiscal Year 2001 Financial            0           0              0             0    3/16/01
                         Installation Audit -
                         Stamp Distribution Office
                         Las Vegas
          FF-AR-01-008   Fiscal Year 2001 Financial            0           0              0             0    3/16/01
                         Installation Audit -
                         Stamp Distribution Office
                         Midway San Diego




PAGE 96   APPENDICES
                                                                  Un-    Recommend             Un-
Report          Subject Title/                 Questioned   supported   Funds Put to   recoverable     Issue
Number          Project Type                        Costs       Costs     Better Use         Costs      Date
CONTRACTING
CA-CAR-01-001   Evaluation of                         $0          $0             $0            $0 10/10/00
                Accounting System
CA-CAR-01-002   Evaluation of Firm             14,277,059   4,971,627             0             0 10/19/00
                Fixed Price Proposal
CA-CAR-01-003   Evaluation of Firm               764,035           0              0             0 10/19/00
                Fixed Price Proposal
CA-CAR-01-004   Evaluation of Firm                     0           0              0             0 10/19/00
                Fixed Price Proposal
CA-CAR-01-005   Evaluation of Equitable                0           0              0             0 10/24/00
                Adjustment Proposal
CA-CAR-01-006   Evaluation of Compliance               0           0              0             0 10/24/00
                with Cost Accounting
                Standard
CA-CAR-01-007   Evaluation of Compliance               0           0              0             0 10/24/00
                with Cost Accounting
                Standard
CA-CAR-01-008   Evaluation of Compliance               0           0              0             0 10/24/00
                with Cost Accounting
                Standard
CA-CAR-01-009   Evaluation of Timekeeping              0           0              0             0 10/24/00
                Procedures and Observation
                of Work Areas
CA-CAR-01-010   Evaluation of Incurred Costs           0           0              0             0 10/24/00
CA-CAR-01-011   Evaluation of Firm              1,274,207          0              0             0 11/17/00
                Fixed Price Proposal
CA-CAR-01-012   Evaluation of                    738,508     379,646              0             0 11/22/00
                Termination Claim
CA-CAR-01-013   Evaluation of Firm Fixed        7,264,275    361,997              0             0 12/14/00
                Price Subcontract Proposal
CA-CAR-01-014   Evaluation of Costs Billed         3,624       3,624              0             0 12/15/00
CA-CAR-01-015   Evaluation of Proposal                 0           0              0             0 12/15/00
CA-CAR-01-016   Evaluation of Proposal                 0           0              0             0 12/29/00
CA-MA-01-001    Privacy Data Contained                 0           0              0             0 12/29/00
                in Contract Files
CA-CAR-01-017   Evaluation of Proposal                 0           0              0             0     1/2/01
CA-CAR-01-018   Evaluation of Proposal                 0           0              0             0     1/2/01
CA-CAR-01-019   Evaluation of Proposal                 0           0              0             0     1/2/01
CA-CAR-01-020   Evaluation of Proposal                 0           0              0             0    1/12/01
CA-CAR-01-021   Evaluation of Costs Incurred           0           0              0             0    1/12/01
CA-CAR-01-022   Evaluation of Proposal                 0           0              0             0    1/29/01
CA-CAR-01-023   Verification of Incurred               0           0              0             0     2/1/01
                Costs Claimed
CA-CAR-01-024   Evaluation of Leasing Costs      101,768           0              0             0     2/2/01
CA-CAR-01-025   Evaluation of Firm Fixed          11,191           0              0             0     2/7/01
                Price Change Proposal
CA-CAR-01-026   Evaluation of Firm              1,609,538          0              0             0     2/9/01
                Fixed Price Proposal
CA-CAR-01-027   Review of Subcontract                  0           0              0             0    2/16/01
                Incurred Costs
CA-CAR-01-028   Evaluation of Incurred Costs           0           0              0             0    2/16/01
CA-CAR-01-029   Evaluation of Indefinite               0           0              0             0    2/16/01
                Delivery, Indefinite
                Quantity Proposal



                                                                                                               PAGE 97
                                                                                Un-    Recommend             Un-
          Report          Subject Title/                   Questioned     supported   Funds Put to   recoverable     Issue
          Number          Project Type                          Costs         Costs     Better Use         Costs      Date
          CA-CAR-01-030   Evaluation of Final Voucher             $0            $0             $0            $0    2/21/01
                          and Incurred Costs
          CA-CAR-01-031   Evaluation of Firm                 487,790       271,956              0             0    2/26/01
                          Fixed Price Proposal
          CA-CAR-01-032   Post Award Evaluation                    0             0              0             0    2/26/01
          CA-AR-01-001    Contracting Practices for    12,500,000                0    10,684,162     42,315,838    2/27/01
                          the Procurement of Mail
                          Transport Equipment Services
          CA-CAR-01-033   Evaluation of Firm Fixed                 0             0              0             0     3/7/01
                          Price Change Proposal
          CA-CAR-01-034   Review of Final Vouchers                 0             0              0             0     3/7/01
                          and Incurred Cost
          CA-CAR-01-035   Evaluation of Compliance                 0             0              0             0     3/7/01
                          with Cost Accounting
                          Standard
          CA-CAR-01-036   Evaluation of Incurred Costs             0             0              0             0     3/8/01
          FINANCIAL MANAGEMENT TOTALS                    $39,031,995    $5,988,850 $10,684,162 $42,315,838


          TECHNOLOGY
          INFORMATION SYSTEMS
          IS-CS-01-001    Server Security Testing                 $0            $0             $0            $0    3/14/01
          IS-CS-01-002    Server Security Testing                  0             0              0             0    3/22/01
          IS-CS-01-003    Server Security Testing                  0             0              0             0    3/22/01
          IS-CS-01-004    Server Security Testing                  0             0              0             0    3/22/01
          DEVELOPMENTAL
          DA-AR-01-001    Consolidation of the Postal             $0            $0             $0            $0 11/24/00
                          Service Accounting Service
                          and Data Centers
          DA-AR-01-002    Robotics Containerization                0             0              0             0    2/26/01
                          System
          DA-MA-01-001    Robotics Containerization                0             0              0             0     3/9/01
                          System Access Controls
          DA-AR-01-003    Delivery Operations                      0             0              0             0    3/29/01
                          Information System
          ELECTRONIC COMMERCE
          EC-AR-01-001    Protection of Internet                  $0            $0             $0            $0    3/26/01
                          Users' Information
          EC-AR-01-002    USPS.com Disaster                        0             0              0             0    3/28/01
                          Recovery Plan
          TECHNOLOGY TOTALS                                       $0            $0             $0            $0


          LABOR MANAGEMENT
          VIOLENCE IN THE WORKPLACE
          LB-AR-01-002    Review of the Violence                  $0            $0             $0            $0 11/28/00
                          Prevention and Response
                          Programs in the
                          San Jose District
          LB-AR-01-003    Review Violence                          0             0              0             0 11/28/00
                          Prevention and Response
                          Programs in the
                          Santa Ana District
          LB-AR-01-004    Review of the Violence                   0             0              0             0 11/28/00
                          Prevention and Response
                          Programs in the
                          Sacramento District


PAGE 98   APPENDICES
                                                              Un-    Recommend             Un-
Report         Subject Title/              Questioned   supported   Funds Put to   recoverable     Issue
Number         Project Type                     Costs       Costs     Better Use         Costs      Date
LB-AR-01-005   Review of the Violence             $0          $0             $0            $ 0 11/28/00
               Prevention and Response
               Programs in the
               Long Beach District
LB-AR-01-006   Review of the Violence              0           0              0             0 11/28/00
               Prevention and Response
               Programs in the
               Van Nuys District
LB-AR-01-007   Review of the Violence              0           0              0             0 11/30/00
               Prevention and Response
               Programs in the
               Mid-Carolinas District
LB-AR-01-008   Review of the Violence              0           0              0             0 11/30/00
               Prevention and Response
               Programs in the
               Richmond District
LB-AR-01-009   Review of the Violence              0           0              0             0 11/30/00
               Prevention and Response
               Programs in the Greater
               South Carolina District
LB-AR-01-010   Review of the Violence              0           0              0             0 11/30/00
               Prevention and Response
               Programs in the
               Greensboro District
LB-AR-01-011   Review of the Violence              0           0              0             0 11/30/00
               Prevention and Response
               Programs in the
               Kentuckiana District
LB-AR-01-012   Review of the Violence              0           0              0             0 11/30/00
               Prevention and Response
               Programs in the
               Appalachian District
LB-AR-01-001   Review of the Violence              0           0              0             0 12/11/00
               Prevention and Response
               Programs in the
               Honolulu District
LB-AR-01-015   Review of the Violence              0           0              0             0    3/29/01
               Prevention and Response
               Programs in the
               Portland District
LC-AR-01-001   Review of the Violence              0           0              0             0    3/29/01
               Prevention and Response
               Programs in the
               Spokane District
LC-AR-01-002   Review of the Violence              0           0              0             0    3/29/01
               Prevention and Response
               Programs in the
               Alaska District
LC-AR-01-003   Review of the Violence              0           0              0             0    3/29/01
               Prevention and Response
               Programs in the
               Big Sky District
LB-AR-01-016   Review of the Violence              0           0              0             0    3/30/01
               Prevention and Response
               Programs in the
               Las Vegas District
LC-AR-01-005   Review of the Violence              0           0              0             0    3/30/01
               Prevention and Response
               Programs in the
               Colorado/Wyoming District

                                                                                                           PAGE 99
                                                                             Un-    Recommend             Un-
           Report         Subject Title/                  Questioned   supported   Funds Put to   recoverable     Issue
           Number         Project Type                         Costs       Costs     Better Use         Costs      Date
           LC-AR-01-006   Review of the Violence                 $0          $0             $0            $0    3/30/01
                          Prevention and Response
                          Programs in the
                          Arizona District
           WORKPLACE ENVIRONMENT
           LB-AR-01-014   Assessment of Management               $0          $0             $0            $0     1/5/01
                          Actions in Response to
                          Safety Violations at a
                          Facility
           LC-AR-01-004   Review of Safety and                    0           0              0             0    3/27/01
                          Health Inspections in
                          the Pacific Area
           LB-MA-01-001   Review of Allegations of a              0           0              0             0    3/29/01
                          Hostile Work Environment
                          at a Post Office in
                          the Greater South
                          Carolina District
           HUMAN RESOURCE PROCESSES
           LB-AR-01-013   Equal Employment                       $0          $0             $0            $0 12/21/00
                          Opportunity Complaint
                          Settlement Agreement
           LB-LA-01-001   Abandoned Postal Records                0           0              0             0 12/29/00
                          Found at a Dallas Facility
           LABOR MANAGEMENT TOTALS                               $0          $0             $0            $0


           OVERSIGHT
           OV-LA-01-001   Security Badge Controls at             $0          $0             $0            $0    3/26/01
                          Postal Service Headquarters
           OV-MA-01-001   Use of Postal Police Officers           0           0              0             0    3/27/01
                          on the Central Artery/
                          Tunnel Construction Project
           OV-AR-01-001   Audit of Inspection Service             0           0              0             0    3/30/01
                          International Travel
                          and Assignments
           OVERSIGHT TOTALS                                      $0          $0             $0            $0


           OTHER SIGNIFICANT REVIEWS
           SUPPORT OPERATIONS REVIEW
           OS-AR-01-001   Controls Over                          $0          $0             $0            $0 11/21/00
                          Signature Devices
           OS-MA-01-001   Review of Indemnity                     0           0              0             0 11/27/00
                          Claims Process Redesign
           EXECUTIVE INVESTIGATIONS
           0CX013EX000    Executive Investigations               $0          $0             $0            $0 10/04/00
           00CX021EX000   Executive Investigations                0           0              0             0 10/16/00
           00CX030EX000   Executive Investigations                0           0              0             0 10/19/00
           97CX005EX000   Executive Investigations                0           0              0             0 10/30/00
           00CX019EX000   Executive Investigations                0           0              0             0 11/03/00
           00CX051EX000   Executive Investigations                0           0              0             0 11/06/00
           00CX016EX000   Executive Investigations                0           0              0             0 11/14/00
           00CX003EX000   Executive Investigations                0           0              0             0 11/21/00
           00CX038EX000   Executive Investigations                0           0              0             0 11/22/00
           00CX064EX000   Executive Investigations                0           0              0             0 11/22/00
           99CX014EX000   Executive Investigations                0           0              0             0 11/22/00
           00CX057EX000   Executive Investigations                0           0              0             0 11/22/00

PAGE 100   APPENDICES
                                                                     Un-    Recommend             Un-
Report             Subject Title/               Questioned     supported   Funds Put to   recoverable   Issue
Number             Project Type                      Costs         Costs     Better Use         Costs    Date
00CX044EX000       Executive Investigations            $0            $0             $0            $0 11/22/00
00CX012EX000       Executive Investigations             0             0              0             0 11/22/00
00CX063EX000       Executive Investigations             0             0              0             0 11/24/00
01CX007EX000       Executive Investigations             0             0              0             0 11/27/00
00CX049EX000       Executive Investigations             0             0              0             0 11/28/00
00CX056EX000       Executive Investigations             0             0              0             0 11/28/00
00CX040EX000       Executive Investigations             0             0              0             0 11/28/00
00CX036EX000       Executive Investigations             0             0              0             0 12/04/00
00CX050EX000       Executive Investigations             0             0              0             0 12/04/00
00CX055EX000       Executive Investigations             0             0              0             0 12/11/00
98CX011EX000       Executive Investigations             0             0              0             0 12/18/00
98CX033EX000       Executive Investigations             0             0              0             0 12/18/00
00CX034EX000       Executive Investigations             0             0              0             0 12/18/00
00CX039EX000       Executive Investigations             0             0              0             0 01/19/01
OTHER
IG-TR-01-001       September 2000                      $0            $0             $0            $0 10/31/00
                   Oversight Testimony
OTHER SIGNIFICANT REVIEWS TOTALS                       $0            $0             $0            $0

OIG TOTALS                                    $39,031,995    $5,988,850 $28,245,962 $42,315,838


INSPECTION SERVICE REPORTS
PERFORMANCE
SERVICE INVESTIGATIONS
0072-1328202-SI(2) Return-to-Sender Mail               $0            $0             $0            $0 01/02/01
                   on Hand
0071-1314927-SI(2) National Mail Condition              0             0              0             0 02/23/01
                   Review
PERFORMANCE TOTALS                                     $0            $0             $0            $0


FINANCIAL MANAGEMENT
REVENUE INVESTIGATIONS
0061-1318200-RI(1) Postage Meter                       $0            $0             $0            $0 03/20/01
0061-1297848-RI(1) Postage Meter                        0             0              0             0 03/26/01
FINANCIAL MANAGEMENT TOTALS                            $0            $0             $0            $0

INSPECTION SERVICE TOTALS                              $0            $0             $0            $0

GRAND TOTALS                                  $39,031,995    $5,988,850 $28,245,962 $42,315,838




                                                                                                                PAGE 101
           APPENDIX B

           Findings of Questioned Costs
           For the period October 1, 2000, through March 31, 2001
           OFFICE OF INSPECTOR GENERAL AND INSPECTION SERVICE
                                                                                                                 Unsupported
                                                                                                                        Costs
                                                                                                        Total      Included In
                                                                                  Number of       Questioned      Questioned
           Description                                                              Reports            Costs            Costs
           Reports for which no management decision was                                 40      $76,890,998     $17,898,909
           made at the beginning of the reporting period
           Reports requiring management decision that were                              11      $39,031,995      $5,988,850
           issued during the reporting period

           TOTALS                                                                       51    $115,922,993      $23,887,759

           Reports for which a management decision was
           made during the reporting period (i+ii)                                      14       $5,608,794      $1,805,781
           (i) Dollar Value of disallowed cost                                                   $5,101,869
           (ii) Dollar value of cost not disallowed                                               $506,925
           Reports for which no management decision was made by
           the end of the reporting period. Negotiations are ongoing                    37     $110,314,199     $22,081,978
           Reports for which no management decision was made within
           six months of issuance (See Note 1 for a list of individual reports)         20      $56,243,795      $8,525,127
           Reports for which no management decision was made within
           one year of issuance (See Note 2 for a list of individual reports)            8      $15,806,068      $7,571,625

           Note 1 – Reports for which no management decision was made within six months of issuance:
                                                                                                                 Unsupported
                                                                                                                        Costs
                                                                                                      Total        Included In
                                                                                                Questioned        Questioned
           Report Date   Case Number               Project Type                                      Costs              Costs
           4/27/00       CA-CAR-00-024             Contract Audit                               $131,750                   $0
           4/27/00       CA-CAR-00-026             Contract Audit                               3,531,433                   0
           5/17/00       CA-AR-00-001              United States Postal Service
                                                   Warranty Repair of Tractors                    977,598                 0
           6/6/00        CA-CAR-00-029             Contract Audit                                  13,107                 0
           6/26/00       CA-CAR-00-031             Contract Audit                               5,065,428                 0
           7/28/00       CA-CAR-00-042             Contract Audit                                 580,338                 0
           8/25/00       CA-CAR-00-046             Contract Audit                                  82,314            61,065
           8/25/00       CA-CAR-00-045             Contract Audit                                 160,053                 0
           8/25/00       CA-CAR-00-047             Contract Audit                                 917,345                 0
           8/29/00       CA-CAR-00-051             Contract Audit                               3,583,880         3,264,062
           9/13/00       CA-CAR-00-054             Contract Audit                               6,172,504                 0
           9/20/00       CA-CAR-00-055             Contract Audit                              10,565,117                 0
           9/20/00       CA-CAR-00-058             Contract Audit                                 159,388                 0
           9/20/00       CA-CAR-00-059             Contract Audit                                  49,120                 0
           9/26/00       CA-CAR-00-062             Contract Audit                                  21,665                 0
           9/29/00       CA-CAR-00-064             Contract Audit                              17,726,329                 0
           9/20/00       FT-LA-00-002              Terminated Cleaning and
                                                   Station Contracts                              216,861                   0
           9/29/00       MK-AR-00-002              Audit of the Management Controls
                                                   Over the Sales Force
                                                   Augmentation Program                         5,200,000         5,200,000

           OIG TOTALS                                                                         $55,154,230        $8,525,127



PAGE 102    APPENDICES
                                                                                          Unsupported
                                                                                                 Costs
                                                                                  Total     Included In
                                                                            Questioned     Questioned
Report Date   Case Number         Project Type                                   Costs           Costs
4/3/00        184-1126310-AC(1)   Contract Audit                             $514,696               $0
8/30/00       184-1210121-AC(1)   Contract Audit                              574,869                0

INSPECTION SERVICE TOTALS                                                  $1,089,565              $0

TOTAL                                                                     $56,243,795     $8,525,127

Note 2 – Reports for which no management decision was made within one year of issuance:
                                                                                          Unsupported
                                                                                                 Costs
                                                                                  Total     Included In
                                                                            Questioned     Questioned
Report Date   Case Number         Project Type                                   Costs           Costs
2/21/00       CA-CAR-00-006       Contract Audit                             $121,452        $54,185
3/14/00       CA-CAR-00-014       Contract Audit                               38,607              0
3/14/00       CA-CAR-00-015       Contract Audit                              464,644              0
3/29/00       CA-CAR-00-018       Contract Audit                               90,366              0
3/31/00       CA-MA-00-001        Contract Audit Practices                     92,214              0
2/29/00       TR-AR-00-005        Southwest Area Expenditures for Extra
                                  Highway Trips Using Leased Equipment        848,000                0

OIG TOTALS                                                                 $1,655,283        $54,185

                                                                                          Unsupported
                                                                                                 Costs
                                                                                  Total     Included In
                                                                            Questioned     Questioned
Report Date   Case Number         Project Type                                   Costs           Costs
12/7/98       184-1243166-AC(1)   Contract Audit                           $7,087,038     $5,841,563
11/17/99      181-1294644-AC(1)   Contract Audit                            7,063,747      1,675,877

INSPECTION SERVICE TOTALS                                                 $14,150,785     $7,517,440

TOTAL                                                                     $15,806,068     $7,571,625




                                                                                                          PAGE 103
           APPENDIX C

           Recommendations That Funds
           Be Put to Better Use
           For the period October 1, 2000, through March 31, 2001
           OFFICE OF INSPECTOR GENERAL AND INSPECTION SERVICE
                                                                                          Number of
           Description                                                                      Reports       Dollar Value
           Reports for which no management decision was
           made at the beginning of the reporting period                                          11   $108,132,118
           Reports requiring management decision that were
           issued during the reporting period                                                      2    $28,245,962

           TOTALS                                                                                 13   $136,378,080

           Reports for which a management decision was made during the report period (i + ii)      7    $97,433,672
           (i) Value of recommendations agreed to by management                                         $97,301,628
           (ii) Value of recommendations that were not agreed to by management                            $132,044
           Reports for which no management decision was made by the end of the reporting period    6    $38,944,408
           Reports for which no management decision was made within six months of issuance
           (See Note 1 for a list of individual reports)                                           1    $28,457,395
           Reports for which no management decision was made within one year of issuance
           (See Note 2 for a list of individual reports)                                           5    $10,487,013



           Note 1 – Reports for which no management decision was made within six months of issuance:
                                                                                                          Recommend
           Report        Case                                                                            Funds Put to
           Date          Number                    Project Type                                            Better Use
           9/29/00       MK-AR-00-001              Review of Stamp Fulfillment Services                 $28,457,395
                                                   Performance Measures

           TOTAL                                                                              $28,457,395
           Note 2 – Reports for which no management decision was made within one year of issuance:

                                                                                                          Recommend
           Report        Case                                                                            Funds Put to
           Date          Number                    Project Type                                            Better Use
           10/30/98      181-1252372-AC(1)         Contract Audit                                        $1,710,680
           12/18/98      181-1253441-AC(1)         Contract Audit                                           145,532
           11/24/98      181-1254410-AC(1)         Contract Audit                                           137,480
           05/20/95      181-1165940-AC(1)         Contract Audit                                         8,370,460
           08/27/99      181-1294162-AC(1)         Contract Audit                                           122,861

           TOTALS                                                                                       $10,487,013




PAGE 104    APPENDICES
APPENDIX D

Reports with Significant
Recommendations Pending
Corrective Actions
For the period October 1, 2000, through March 31, 2001

The name and format of this appendix has changed to provide a more detailed illustration of
reports containing significant recommendations pending final action by management. On
October 1, 2000, the OIG assumed complete responsibility for tracking corrective actions for all
significant recommendations. As a result, the OIG performed an extensive analysis to identify
reports with significant recommendations requiring confirmation that appropriate corrective
actions have been taken. This appendix identifies those reports. During the next 6 months, the
OIG will be working with Postal Service management to validate whether appropriate corrective
actions have been taken, and if so, enable us to remove them from this appendix.

OFFICE OF INSPECTOR GENERAL
Report             Report                                                    Number of           Issue
Number             Title                                                     Recommendations      Date
FL-AR-98-001       The Sugar House Renovation Project                             1            3/30/98
RG-MA-98-001       Kansas City Fulfillment Services Center                        1            3/30/98
CA-MA-98-002       Irregularities at the Greensboro, NC Bulk Mail Center          2            3/31/98
PA-MA-98-001       Enhancement of USPS Audit Reporting and Follow-up Process      4            3/31/98
CAG-AR-98-001      Unisite                                                        4            4/22/98
QR-MA-98-001       Drug-Free Workplace Program                                    1             6/2/98
PA-MA-98-002       Violence in the Workplace - Identification of Area Hot Spots   3            8/28/98
LM-AR-98-001       Diversity and Human Skills Training Program -
                   Milwaukee District Compliance                                  4            9/29/98
CA-AR-98-003       Procurement Prequalification Process                           9            9/30/98
CA-MA-98-003       Supplier Diversity and Minority Contracting                    5            9/30/98
FA-MA-98-001       Stamp Services                                                 1            9/30/98
FR-LA-98-001       Bank Secrecy Act                                               1            9/30/98
HC-AR-98-001       Workers’ Compensation Case Management                          3            9/30/98
OV-MA-98-002       Crime Laboratories’ Accreditation Progress                     1            9/30/98
PA-AR-98-001       Bulk Mail Center Manual Operations                             4            9/30/98
PA-AR-98-002       Total Factor Productivity                                      2            9/30/98
PA-MA-98-003       Retroactive Contributions to the Thrift Savings Plan           1            9/30/98
PA-MA-98-004       Status of Management Actions Taken for Inspection
                   Service Reports on Labor Management                            1            9/30/98
RG-MA-98-005       Review of Revenue Forecasting - International Business Unit    3            9/30/98
RG-MA-98-007       Stamp Out Breast Cancer Act and Stamp                          1            9/30/98
LM-MA-99-002       Effectiveness of USPS Grievance Arbitration Procedures         2            3/26/99
LR-MA-99-001       Grievance Arbitration Management Information                   2            3/26/99
QR-MA-99-001       USPS Management of Personal Services Contract                  1            3/29/99
FA-AR-99-001       Review of Atlanta Olympics Facility Improvement Plan           2            3/31/99
OV-MA-99-001       Review of USPS Personnel Security Program -
                   Process for Updating Sensitive Clearances                      1            3/31/99
DA-AR-99-002       Point of Service ONE                                           1            9/20/99
TR-AR-99-001       Compliance Opportunities for Savings in Rail Detention Costs   3            9/23/99
FR-AR-99-010       Fiscal Year 1999 Information Systems Controls, St. Louis       2            9/28/99
                   Information Service Center
DA-AR-99-003       Corporate Call Management                                      1            9/29/99
FR-AR-99-008       Fiscal Year 1999 Information Systems Controls, San Mateo       1            9/29/99
                   Information Service Center

                                                                                                         PAGE 105
           Report            Report                                                       Number of            Issue
           Number            Title                                                        Recommendations       Date
           TR-AR-99-003      Emergency and Extra Trip Expenditures on Highway Routes           6             9/29/99
           CA-AR-99-001      Opportunities to Increase Savings Through the                     2             9/30/99
                             Use of Natural Gas Vehicles
           CA-AR-99-002      Removal of Underground Storage Tanks                              1             9/30/99
           CA-AR-99-003      Responsibilities of Contracting Officer's Representatives         9             9/30/99
           RP-MA-00-001      Indefinite Quantity Contracts                                     1             11/8/99
           FR-LA-00-001      Sure Money Electronic Funds Transfer Service Expansion            2            11/23/99
                             to Dominican Republic
           RG-MA-00-001      Cost and Benefit of the International Collection Program          1             12/3/99
           DS-MA-00-001      Acceptance of Delivery Vehicles                                   1            12/15/99
           FR-MA-00-001      Budget Cost Containment Measures                                  1            12/22/99
           TR-AR-00-003      Commercial Air Carrier: Performance Measurement System            2             1/31/00
           TR-AR-00-004      Commercial Air Carrier Performance:                               2             1/31/00
                             Effectiveness of Pay for Performance
           TR-AR-00-005      Southwest Area Expenditures for Extra Highway Trips               3             2/29/00
                             Using Leased Equipment
           DS-AR-00-001      External First-Class Mail Measurement System                      2             3/27/00
           TR-AR-00-006      Commercial Air Carrier Performance:                               2             3/27/00
                             Payment for Ground Handling Services
           CA-MA-00-001      Contract Audit Practices                                          7             3/31/00
           DA-AR-00-002      Tray Management System                                            5             3/31/00
           RG-AR-00-002      Breast Cancer Research Stamp Program Review-Phase II              1             3/31/00
           FR-FA-00-010(R)   Relocation Benefits for Postal Service Officers - Revised         2              5/2/00
           AC-AR-00-002      Integrity of Plant Verified Drop Shipment                         1             5/11/00
           BI-MA-00-001      Highway Transportation Contracts                                  1             5/11/00
           DA-MA-00-002      Priority Mail Processing Center Network                           1             6/30/00
                             1999 Christmas Operations
           FA-AR-00-002      Salt Lake City District 2002 Winter Olympic Plans                 2             6/30/00
           TR-AR-00-008      Extra Trip Expenditures at the Dallas Bulk Mail Center            1             6/30/00
           AC-AR-00-003      Revenue Assurance Process                                         3             7/14/00
           CA-LA-00-001      Review of Minority Contracting Opportunities                      2             7/14/00
                             Under Advertising Contract
           OV-MA-00-002      Review of Postal Inspection Service Forensic Scientist Salaries   1             7/17/00
           TR-AR-00-009      Extra Trips Expenditures within the Mid-Atlantic Area             4             7/27/00
           FA-MA-00-007      Review of the Managed Network Services Contract &                 1             7/28/00
                             Billing Process of the Contractor
           FT-FA-00-001      Money Order Blank Stock and Imprinters                            6             8/25/00
           FT-AR-00-002      International List Service Transmittal of                         1             8/29/00
                             Funds Bank Secrecy Act Compliance
           TR-AR-00-010      Use of Chauffeur-Driven Vehicles by Postal Service Executives     3             8/29/00
           EC-AR-00-001      USPS eBillPay Security and Privacy Issues                         1              9/5/00
           DA-AR-00-004      Information Platform Planning                                     1             9/28/00
           FT-AR-00-001      Miscellaneous Relocation Expense Payments                         2             9/28/00
           AC-AR-00-004      Use of Robotic Tray Handling System                               2             9/29/00
           AC-AR-00-005      International Mail Processing                                     2             9/29/00
           DA-AR-00-006      Point of Service ONE Phase II                                     2             9/29/00
           FA-AR-00-005      Seattle Processing and Distribution Center                        1             9/29/00
           FT-AR-00-004      Equity Loss Payments                                              1             9/29/00
           IS-AR-00-004      State of Computer Security in the Postal Service                  4             9/29/00
           LB-AR-00-003      Evaluation of Postal Service Criteria for Workplace Violence      3             9/29/00
                             Prevention and Response Program
           MK-AR-00-001      Review of Stamp Fulfillment Services Performance Measures         1             9/29/00
           OV-AR-00-005      Review of the United States Postal Inspection Service             2             9/29/00
                             Budget Process
           TR-AR-00-011      Dedicated Christmas Air Network - Phase 1                         3             9/29/00
           MK-AR-00-002(R)   Management Controls over the                                      3            10/31/00
                             Sales Force Augmentation Program - Revised

PAGE 106   APPENDICES
Report               Report                                                       Number of            Issue
Number               Title                                                        Recommendations       Date
TR-AR-01-001         Adequacy of Mail Transport Equipment Service Center              4             10/31/00
                     Network Internal Controls
LB-AR-01-013         Equal Employment Opportunity Complaint                           1             12/21/00
                     Settlement Agreement
CA-MA-01-001         Privacy Data Contained in Contract Files                         2             12/24/00

INSPECTION SERVICE
Report               Report                                                       Number of            Issue
Number               Title                                                        Recommendations       Date
0069-1188871-RI(2)   Inbound Foreign Mail Verification                                1             12/13/97
0061-1234452-RI(1)   Meter Security Review                                            1              9/28/98
0061-1262023-RI(1)   Meter Security Review                                            1             12/30/98
0061-1263973-RI(1)   Meter Security Review                                            1              5/21/99
0188-1300042-AF(2)   Financial Audit, Stamp Distribution Office,                      1              8/24/00
                     Seattle District
0061-1305144-RI(1)   Meter Security Review                                            2              3/16/00
0027-1204380-PA(1)   Effectiveness of Employee Reassignments                          1              5/11/98
0024-1214098-PA(1)   City Route Inspections and Adjustments                           1               6/5/98
0038-1292495-PA(2)   Delivery Automation                                              1               2/8/00
0044-1248530-PA(2)   Small Post Office Cost Study                                     2               8/1/00
0020-1220283-PA(1)   Postal Retail Stores                                             3              9/15/98
0022-1244541-PA(1)   Priority Mail                                                    1              3/17/99
0023-1209811-PA(1)   Air Transportation Network                                       3              5/12/98
0052-1290664-PA(3)   City Carrier and Flat Sorting Machine                            2              10/5/99
                     Operations Cost Savings
0061-1296645-RI(1)   Meter Security Review                                            6               7/5/00
0016-1298651-AF(2)   Financial Audit, Westchester District Accounting Unit            1             11/23/99
0016-1298678-AF(2)   Financial Audit, San Francisco District Accounting Office        2              8/29/00



CONTRACT AUDITS
Report Number                      Contractor                           Report Date
0181-1165940-AC(1)                 Contract Audit                         5/20/95
0181-1237199-AC(1)                 Contract Audit                         4/14/98
0181-1252372-AC(1)                 Contract Audit                        10/30/98
0181-1253441-AC(1)                 Contract Audit                        12/18/98
0181-1254410-AC(1)                 Contract Audit                        11/24/98
0181-1294162-AC(1)                 Contract Audit                         8/27/99
0181-1294644-AC(1)                 Contract Audit                        11/17/99
0184-1126310-AC(1)                 Contract Audit                          4/3/00
0184-1210121-AC(1)                 Contract Audit                         8/30/00
0184-1243166-AC(1)                 Contract Audit                         12/7/98




                                                                                                               PAGE 107
           APPENDIX E

           Investigative Statistics1
           For the period October 1, 2000, through March 31, 2001
           OFFICE OF INSPECTOR GENERAL
           Statistics
           Arrests2                                                                     30
           Information/Indictments                                                      34
           Convictions3/Pretrial Diversions                                             16
           Suspension/Debarments                                                         1
           Administrative Actions
             Postal Service Employee                                                     3
             Contractor                                                                  0
           Fines, Restitution, and Recoveries                                   $3,236,800
           Cost Avoidance, Savings and Funds Put To Better Use                 $25,893,263

           INSPECTION SERVICE
           Type of Investigation                                                   Arrests2           Convictions3
           Revenue & Asset Protection Program
            Expenditure Investigations                                                   2               2
            Financial Investigations                                                   133             135
            Workers' Compensation Fraud                                                 15              15
            Revenue Investigations                                                      45              33
           Robbery                                                                      45              41
           Burglary                                                                     74              72
           Miscellaneous External Crimes
             Includes counterfeit and contraband postage,
             money order offenses, vandalism, and arson                               330              289
           Assaults Against Employees
             Includes threats and assaults against on-duty postal employees            191             148
           Employee Narcotics Cases
             Includes employees and non-employees selling narcotics on postal property 32               18
           Mail Theft by Employees, Non-Employees or Contractors
             Includes theft and possession of stolen mail                            3,451           2,526
           Miscellaneous Employee Crimes
             Includes theft of postal property and sabotage of equipment                34              27
           Bombs/Explosive Devices                                                      33              22
           Mailing of Controlled Substances
             Includes hazardous material, firearms and weapons, intoxicants,
             explosives other than bombs, extortion and false documents               843              535
           Child Exploitation, Mailing of Obscene Matter, and
            Sexually Oriented Advisement                                              179              126
           Mailing of Miscellaneous Nonmailables
             Includes hazardous material, firearms and weapons, intoxicants,
             explosives other than bombs, extortion, and false documents               32               42
           Mail Fraud                                                                 937              756

           INSPECTION SERVICE TOTALS                                                6,376           4,787

           1 Statistics include joint investigations with other federal law enforcement agencies.
           2 Some of these arrests occurred in a prior semiannual reporting period, however, they were not
             reported until the current reporting period.
           3 Convictions reported in this time frame may be related to arrests made in prior reporting periods.




PAGE 108    APPENDICES
APPENDIX F

Summary of Postal Service Investigative
Activities Under 39 USC § 3013
For the period October 1, 2000, through March 31, 2001

The Postal Reorganization Act requires the Postmaster General to furnish information on the
investigative activities of the Postal Service on a semiannual basis. With passage of the
Deceptive Mail Prevention and Enforcement Act in December 1999, the Postal Service's report-
ing obligations were changed.
The Act requires the Postal Service to submit its semiannual report to the OIG rather than to
the Board of Governors, expands the subject matter that must be reported, and revises the report-
ing schedule to coordinate with the OIG Semiannual Report to Congress. The information in
the report includes actions directed at combating crimes involving the mail; costs and expendi-
tures devoted to Postal Service investigative activities; use of subpoena power; and any additional
information the OIG may require. This change in reporting requirements was effective the
beginning of this reporting period.

ABUSE OF MAILS
The Postal Service reports to the OIG information related to investigative activities designed to
protect the public against unscrupulous mailers perpetrating fraudulent schemes. The following
information summarizes the administrative and judicial actions initiated and resolved during the
reporting period. These actions include the issuance of cease and desist orders directed to mail-
ers, actions to intercept payments fraudulently induced, and orders seeking to intercept fraudulent
mailings. This information is reported in appendix E - Summary of Inspection Service Actions
Under 39 USC § 3005 and § 3007.

INSPECTION SERVICE
                                                                    False            Cease &
Type of                              Complaints     Consent         Representation   Desist
Scheme                               Filed          Agreements      Orders           Orders
Advance fee                            2              3               1                3
Boiler rooms/Telemarketing                                            1
Contest/Sweepstakes                   4                                                1
False billings                        2               1                                1
Fraud against government agencies     3               3               1                3
Lotteries (foreign and domestic)     24                              24
Medical                               2               1               1                2
Merchandise:
   Failure to furnish                  1
   Failure to pay                      2              2                                2
   Misrepresentation                                  1                                2
Miscellaneous                          2              2                                1
Work at home                           1              1                                1
TOTAL                                43              14              28              16




                                                                                                      PAGE 109
           ADMINISTRATIVE ACTIONS
           Administrative Action requests                      50
           Temporary Restraining Order requests                 0
           Temporary Restraining Orders issued                  0
           Civil Injunction (1345) requests                     3
           Civil Injunctions (1345) issued                      3
           Cases using Direct Purchase Authority                0
           Refusals of Direct Purchase Authority                0
           Civil penalties (Section 3012) imposed               0
           Expenditures incurred for:
             Test Purchases                                   $0
             Expert Testimony                                 $0
           Withholding Mail Orders issued                      73
           Voluntary Discontinuances                          186


           POSTAL SERVICE ADMINISTRATIVE SUBPOENA AUTHORITY
           The Postal Service reports to the Office of Inspector General information on the number of cases
           in which the Postal Service issued administrative subpoenas in connection with deceptive mail-
           ing. The following section identifies the number and nature of cases in which the Postal Service
           exercised this authority to request relevant business and associated records.
           Case Number       Date Requested    Scheme
           USPS-00-013       09/08/00          Work at Home
           USPS-01-001       10/10/00          Medical Fraud-Quackery
           USPS-01-002       10/23/00          Advance Fee
           USPS-01-003       10/11/00          Merchandise-Failure to Pay
           USPS-01-004       10/11/00          Merchandise-Failure to Pay
           USPS-01-005       10/11/00          Merchandise-Failure to Pay
           USPS-01-006       11/13/00          Work at Home
           USPS-01-007       12/20/00          Internet Fraud
           USPS-01-008       12/20/00          Internet Fraud
           USPS-01-009       02/06/01          Medical Fraud-Quackery
           USPS-01-010       02/06/01          Medical Fraud-Quackery
           USPS-01-011       02/15/01          Sweepstakes Fraud
           USPS-01-012       02/20/01          Sweepstakes Fraud
           USPS-01-013       03/21/01          Sweepstakes Fraud
           USPS-01-014       03/21/01          Sweepstakes Fraud
           USPS-01-015       03/21/01          Sweepstakes Fraud
           USPS-01-016       03/21/01          Sweepstakes Fraud
           USPS-01-017       03/21/01          Sweepstakes Fraud
           USPS-01-018       03/21/01          Sweepstakes Fraud
           USPS-01-019       03/21/01          Sweepstakes Fraud




PAGE 110   APPENDICES
INVESTIGATIVE EXPENDITURES AND OBLIGATIONS
The investigative expenditures and obligations for this reporting period are as follows:
Type                                 Year End Report
Personnel                            $157,491,729
Nonpersonnel                          $34,688,397
Total Expenditures                   $192,180,126
Capital Obligations                    $6,626,289



OTHER INVESTIGATIVE ACTIVITIES
The Postal Service also reports to the Office of Inspector General additional information related
to significant investigative activities and other investigative matters. This section outlines a
number of significant investigative activities the Postal Service has initiated and is pursuing, to
include the Mail Task Forces and the KNOW FRAUD Program. Inspection Service and Office
of Inspector General criminal statistical information is summarized in Appendix F.

MAIL TASK FORCES
The Postal Inspection Service has partnered with the financial services, manufacturing, and
direct marketing industries on behalf of the U.S. Postal Service to form three task forces to com-
bat fraud: Credit Card Mail Security, Rebate Fraud and Mail Order Security. Each task force
helps to reduce mail fraud, theft, and processing problems by identifying and exchanging informa-
tion on best practices, fraud trends and loss-prevention techniques; and to develop improved
processes and procedures.
The Credit Card Mail Security Task Force was created in 1992 and has dramatically reduced
nonreceived issued credit card fraud losses by 68 percent, while credit card purchases have
increased more than 86 percent. In 1995, the Postal Inspection Service teamed with the coupon
rebate industry to combat mail-in rebate fraud. The group’s efforts reduced fraud by an estimated
$100 million in 1997. In 1996, the Postal Inspection Service and the direct marketing industry
created the Mail Order Task Force to facilitate this continued success by joining together to pre-
vent and detect fraud and theft. In a pilot program, the Mail Order Task Force has reduced non-
receipt losses by 10 to 15 percent for direct marketing companies experiencing mail processing
problems.

KNOW FRAUD
In an effort to educate and help consumers, President Clinton launched KNOW FRAUD, a con-
sumer protection effort, in November 1999 and cited it as an excellent example of “coordination
among the federal government’s consumer protection agencies.” To launch the KNOW FRAUD
program, the Inspection Service joined forces with several federal, state, and private agencies,
including the Department of Justice, Federal Bureau of Investigation, Federal Trade Commission,
Securities and Exchange Commission, National Association of Attorneys General, American
Association of Retired Persons, and Better Business Bureau. The KNOW FRAUD initiative has
included a postcard mailing to 120 million American households alerting consumers to the dan-
gers of telemarketing and mail fraud.
The KNOW FRAUD partnership is now focusing on identity theft. Work is underway by the
partners to get an identity theft prevention message to consumers. A toll-free ID theft hotline,
1-877-438-4338, and a KNOW FRAUD website were established to provide consumers with
additional information and to link consumers with law enforcement officials who would share
information.




                                                                                                      PAGE 111
           DEFINITIONS OF SCHEMES
           Advance fee. Obtaining fees purporting to secure buyers or obtain loans.
           Boiler rooms/Telemarketing. An office or suite of offices with banks of telephones and telephone
           solicitors who use high-pressure techniques to persuade consumers to respond to bogus offers.
           Contest/Sweepstakes. Schemes in which the respondent is required to pay a fee to obtain prizes
           of money, gifts or other items of value. "Prizes" are either never shipped or are inferior to what
           was promised.
           False billings. Mailing solicitations in the guise of billings.
           Fraud against government agencies. Any scheme that attempts to defraud a U.S. government
           agency except the U.S. Postal Service.
           Lottery. Advertisements seeking money or property by mail for participation in schemes to win
           prizes through chance.
           Medical. Sales by mail of misrepresented health products or services, including fraudulent med-
           ical degrees.
           Merchandise failure to furnish. A mail order operator that does not provide ordered merchandise.
           Merchandise failure to pay. Mail order merchandise that is acquired without providing payment.
           Merchandise misrepresentation. Mail order merchandise or services are materially misrepresent-
           ed in advertising.
           Miscellaneous. Any other scheme not described in a specific category.
           Work at home. Schemes, such as envelope stuffing, that do not provide home employment.




PAGE 112   APPENDICES
APPENDIX G

Closed Congressional and Governors
Inquiries
For the period October 1, 2000, through March 31, 2001
This appendix lists the 103 Congressional and Governors inquiries the OIG closed during this
reporting period. The OIG reviewed these inquiries to help identify systemic issues and to deter-
mine the need for future Postalwide audits.


CONGRESSIONAL
PERFORMANCE
Requestor                  Allegations/Concern                                                    Response Date
Senator, New York          Mail delivery problem                                                    13-Oct-00
White House                Allegation of delayed mail                                               17-Oct-00
Representative, Virginia   Allegation of delayed mail                                               17-Oct-00
Senator, Virginia          Allegation of delayed mail                                               17-Oct-00
Senator, Virginia          Allegation of delayed mail                                               18-Oct-00
Representative, California Allegation of threats to shut down a commercial mail receiving agent     19-Oct-00
Representative, Virginia   Allegation of delivery problem                                           25-Oct-00
Senator, New York          Allegation of delivery problem                                           25-Oct-00
Representative, Arkansas   Allegation of mailers confusing customers                                25-Oct-00
Chairman, House Postal     Allegation of customer needs not being met                              09-Nov-00
Subcommittee
Representative,            Allegation of falsified mail processing times                           09-Nov-00
Pennsylvania
Chairman, House Postal     Review of hazards due to height regulations not being enforced on        31-Jan-01
Subcommittee               the mail boxes
Chairman, House Postal     Review of recurring concerns regarding the delivery of                   26-Feb-01
Subcommittee               small newspapers and periodicals
Senator, Arizona           Customer Service complaint                                               29-Mar-01
Chairman, House Postal     Allegation of problems with certified mail service                       30-Mar-01
Subcommittee

FINANCIAL MANAGEMENT
Requestor                  Allegations/Concern                                                    Response Date
Chairman, House Postal     Allegation of inappropriate site selection process                       18-Oct-00
Subcommittee
Senator, Tennessee         Allegation of problems with the POS accounting system                    19-Oct-00
Representative, Virginia   Allegation of inappropriate contract practices                           19-Oct-00
Senator, Virginia          Allegation of inappropriate contract practices                           19-Oct-00
Representative, California Review of funds used for retirement ceremony                             26-Oct-00
Chairman, House Postal     Review of a case concerning obtain equitable leasing                     21-Feb-01
Subcommittee

LABOR MANAGEMENT
Requestor                  Allegations/Concern                                                    Response Date
Chairman, House Postal     Allegation of harassment, intimidation, and abuse of authority           16-Oct-00
Subcommittee
Chairman, House Postal     Allegation of managerial abuses in the form of age, race,                16-Oct-00
Subcommittee               disabled veteran status, and union participation discrimination
Chairman, House Postal     Allegation of improper request for medical information from              18-Oct-00
Subcommittee               health care provider

                                                                                                                  PAGE 113
           Requestor                  Allegations/Concern                                                  Response Date
           Representative, Maryland   Allegations of abusive management, including harassment,               18-Oct-00
                                      intimidation, and discrimination
           Chairman, House Postal     Allegation of management misconduct creating a                         18-Oct-00
           Subcommittee               hostile work environment
           Chairman, House Postal     Allegation of retaliation, harassment, and abuse                       18-Oct-00
           Subcommittee
           Representative,            Review of working conditions at a post office                          18-Oct-00
           New Mexico
           Representative, California Allegation of a hostile working environment and age discrimination     19-Oct-00
           Chairman, House Postal     Allegation of retaliation                                              19-Oct-00
           Subcommittee
           Chairman, House Postal     Allegation of violence, retaliation, and ineffective                   19-Oct-00
           Subcommittee               labor management dispute procedures
           Senator, Indiana           Allegations of mismanagement and hostile work environment              19-Oct-00
           Senator, Mississippi       Allegations of intimidation                                            19-Oct-00
           Senator, Michigan          Allegation of unethical conduct by management                          20-Oct-00
           Representative, Alabama    Allegations of harassment and punitive, prejudicial,                   23-Oct-00
                                      and discriminatory treatment
           Senator, Washington        Allegation concerning the Health Care Financing Administration         23-Oct-00
           Representative, California Allegation of management violating regulations and harassing employees 23-Oct-00
           Representative, New Jersey Allegation of egregious acts of management abuse                       23-Oct-00
           Chairman, House Postal     Allegation of a hostile environment                                    24-Oct-00
           Subcommittee
           Chairman, House Postal     Allegation of managerial harassment                                    24-Oct-00
           Subcommittee
           Chairman, House Postal     Allegation of retaliation                                              26-Oct-00
           Subcommittee
           Representative, California Allegation of Code of Ethics violations                               06-Nov-00
           Chairman, House Postal     Allegations of management misconduct                                  06-Nov-00
           Subcommittee
           Senator, Tennessee         Allegation of unjust termination                                      06-Nov-00
           Representative, Tennessee Concerns with labor and safety issues                                  16-Nov-00
           Senator, Minnesota         Review of denial of a transfer                                         04-Dec-00
           Representative,            Request for review of customer service, labor management,              12-Dec-00
           Washington                 and bidding irregularities
           Chairman, House Postal     Allegation of mismanagement by postmaster                              20-Dec-00
           Subcommittee
           Representative, New York Allegation of problems with workers’ compensation benefits               22-Dec-00
           Representative, Arizona    Allegation of mismanagement                                            22-Dec-00
           Representative, Virginia   Allegation of a hostile and volatile work environment                  29-Dec-00
           Chairman, House Postal     Allegation of a hostile and volatile work environment                  29-Dec-00
           Subcommittee
           Senator, New Jersey        Allegations that enough jobs for the elderly are not                   29-Dec-00
                                      listed in www.usps.gov
           Chairman, House Postal     Allegation of sexual harassment and retaliation                        01-Feb-01
           Subcommittee
           Chairman, House Postal     Allegations of sexual harassment, assault, discrimination,             01-Feb-01
           Subcommittee               retaliation, and other violent crimes
           Representative,            Allegation of repeated denials for transfers and                       01-Feb-01
           New Jersey                 promotions, and retaliation
           Chairman, House Postal     Review of discrimination complaint                                     02-Feb-01
           Subcommittee
           Representative,            Allegation of rural carriers not receiving just compensation           07-Feb-01
           South Carolina             for extra hours worked
           White House                Allegations of a hostile work environment                              13-Feb-01


PAGE 114    APPENDICES
Requestor                   Allegations/Concern                                                      Response Date
Senator, North Carolina     Allegation of employment problems with the Postal Service                  16-Feb-01
Senator, Washington         Allegations of non-responsiveness by OIG                                   16-Feb-01
Senator, Pennsylvania       Allegation of denial of promotion due to nepotism                          23-Feb-01
Representative, California Allegation of ongoing harassment and extremely hostile                      09-Mar-01
                           working conditions
Chairman, House Postal      Allegations of sexual harassment and a hostile work environment            15-Mar-01
Subcommittee
Representative, Illinois    Allegations of sexual harassment and retaliation                           15-Mar-01
Chairman, House Postal      Concern over work environment                                              16-Mar-01
Subcommittee
Chairman, House Postal      Allegation of inappropriate sexual involvement by a                        16-Mar-01
Subcommittee                manager and misuse of government vehicles
Senator, Tennessee          Allegation of personal mistreatment                                        16-Mar-01
Representative, California Allegation of management misconduct                                         30-Mar-01
Chairman, House Postal      Allegation of discrimination                                               30-Mar-01
Subcommittee
Senator, Michigan           Allegation of racial discrimination and retaliation                        30-Mar-01

OVERSIGHT OF INSPECTION SERVICE
Requestor                   Allegations/Concern                                                      Response Date
Chairman, House Postal      Request for information regarding an assault prosecution declination       13-Oct-00
Subcommittee
Representative, New York Allegation of Inspection Service mishandling of                               18-Oct-00
                         hostile work environment claim
Representative, Maryland    Allegations of mail tampering not handled properly by                      19-Oct-00
                            Inspection Service
Representative, Maryland    Review of postal police duties for classification                          19-Oct-00
Chairman, House Postal      Review of postal police duties for classification                          19-Oct-00
Subcommittee
Chairman, House Postal      Allegation of Inspection Service not following risk abatement plans        19-Oct-00
Subcommittee
Senator, Maryland           Allegation of Inspection Service handling of an investigation              19-Oct-00
Representative,             Allegation of failure to address mail tampering complaint                 07-Nov-00
Washington
Senator, Maryland           Review of initial Inspection Service investigation of criminal conduct    07-Nov-00
Senators, Maryland and      Allegation of Inspection Service willful neglect in                       07-Nov-00
Tennessee                   conducting an investigation
Chairman, House Postal      Allegations of Inspection Service handling of                             17-Nov-00
Subcommittee                allegations of wrongdoing
Representative, California Allegations of incorrect practices in compensation case                    29-Nov-00
Chairman, House Postal      Review of the effectiveness of changes to the consistency of               29-Dec-00
Subcommittee                disciplinary actions of the Postal Inspection Service
Representative, California Allegations of Inspection Service handling of                               09-Feb-01
                           delayed or lost mail, or stolen items investigation
Senator, Montana            Allegation of Inspection Service handling                                  13-Feb-01
                            of contractor

OTHER SIGNIFICANT ISSUES
Requestor                   Allegations/Concern                                                      Response Date
Representative,             Privacy act information disclosure                                         16-Oct-00
Connecticut
Representative, Maryland    Request for information concerning employment with OIG                    16-Nov-00
Chairman, House Postal      Oversight questions from the September 19th hearing                        03-Jan-01
Subcommittee




                                                                                                                     PAGE 115
           Requestor                 Allegations/Concern                                                         Response Date
           Chairman, House Postal    Questions about OIG hiring practices                                          01-Feb-01
           Subcommittee
           Representative,           Request for information regarding an OIG investigation                        09-Feb-01
           South Carolina
           Representative, California Request for information concerning OIG employment                            13-Feb-01
           Representative,           Request for information regarding an OIG investigation                        13-Feb-01
           South Carolina
           Representative,           Request for a copy of report on investigation of retaliation                  21-Feb-01
           Massachusetts


           GOVERNORS
           PERFORMANCE
           Requestor                 Allegations/Concern                                                         Response Date
           Chairman                  Allegations of improprieties surrounding the procurement process              19-Oct-00
           Chairman                  Allegations of various violations of Postal Service purchasing               07-Nov-00
                                     policies and regulations, ethical conflicts of interest, vandalism of
                                     Postal Service property, and racial discrimination
           Governor                  Allegations of mismanagement by Postal Service managers                       12-Jan-01
           Governor                  Review of improper acceptance of tickets                                      22-Jan-01

           FINANCIAL MANAGEMENT
           Requestor                 Allegations/Concern                                                         Response Date
           Governor                  Review of relocation benefits                                                08-Nov-00

           TECHNOLOGY
           Requestor                 Allegations/Concern                                                         Response Date
           Governor                  Allegations of violations of computer information security laws               19-Oct-00
                                     and regulations

           LABOR MANAGEMENT
           Requestor                 Allegations/Concern                                                         Response Date
           Chairman                  Allegations that management (1) intentionally manipulated the                 20-Oct-00
                                     EEO process causing a backlog of complaints, (2) spent over $150,000
                                     defending their position against his complaint filings over the last
                                     5-years, and (3) covered up Inspection Service audit of postal executives

           OVERSIGHT OF INSPECTION SERVICE
           Requestor                 Allegations/Concern                                                         Response Date
           Governor                  Review of potential for mail theft                                            10-Oct-00

           OTHER SIGNIFICANT ISSUES
           Requestor                 Allegations/Concern                                                         Response Date
           Governor                  Concerns about handling of employment application for OIG                     14-Feb-01




PAGE 116   APPENDICES
                    ,




THIS PAGE TEARS OUT FOR YOUR CONVENIENCE
Notes
Notes
Notes
U.S. Postage Stamps
ISSUED FROM OCTOBER 1, 2000, THROUGH MARCH 31,
2001
PAGE
3   U.S. CAPITOL – honors the U.S. Capitol, which houses the chambers
    of the Senate and House of Representatives.
11 WASHINGTON MONUMENT EXPRESS MAIL – honors the
   Washington Monument as a great tribute to the first American
   President, George Washington.
12 ROY WILKINS – commemorates this advocate for change, civil rights
   and peace, who is the 24th honoree in the Black Heritage series.
19 DEEP SEA CREATURES – provides a view of fascinating and
   mysterious sea life—showing a glimpse into a vast and alien world seen
   by few people.
20 FLOWERS – features photographs of pastel-colored flowers by Robert
   Peak, of Winter Park, Florida.
25 AMERICAN EAGLE – celebrates the style that decorated U.S. mail
   collection boxes in the 1920s and 1930s.
33 GEORGE WASHINGTON – utilizes a black and white photograph of
   a bust by Jean-Anioine Houdon, signed and dated 1785 and on display
   at Mount Vernon.
45 HATTIE W. CARAWAY – honors Mrs. Caraway who was appointed
   to the Senate in 1931 and became the first woman to chair a Senate
   committee.
                                                                             ACKNOWLEDGEMENTS
48 THE PAN-AMERICAN INVERTS – celebrates the Pan-American
   exposition held in Buffalo, New York, featuring reproductions of the      This report represents the
   rare, original artwork from the exposition.
                                                                             outstanding efforts and
56 STATUE OF LIBERTY – features a photograph of the Statue of
   Liberty which was dedicated on October 28, 1886.                          accomplishments of OIG and
71 YEAR OF THE SNAKE – celebrates the lunar new year, featuring              Inspection Service staff. The
   intricate paper cut design of a snake and grass style calligraphy.        production of this report would
72 AMERICAN ILLUSTRATORS – brings together the creations of                  not have been possible without
   20 Society of Illustrators Hall of Fame artists from the classic era of
   American illustration.                                                    the contributions and dedication
84 FRUIT – colorfully illustrates apples and oranges.                        of the many OIG and Inspection
91 NOBEL PRIZE – jointly honors the centennial of the distinguished          Service staff who contributed to
   Nobel Prize by issuing commemorative stamps in the U.S. and Sweden.       this effort, particularly,
101 FARM FLAG – portrays the U.S. flag flying over a farm to celebrate       Laurence Hawkins and Jim
    agricultural life.
                                                                             Nugent of the OIG; and
                                                                             Kenneth Newman of the
                                                                             Inspection Service.
OFFICE OF INSPECTOR GENERAL
        1735 N. Lynn Street
    Arlington, VA 22209-2020
          (703) 248-2300
       Fax: (703) 248-2291
     Internet: www.uspsoig.gov
